<html>
<title> - SAFETY SECURITY OVERSIGHT OF THE NEW NATIONAL NUCLEAR SECURITY ADMINISTRATION</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




  SAFETY AND SECURITY OVERSIGHT OF THE NEW NATIONAL NUCLEAR SECURITY 
                             ADMINISTRATION

=======================================================================

                             JOINT HEARING

                               before the

                    SUBCOMMITTEE ON ENERGY AND POWER

                                and the

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 14, 2000

                               __________

                           Serial No. 106-105

                               __________

            Printed for the use of the Committee on Commerce

                    ------------------------------  

                     U.S. GOVERNMENT PRINTING OFFICE
64-030CC                     WASHINGTON : 2000




                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    TOM SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
                                     BILL LUTHER, Minnesota
                                     LOIS CAPPS, California

                   James E. Derderian, Chief of Staff

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

                    Subcommittee on Energy and Power

                      JOE BARTON, Texas, Chairman

MICHAEL BILIRAKIS, Florida           RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               KAREN McCARTHY, Missouri
  Vice Chairman                      TOM SAWYER, Ohio
STEVE LARGENT, Oklahoma              EDWARD J. MARKEY, Massachusetts
RICHARD BURR, North Carolina         RALPH M. HALL, Texas
ED WHITFIELD, Kentucky               FRANK PALLONE, Jr., New Jersey
CHARLIE NORWOOD, Georgia             SHERROD BROWN, Ohio
TOM A. COBURN, Oklahoma              BART GORDON, Tennessee
JAMES E. ROGAN, California           BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ALBERT R. WYNN, Maryland
HEATHER WILSON, New Mexico           TED STRICKLAND, Ohio
JOHN B. SHADEGG, Arizona             PETER DEUTSCH, Florida
CHARLES W. ``CHIP'' PICKERING,       RON KLINK, Pennsylvania
Mississippi                          JOHN D. DINGELL, Michigan,
VITO FOSSELLA, New York                (Ex Officio)
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland
TOM BLILEY, Virginia,
  (Ex Officio)

                                 ______

              Subcommittee on Oversight and Investigations

                     FRED UPTON, Michigan, Chairman

JOE BARTON, Texas                    RON KLINK, Pennsylvania
CHRISTOPHER COX, California          HENRY A. WAXMAN, California
RICHARD BURR, North Carolina         BART STUPAK, Michigan
  Vice Chairman                      GENE GREEN, Texas
BRIAN P. BILBRAY, California         KAREN McCARTHY, Missouri
ED WHITFIELD, Kentucky               TED STRICKLAND, Ohio
GREG GANSKE, Iowa                    DIANA DeGETTE, Colorado
ROY BLUNT, Missouri                  JOHN D. DINGELL, Michigan,
ED BRYANT, Tennessee                   (Ex Officio)
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Burick, Richard J., Deputy Director, Los Alamos National 
      Laboratory.................................................    42
    Glauthier, Hon. T.J., Deputy Secretary of Energy; accompanied 
      by David Michaels, Assistant Secretary, Office of 
      Environment, Safety, and Health; Glenn S. Podonsky, 
      Director, Office of Independent Oversight and Performance 
      Assurance; Eric Figge, Deputy General Counsel; and David 
      Klaus, Director, Management and Administration, U.S. 
      Department of Energy.......................................     7
    Jones, Gary L., Associate Director, Energy, Resources, and 
      Science Issues, General Accounting Office..................    89
    Kuckuck, Robert W., Deputy Director for Operations, Lawrence 
      Livermore National Laboratory, University of California....    26
    Miller, Daniel S., First Assistant Attorney General, Natural 
      Resources and Environment Section, State of Colorado, on 
      behalf of National Association of Attorneys General........    94
    Robinson, C. Paul, President and Laboratories Director, 
      Sandia National Laboratories...............................    31
    Van Hook, Robert I., President, Lockheed Martin Energy 
      Systems, Inc...............................................    49
Material submitted for the record by:
    Department of Energy, response for the record................   124

                                 (iii)

  

 
    SAFETY SECURITY OVERSIGHT OF THE NEW NATIONAL NUCLEAR SECURITY 
                             ADMINISTRATION

                              ----------                              


                        TUESDAY, MARCH 14, 2000

              House of Representatives,    
                         Committee on Commerce,    
           Subcommittee on Energy and Power, Joint with    
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m., in 
room 2123, Rayburn House Office Building, Hon. Fred Upton 
(chairman, Subcommittee on Oversight and Investigations) 
presiding.
    Members present Subcommittee on Energy and Power: 
Representatives Stearns, Burr, Whitfield, Shimkus, Wilson, 
Pickering, Bryant, Markey, and Strickland.
    Members present Subcommittee on Oversight and 
Investigations: Upton, Burr, Whitfield, Bryant, Stupak, and 
Strickland.
    Staff present: Tom DiLenge, majority counsel; Kevin Cook, 
majority counsel; Anthony Habib, legislative clerk; Sue 
Sheridan, minority counsel; and Edith Holleman, minority 
counsel.
    Mr. Upton. Good morning, everyone. The Congress this 
morning is not yet in session. Welcome to a joint hearing 
between the Oversight and Investigations Subcommittee and the 
Energy and Power Subcommittee. The Congress is not going into 
session until 2 o'clock. I would note that my very good friend, 
Joe Barton, chairman of the Energy and Power Subcommittee, has 
an election in Texas today and he will remain in Texas to vote 
and we do not expect him. Unless this hearing goes terribly 
long we do not expect him to be here for this hearing. But we 
have members from both subcommittees that are here and I would 
make a unanimous consent request that all members will be 
allowed to enter their opening statement as part of the record. 
Without objection so ruled.
    Today's hearing will explore what impact the implementation 
of the new National Nuclear Security Administration within the 
Department of Education may have on the currently centralized 
and critical functions of security and safety oversight. This 
committee knows perhaps better than any committee in Congress 
the extent of the Department's problems in these areas after 
having a number of hearings this past year. We have worked 
together in a bipartisan fashion to explore and expose these 
failings and to urge necessary reforms.
    Safety and security oversight has been a consistent and 
central theme of our work and the focus of many of these 
hearings and other activities. I believe that we have prodded 
the Department toward progress in these areas and I expect that 
this committee will continue to do so in the future. The newest 
challenge for the Department comes in the wake of last year's 
spy scandal which revealed much more about the Department's 
poor security practices than its failure to prevent one alleged 
spy in Los Alamos from compromising our national security. That 
scandal and the resulting scrutiny of DOE's security practices 
led Congress to create a new semi-autonomous agency within the 
Department to manage its nuclear weapon and defense-related 
activities.
    The new NNSA was conceived of as a way to streamline the 
chain of command and improve accountability for security 
matters--two reforms that numerous independent reviews from the 
GAO to the President's own Foreign Intelligence Advisory Board, 
headed by former Senator Rudman, had called for over the years. 
I think that we can all agree with these objectives and that 
the Department needed to be reformed. But one important 
question not addressed in the new law was how semi-autonomy 
would work with respect to the independent oversight of safety 
and security.
    No agency or administration, whatever it is called or 
however it is set up, should be immune from independent 
oversight of such critical functions. The history of poor 
security and safety practices at these sites, however long it 
may be, is still recent enough in fact to caution us against 
letting the NNSA become a self-regulating entity within the 
Department.
    Today's hearing will explore some of the questions raised 
by the act and the Department's implementation plan, 
particularly as they relate to this matter of security and 
safety oversight. Although the NNSA is only 2 weeks old, we may 
be able to begin exploring whether some of the ambiguities and 
inherent conflicts evident in the law and the administration's 
implementation plan are already manifesting themselves in on-
the-ground problems in these two areas.
    I want to thank all of our witnesses for appearing here 
today and will now recognize other members for an opening 
statement. Mr. Stearns from Florida.
    Mr. Stearns. Thank you, Mr. Chairman. This hearing today is 
one of profound importance to our national security. I don't 
think this morning you need to go over the allegations of 
Chinese espionage and security concerns which surfaced last 
year, but rather we should use this forum to highlight the 
problem areas that exist and examine all possible solutions.
    Last year Congress, as mentioned, passed legislation to 
establish the National Nuclear Security Administration, a semi-
autonomous agency within the Department of Energy. This 
legislation was designed to streamline and improve security 
measures and ensure accountability in our national security 
defense facilities.
    Even before the NNSA passed, a number of concerns were 
expressed by both Congress and the administration. For example, 
a number of Commerce Committee members voted against the 
National Defense Authorization Act specifically because of this 
legislation. So I would hazard to guess something has deeply 
troubled them about the language.
    Our goal here today, Mr. Chairman, is to assess the 
problems inherent within NNSA as it relates to oversight of 
safety and security. These are chronic problem areas which have 
existed since the Department's creation. We have heard both 
Senator Rudman and the GAO refer to a, ``culture,'' in DOE 
which seems to espouse a bureaucratic form of elitism and a 
resistance to substantive change. Despite our concerns, the 
NNSA language is now law and we have seen a number of reforms 
set forth by Secretary Richardson to implement the provisions 
of this new law.
    However, some of these actions such as a, ``dual hatting,'' 
of current DOE officials into corresponding NNSA port positions 
appear to be contrary to the letter of the law. It is possible 
though that DOE is finding itself in a Catch-22. DOE appears to 
be violating the, ``semi-autonomous,'' intent of the NNSA law 
in order to comply with its implementation. The laboratories 
themselves are exemplary scientific facilities with some 
serious security and environment, safety, and health problems.
    Mr. Robinson, Director of the Sandia National Labs, has 
referred to the Department, DOE's loaded bureaucracy and micro-
management as a serious problem. But we must remember that 
responsibility must fall on the frontline contractor who 
manages these facilities on a daily basis. In fact, Mr. 
Robinson quoted Senator Rudman's report, which referred to DOE 
as a, ``big Byzantine and bewildering bureaucracy.'' I think 
this speaks volumes in terms of addressing the designs of a new 
NNSA.
    Finally, Mr. Chairman, the Commerce Committee has just 
released a GAO report detailing the shortcomings in security 
tracking, inconsistent rating criteria and development of 
corrective actions from security inspections. This hearing is 
but one more step in the process. We have an extensive public 
record resulting from a number of hearings on DOE restructuring 
and lab management practices over the last several years. My 
responsibility as a member of the Subcommittee on Energy and 
Power is to work to develop legislative solutions to problems 
that exist within the agency's and within the committee's 
jurisdiction.
    So, Mr. Chairman, I look forward to the testimony from our 
witnesses today and I am confident that the information will 
prove valuable as we move through the process.
    Mr. Upton. Thank you, Mr. Stearns. I would recognize the 
gentlelady from Albuquerque, New Mexico, Mrs. Wilson.
    Mrs. Wilson. Thank you, Mr. Chairman. I thank you for 
holding this hearing today. As you know, I have worked with the 
nuclear weapons complex in the past, and Sandia National 
Laboratory is in my district. I was actively involved in 
crafting the legislation last year to implement some common 
sense reforms to protect our Nation's nuclear programs from 
espionage. Last year the Congress passed both the 
reorganization of the Department of Energy and measures to 
strengthen the Department of Energy's counterintelligence 
program. The legislation creates a semi-autonomous agency 
within the Department of Energy with responsibility for the 
Nation's nuclear weapons nonproliferation and nuclear reactors 
program.
    While the Cox report last year and the Rudman report 
brought a renewed awareness of the problems in the management 
in the Department of Energy, what those reports brought forth 
were not new. The Chiles report in 1999, the Drell report in 
1990, the Institute for Defense Analysis 3 years ago, and the 
Galvin report are only some of the very distinguished and 
thoughtful groups that have recommended significant 
organizational change at the Department of Energy. Following 
the 1999 Cox Report on Chinese espionage, former Senator Warren 
Rudman and the President's Foreign Intelligence Advisory Board 
came to similar conclusions.
    I won't go through what those reports recommended, but I 
will include them in my statement in the record. Today a fellow 
New Mexican and a former member of this committee, recognizing 
that there are serious problems, has again tried to implement 
reforms. The fact is that every secretary and assistant 
secretary recognizing there were serious problems tries to 
implement reforms, and we have had an ever-increasing number of 
management overlays within the Department of Energy and more 
structures on top of more structures to oversee other 
structures. That resulted in literally having overseers oversee 
the overseers.
    As an example I will cite the review by the Institute for 
Defense Analysis which found that many DOE and contractor 
officials described Defense Program's oversight as creating an 
inverted management pyramid because the number of reviewers 
exceeds the number of hands-on workers; for example, 
contractors of cited examples where work done by two or three 
people becomes the subject of review meetings involving 40 or 
more defense program's officials. The fact is that this myriad 
of oversight and review did not improve performance. To the 
contrary in some cases I would argue that it diminished 
performance. It is my view that it is frequently easier to be 
the overseer than to be the responsible party. As the overseers 
multiplied, the line between oversight and responsibility was 
blurred and sometimes disappeared and the frequent result was 
that when mistakes were made everyone thinks they are an 
overseer and nobody takes responsibility.
    I might add, Mr. Chairman, that this duplication of 
oversight was also tremendously costly and it is the taxpayers 
of this country that pay that cost. That is why I and some 
others in the Congress came to the conclusion as a result of 
input and conversations with many constituents and others who 
understand these things a lot better than I do that it was time 
to make some serious management change in the way that the 
Department of Energy was structured.
    Last year the Congress passed legislation to reorganize DOE 
and create a semi-autonomous agency within the DOE. Where are 
we now? The DOE initially opposed the implementation of the law 
and the opposition was reflected in the President's statement 
on signing the law. The President and the Secretary dual hatted 
people in the Department of Energy and in the NNSA. Both 
actions are contrary to the spirit and the letter of the law.
    Following its initial resistance to implementing the law, 
the DOE has made some progress and I particularly commend the 
Secretary on the nomination of John Gordon to head the NNSA, 
and I will work hard to make sure that the legislation is there 
to allow him to have the full 3-year term.
    While both of these actions are positive, the 
implementation plan is inadequate in some respects that deserve 
highlighting. The plan continues to confuse lines of authority 
that the law was intended to eliminate. The plan anticipates 
dual hatting employees. That is clearly in violation of the 
Reorganization Act and the plan lacks specificity in many 
important respects.
    These deficiencies in the implementation plan and the dual 
hatting directive tell me--lead me to only one conclusion, and 
that is we are in a transitional period at the Department of 
Energy. Some activity will take place over the next 9 months, 
but the reorganization will be fully implemented by the next 
President, whoever he may be.
    And so now here we are, here we go again. The Department of 
Energy is here with their first round of what I assume will be 
many requests to add overseers and undermine the reorganization 
and the change that was intended by passing the act last year. 
I will resist that change because I think we did something good 
last year. We have a national nuclear security that is subject 
to all of the environment, safety, and health policies that are 
promulgated by the DOE. What we don't have is bureaucrats in 
Washington telling a new director of the NNSA and the lab 
directors how to do their jobs, out there playing on the field 
until it is time for accountability and then they disappear 
into the woodwork.
    Thank you, Mr. Chairman.
    Mr. Upton. Thank you. The gentleman from Kentucky, Mr. 
Whitfield.
    Mr. Whitfield. Mr. Chairman, thank you very much. I am not 
going to make an opening statement.
    Mr. Upton. Thank you for keeping things on schedule here.
    [Additional statement submitted for the record follows:]
    Prepared Statement of Hon. John D. Dingell, a Representative in 
                  Congress from the State of Michigan
    Mr. Chairman, I support your effort to take a close look at the 
early implementation of the National Nuclear Security Administration, a 
``semi-autonomous'' agency within the Department of Energy that was 
established over your and my objections in Title 32 of last year's 
Defense Authorization. It is perhaps too early to determine whether 
fears that this law would recreate the discredited old Atomic Energy 
Commission will bear out. However, it is not too early to witness the 
fruits of hasty drafting on the part of the Armed Services Committees, 
who skirted the normal legislative process and as a result have saddled 
the Department with a poorly conceived reorganization plan.
    There is little doubt that safeguards and security at the 
Department of Energy need improvement, as this committee has observed 
in a number of hearings over the years, and as events within the 
weapons complex last year demonstrated.
    However, this legitimate concern about security was parlayed into a 
much more ambitious agenda. In its final form, the FY 2000 Defense 
Authorization bill undertook a complete reorganization of the 
Department's nuclear weapons complex--including the national 
laboratories--in a provision drafted on the last night of the 
conference, behind closed doors and never subjected to legislative 
hearings. Moreover, Title 32 was included in the defense bill over 
objections from Chairman Bliley, myself, the Subcommittee chairman, and 
a number of other members of this and other committees of jurisdiction. 
It also was adopted over the strong objections of Secretary Richardson 
and the Administration. This legislation gives more autonomy and less 
oversight to the entities within DOE that have caused the greatest 
environmental disaster in the country's history, major health and 
safety problems and the security breach that resulted in this 
legislation. Often they defied directives from headquarters that would 
have avoided some of these problems.
    As is often the case, this departure from normal legislative 
practice has been achieved at considerable cost. Perhaps the most 
glaring problem is ambiguity in the drafting and internal inconsistency 
within Title 32, which makes implementation of this provision rather 
difficult. Is the dual appointment of Department personnel to the NNSA 
permitted? If so, for how many employees and at what levels of 
seniority? Do the legal interpretations of the Department's General 
Counsel take precedence over those of the NNSA's own general counsel, 
or vice versa? I must note that the three laboratory directors who will 
appear before us today wholeheartedly endorse this new approach. And 
why shouldn't they? Once again, they are in charge, despite their 
mediocre--at best--history of dealing with safety, environmental and 
security crises.
    Mr. Chairman, members of this committee raised these same 
questions, and many others, when our colleagues on the Armed Services 
Committees rushed to adopt this provision in conference last year. The 
resulting uncertainty will doubtless continue to plague both DOE and 
the Congressional committees with responsibility for overseeing its 
operations for some time to come.
    Mr. Chairman, I want to particularly call Members' attention to the 
testimony of Mr. Miller of the Colorado Attorney General's Office, 
which highlights the serious adverse consequences that certain 
provisions of Title 32 may have on the States' ability to enforce 
environmental laws and oversee cleanup at DOE nuclear weapons 
facilities. Mr. Miller and 43 State Attorneys General are not alone in 
calling for legislative changes to protect and preserve existing state 
authorities. The National Governors Association and the National 
Conference of State Legislatures have also raised serious concerns 
about Sections 3261 and 3296 of the National Nuclear Security Agency 
legislation and these serious deficiencies should be corrected. I ask 
that correspondence from each of these organizations be inserted at the 
appropriate place in the record.
    Mr. Chairman, I thank you for holding this hearing and look forward 
to the witnesses' testimony.

    Mr. Upton. Our first panel includes the Honorable T.J. 
Glauthier, Deputy Secretary of Energy; and will be accompanied 
by Dr. David Michaels, the Assistant Secretary of the Office of 
Environment, Safety, and Health; and a frequent member to our 
subcommittee, Mr. Glenn Podonsky, Director of the Office of 
Independent Oversight and Performance Assurance of the 
Department of Energy.
    I think as all three of you gentlemen know, it is generally 
the practice of the Oversight Subcommittee to take testimony 
under oath. Do you have any objection to that?
    Hearing none, we also under committee rules allow you to be 
advised by counsel. Do you need counsel?
    Mr. Glauthier. I think we might.
    Mr. Upton. You might?
    Mr. Glauthier. We would like to include our counsel being 
sworn.
    Mr. Upton. If you might, just indicate their names for the 
record and then when we swear you in have them stand as well.
    Mr. Glauthier. Mr. Eric Fygi, who is the Deputy General 
Counsel for the Department of Energy. I think we might include 
David Klaus, who is our Director of Management and 
Administration and co-chaired the implementation effort within 
the Department.
    Okay. If you all five would stand up and raise your right 
hand.
    [Witnesses sworn.]
    Mr. Upton. Thank you. You are now under oath. Mr. 
Glauthier, your remarks will be made in their entirety as part 
of the record. We would like, if we can, to limit your opening 
statement to about 5 minutes and the time is now yours. Thank 
you.

   TESTIMONY OF THE HON. T.J. GLAUTHIER, DEPUTY SECRETARY OF 
  ENERGY; ACCOMPANIED BY DAVID MICHAELS, ASSISTANT SECRETARY, 
 OFFICE OF ENVIRONMENT, SAFETY, AND HEALTH; GLENN S. PODONSKY, 
   DIRECTOR, OFFICE OF INDEPENDENT OVERSIGHT AND PERFORMANCE 
ASSURANCE; ERIC FYGI, DEPUTY GENERAL COUNSEL; AND DAVID KLAUS, 
  DIRECTOR, MANAGEMENT AND ADMINISTRATION, U.S. DEPARTMENT OF 
                             ENERGY

    Mr. Glauthier. Thank you, Mr. Chairman. I will abbreviate 
my comments, understanding the full comments are in the record. 
I do appreciate the opportunity to appear before you today to 
discuss the Department's implementation of the National Nuclear 
Security Administration Act and in particular how the 
Department will address safety and security within the NNSA. 
With me today are Dr. David Michaels, the Assistant Secretary 
for Environment, Safety and Health, and Glenn Podonsky, the 
Director of the Office of Independent Oversight and Performance 
Assurance. They have been involved in developing the 
Department's implementation plan for the NNSA and can help 
answer questions in those areas. And as I mentioned a moment 
ago, Mr. Eric Fygi, our Deputy General Counsel, and David 
Klaus, who is the Director of our Management Administration, 
are both with me as well.
    As a starting point I would like to report to the 
subcommittee that the NNSA is now in place and as of March 1 
over 2,000 Federal employees and over 37,000 contractor 
employees have been reassigned to the NNSA. The Offices of 
Defense Programs, Naval Reactors and Fissile Materials and 
Disposition and Non-proliferation National Security have been 
incorporated into the administration. Organization charts, 
mission and function statements for the new administration are 
in place. Delegations of authority to the NNSA administration 
are in place and new positions have been established. The 
Department is making significant progress in the effort to fill 
the leadership positions of the new administration.
    As you know, President Clinton has announced that he 
intends to nominate Air Force General John Gordon for the 
position of Under Secretary and Administrator of the NNSA. We 
look forward to that and hope that that will proceed rapidly. 
President Clinton also last week nominated Madelyn Creedon for 
the position of deputy administrator of the NNSA for defense 
programs. We hope that she as well as General Gordon will be 
confirmed by the Senate in the near future. With these 
positions filled, the leadership of the NNSA will be in place 
and fully operational.
    While we are implementing the law the Secretary still has 
concerns about how the NNSA was designed in last year's 
legislation. Secretary Richardson is seeking new language which 
allows the Secretary of Energy to manage all personnel within 
the NNSA. This power was provided in the Senate passed version 
but was dropped in the conference version bill. The President 
and the Congress hold the Secretary of Energy accountable for 
his or her actions. At the very least, the law should allow the 
Secretary to manage personnel at the NNSA in the fashion he 
determines necessary.
    Your committee has expressed a particular interest in how 
safety and security concerns will be managed at the new 
administration. Our objective in this regard has been to 
implement the NNSA Act in a manner that continues the 
significant progress that the Department has made in these 
areas and allows the Department's expertise to be utilized 
throughout the full Department.
    As you know, the NNSA has been established at a time when 
DOE is in the midst of responding to significant challenges 
with regard to security. On May 11 last year, Secretary 
Richardson directed the most far-reaching security 
reorganization in the DOE's history to address heightened 
concerns with regard to the security of the nuclear weapons 
program. These reforms included the establishment of a new 
Office of Security and Emergency Operations that reports 
directly to the Secretary and the establishment of a new 
Counterintelligence Program for the Department that also 
reports directly to the Secretary.
    In addition, the Secretary created the Office of 
Independent Oversight and Performance assurance, led by Mr. 
Podonsky, to provide independent oversight of the effectiveness 
of safeguards and security, cyber security and emergency 
management policy and to assess the effectiveness of the 
implementation of these policies in the field. His office also 
reports directly to the Secretary.
    The security reforms have led to significant progress in 
addressing security issues throughout the Department. We also 
have an equally important focus on worker safety and health and 
environmental protection. The Office of Environment, Safety, 
and Health directly supports the Secretary in the development 
of internal environmental, safety, and health policy, including 
the National Environmental Policy Act, the management of 
corporate programs such as radiation accreditation, 
implementation of independent environment, safety, and health 
oversight and enforcement of nuclear safety rules under the 
Price-Anderson Amendments Act.
    The office has led recent initiatives at the Paducah 
gaseous diffusion plant and other DOE facilities with regard to 
environment and worker safety. The Department's implementation 
plan for the NNSA seeks to buildupon these initiatives and to 
continue the progress that has been made in addressing safety 
and security concerns at all of our facilities.
    In this regard I refer also to the principles that guided 
the Department's implementation plan, two of which were to 
preserve the Secretary's overarching authority and to protect 
the environment and health and safety of workers and the 
public. The overall responsibility and authority on safety and 
security policy in the Department rests with the Secretary. I 
can assure you that the Secretary and the entire Department 
take this responsibility quite seriously.
    As for the role of support organizations, it is important 
to recognize that the establishment of the NNSA does not change 
the scope of responsibility for the departmental offices that 
perform independent oversight and have departmentwide 
responsibilities of overall policy in areas such as 
environmental compliance, security, and worker safety and 
health. Independent oversight offices will continue to review 
all DOE sites and activities and report directly to the 
Secretary on their findings and recommendations. To be 
specific, the Assistant Secretary of Environment, Safety, and 
Health and the Office of Independent Oversight and Performance 
Assurance will continue to perform their current functions with 
regard to all activities in the Department, including those 
within the NNSA. Responsibility for the implementation of these 
policies rests within the NNSA and its line management 
organizations.
    Similarly, the primary responsibility for security will be 
the responsibility of the program offices and the Office of 
Defense Nuclear Security, the Office of Nuclear 
Counterintelligence within NNSA. As you may be aware, these are 
two positions that are filled by dual hatted officials of the 
Department.
    The Department already has recognized world class managers 
like Ed Curran in counterintelligence and General Gene Habiger 
in security. They are already leading the effort to implement 
the departmentwide security reforms we all believe are so 
essential at this time. These security problems exist across 
the complex, not only within NNSA. It is essential to have 
consistent and effective policies in place within and outside 
the NNSA, the Department's implementation plan dual hats Ed 
Curran and General Habiger, because it makes no sense to search 
out other people to perform a function they are already doing 
so well.
    Assistant Secretary Michaels has one dual hat 
responsibility within the NNSA, so he can initiate shutdown in 
circumstance where a clear and present safety danger exists. 
The Assistant Secretary has had such authority throughout the 
Department since 1986 and it is appropriate that he continue to 
be able to exercise this authority at the NNSA facilities if 
needed. That's the only responsibility he has in that dual 
hatted position.
    Let me give you an example of how the restructured DOE will 
respond to safety and security concerns in the future. This is 
a real example of how Secretary Richardson and the Department 
are responding to the discovery of ground water contamination 
at the Pantex plant near Amarillo, Texas. The Department's 
initial response to this discovery was taken on March 6, less 
than a week after the day that the NNSA was established and of 
course only a week ago. It provides an excellent example of how 
the Office of Environment, Safety, and Health will be involved 
at an NNSA facility such as Pantex in a matter that is 
consistent with the NNSA Act.
    Let me tell you what we have done. First, the Department 
made the determination as to whether the discovery of 
trichloroethylene in the Ogollala Aquifer presented such a 
serious threat to health and safety that operations at Pantex 
should be shut down. This determination, which was made in 
consultation of officials at the facility, at the Office of 
Defense Programs, and Assistant Secretary Michaels, was that 
the facility did not need to be shut down.
    Second, Secretary Richardson directed that a team of 
experts from our Environmental, Safety, and Health Office go to 
investigate the situation and provide a report to the 
Secretary. I ``emphasize investigate and report'' because you 
should know that ES&H is not going to Pantex to take over the 
situation and direct and control what is going to happen. They 
are there to provide expertise and advice to the Defense 
Program Office and to the Secretary and to the NNSA. We the 
senior officials need to know the facts and recommendations.
    Third, Secretary Richardson directed experts from the 
Office of Environmental Management who are familiar with TCE 
contamination to provide Pantex officials the most recent 
information and help develop a response plan. Once again those 
officials were not there to direct and control the response. 
They were there to help develop a response. The responsibility 
for the actual corrective action still rests with the Office of 
Defense Programs within the NNSA. All of these actions are 
appropriate and entirely within the NNSA Act. They also are the 
best way to get experts from throughout the Department down to 
Pantex to help solve the problem. That's what we need to do 
when we are faced with a situation that threatens health and 
safety, to help solve the problem.
    I appreciate the opportunity to be here today to testify 
and would be happy to answer any questions.
    [The prepared statement of Hon. T.J. Glauthier follows:]
   Prepared Statement of T.J. Glauthier, Deputy Secretary of Energy, 
                          Department of Energy
    I appreciate the opportunity to appear before you today to discuss 
the Department of Energy's implementation of the National Nuclear 
Security Administration Act, and in particular how the Department will 
address safety and security at the NNSA. With me today are Dr. David 
Michaels, Assistant Secretary or Environment, Safety and Health, and 
Glenn Podonsky, the Director of the Office of Independent Oversight and 
Performance Assurance. They have been involved in developing the 
Department's implementation plan for the NNSA, and can help answer any 
questions the Committee may have regarding safety and security 
throughout the Department, including the NNSA.
     establishment of the national nuclear security administration
    As a starting point I would like to report to the Subcommittees 
that the National Nuclear Security Administration is now in place and, 
as of March 1, over 2000 federal employees have been reassigned to the 
NNSA. The Offices of Defense Programs, Naval Reactors, Fissile 
Materials and Disposition, and Nonproliferation and National Security 
have been incorporated into the Administration. This means over 37,000 
contractor employees are under the purview of the NNSA. Organization 
charts and mission and function statements for the new Administration 
are in place. Delegations of authority to the NNSA Administration are 
in place and new positions have been established.
    As required by the NNSA Act, the following contractor-operated 
national laboratories and nuclear weapons facilities also became part 
of the NNSA on March 1, 2000. All of these facilities will report to 
the Deputy Administrator for Defense Programs:

<bullet> Los Alamos National Laboratory, Albuquerque, New Mexico;
<bullet> Sandia National Laboratories, Albuquerque, New Mexico and 
        Livermore, California;
<bullet> Lawrence Livermore National Laboratory, Livermore, California;
<bullet> the Kansas City Plant, Kansas City, Missouri;
<bullet> the Pantex Plant, Amarillo, Texas;
<bullet> the Y-12 Plant, Oak Ridge, Tennessee;
<bullet> the tritium operations facilities, Savannah River, South 
        Carolina; and
<bullet> the Nevada Test Site, Nevada.
    The Offices of Defense Nuclear Security and Defense 
Counterintelligence also have been established within the NNSA, as well 
as the positions of NNSA General Counsel and Deputy General Counsel. 
The Nevada and Albuquerque Field Operations Offices have been 
transferred into the NNSA, and procedures have been put in place so 
that the Field Office Managers at the Oakland, Oak Ridge, and Savannah 
River Operations Offices are reporting to the NNSA programs for NNSA 
functions.
    The Department is making significant progress in the effort to fill 
leadership positions at the new Administration. President Clinton has 
announced that he intends to nominate Air Force General John A. Gordon 
for the position of Undersecretary for Nuclear Security and 
Administrator of the NNSA. The NNSA Act specified that the Under 
Secretary have a national security and a technical background. A 
special search committee appointed by the Secretary to make 
recommendations for this position found no better-qualified candidate 
for this position than General Gordon--he was at the top of their list.
    We believe it is critical that NNSA Administrator not be limited in 
focus to the balance of the current Administration, and therefore are 
seeking a change in the law to specify the sense of the Congress that 
the first Administrator serve for a minimum term of three years, at the 
pleasure of the President. This legislative provision would be much 
like those providing for the appointments of the Joint Chiefs for a 
specified term, at the pleasure of the President. Key leaders of the 
Senate Armed Services Committee have indicated that they intend to move 
expeditiously on this legislation. A three year appointment is a 
serious commitment to making the NNSA Act work in a way that supports 
the mission of the Department of Energy. I would like to stress, 
however, that this provision would only apply to the first 
Administrator, and that all future Administrators would be appointed in 
the normal cycles of Presidential appointments as Administrations 
change.
    President Clinton also has announced his intention to nominate 
Madelyn Creedon for the position of Deputy Administrator of the NNSA 
for Defense Programs. We hope that she, as well as General Gordon, will 
be formally nominated and confirmed by the Senate in the near future. 
With these positions filled, the leadership of the NNSA will be in 
place and fully operational.
    While we are implementing the law, the Secretary still has concerns 
about how the NNSA was designed in last year's legislation. Secretary 
Richardson is seeking new language which allows the Secretary of Energy 
to manage all personnel within the NNSA. This power was provided in the 
Senate passed version of the bill, but was dropped in conference. The 
President and Congress hold the Secretary of Energy accountable for his 
or her actions. At the very least the law should allow the Secretary to 
manage personnel at the NNSA in the fashion he determines necessary.
                    safety and security at the nnsa
    Your Committee has expressed a particular interest in how safety 
and security concerns will be managed at the new Administration. Our 
objective in this regard has been to implement the NNSA Act in a manner 
that continues the significant progress that the Department has made in 
the areas of safety and security, and allows the Department's expertise 
in these areas to be utilized throughout the Department.
    As you know, the National Nuclear Security Administration has been 
established at a time when the Department of Energy is in the midst of 
responding to significant challenges with regard to security at the 
Department's nuclear weapons laboratories and production/test 
facilities. On May 11, 1999, Secretary Richardson directed the most 
far-reaching security reorganization in the Department of Energy's 
history, to address heightened concerns with regard to the security of 
the Department's nuclear weapons program. These reforms included the 
establishment of a new Office of Security and Emergency Operations that 
reports directly to the Secretary, and the establishment of a new 
counterintelligence program for the Department that reports directly to 
the Secretary. In addition, the Secretary created the Office of 
Independent Oversight and Performance Assurance, led by Glenn Podonsky, 
to provide independent oversight of the effectiveness of safeguards and 
security, cyber security, and emergency management policy, and to 
assess the effectiveness of the implementation of these policies by the 
field. This office also reports directly to the Secretary.
    The security reforms have led to significant progress in addressing 
security issues throughout the Department. The Office of Security and 
Emergency Operations has implemented a number of new security policies, 
and additional actions to improve security at the national weapons 
laboratories and production/test facilities are at various stages of 
development and implementation. Since the Office of Counterintelligence 
was established, numerous counterintelligence measures have been 
implemented and new counterintelligence personnel designated at 
critical field operations offices and laboratories across the 
Department. The Office of Independent Oversight and Performance 
Assurance has conducted numerous independent reviews of field 
facilities, including all the nuclear weapons laboratories. As a result 
of these reviews, significant security issues have been identified and 
security programs have been enhanced.
    The Department has an equally important focus on worker safety and 
health and environmental protection. The Office of Environment, Safety 
and Health (EH) directly supports the Secretary in the development of 
internal environment, safety and health policy including the National 
Environmental Policy Act, the management of corporate programs such as 
radiation accreditation, implementation of independent environment, 
safety and health oversight, and enforcement of nuclear safety rules 
under the Price Anderson Amendments Act. The Office has led recent 
initiative at the Paducah Gaseous Diffusion Plan and other DOE 
facilities with regard to environmental and worker safety.
    The Department's implementation plan for the NNSA seeks to build 
upon these initiatives, and to continue the progress that has been made 
in addressing safety and security concerns at all DOE facilities. In 
this regard, I refer you to two of key principles that guided the 
Department's Implementation Plan for establishing the NNSA:

<bullet> Preserve the Secretary of Energy's overarching authority to 
        establish policy for the Department. The NNSA Act recognizes 
        the Secretary's responsibility to set policy for the 
        Department, including the NNSA, and provides that the staff of 
        the Department may support the Secretary in the development of 
        such policy. The Department has implemented the Act in a way 
        that preserves the Secretary's ability to draw upon the 
        expertise and experience that exists throughout the Department 
        in the development of such policies.
<bullet> Protect the environment and the health and safety of workers 
        and the public. Substantial DOE expertise on worker health and 
        safety and environmental protection resides in the Office of 
        Environment, Safety and Health, the Office of Environmental 
        Management and in other program and support offices that are 
        not within the NNSA. The Implementation Plan assures that this 
        expertise, and the capability to provide independent safety 
        oversight and reviews, will still be available with regard to 
        NNSA programs.
    The overall responsibility--and authority--on safety and security 
policy at the Department of Energy rests with the Secretary of Energy. 
I can assure you that the Secretary, and the entire Department, take 
this responsibility quite seriously.
    As for the role of support organizations, it is important to 
recognize that the establishment of the NNSA does not change the scope 
of responsibility of the departmental offices that perform independent 
oversight and have the department-wide responsibilities for overall 
policy in areas such as environmental compliance, security, and worker 
safety and health. Independent oversight offices will continue to 
review all DOE sites and activities and report directly to the 
Secretary on their findings and recommendations. To be specific, the 
Assistant Secretary for Environment, Safety and Health, and the Office 
of Independent Oversight and Performance Assurance will continue to 
perform their current functions with regard to all activities of the 
Department, including those within the NNSA. Responsibility for the 
implementation of these policies rests within the NNSA and its line 
management organizations.
    Similarly, the primary responsibility for security will be the 
responsibility of the program offices and the Office of Defense Nuclear 
Security and Office of Nuclear Counterintelligence within the NNSA. As 
you may be aware, these are two positions that are filled by ``dual 
hatted'' officials of the Department. The Department already has 
recognized world class managers like Ed Curran in Counterintelligence 
and General Gene Habiger in Security. They are already leading the 
effort to implement the Department-wide security reforms that we all 
believe are so essential at this time. These security problems exist 
across the DOE complex--not only within the NNSA. It is essential to 
have consistent and effective policies in place within and outside the 
NNSA. The Department's implementation plan ``dual hats'' Ed Curran and 
General Habiger because it makes no sense to search out other people to 
perform a function they are already doing so well.
    Assistant Secretary Michaels has one ``dual-hat'' responsibility 
within the NNSA so that he can initiate shut-down in circumstances 
where a clear and present safety danger exists. The Assistant Secretary 
has had such authority throughout the Department since 1986, and it is 
appropriate that he continue to be able to exercise this authority at 
NNSA facilities if needed.
    Let me give you an example of how the restructured DOE will respond 
to safety and security concerns in the future. Unfortunately, it is a 
real example--how Secretary Richardson and the Department are 
responding to the discovery of groundwater contamination at the Pantex 
Plant near Amarillo, Texas. The Department's initial response to this 
discovery was taken on March 6, 2000--less than a week after the date 
upon which the NNSA was established. It provides an excellent example 
of how the Office of Environment, Safety and Health will be involved at 
an NNSA facility such as Pantex in a manner that is consistent with the 
NNSA Act. Let me tell you exactly what the Department did at Pantex.
    First, the Department made a determination as to whether the 
discovery of trichloroethylene in the Ogalalia Aquifer presented such a 
serious threat to health and safety that operations at Pantex should be 
shut down. This determination, which was made in consultation with 
officials at the facility, the Office of Defense Programs and Assistant 
Secretary Michaels, was that the facility did not need to be shut down.
    Second, Secretary Richardson directed that a team of experts from 
ES&H go investigate the situation and provide a report to the 
Secretary. I emphasize ``investigate'' and ``report'' because you 
should know that ES&H is not going to Pantex to take over the situation 
and direct and control what is going to happen. They are there to 
provide expertise and advice to the Defense Programs Office and the 
NNSA, and to report their observations to the Secretary. We, the senior 
officials of the Department, need to know the facts and the 
recommendations of our experts on how to proceed.
    Third, Secretary Richardson directed experts from the Office of 
Environmental Management who are familiar with TCE contamination to 
provide Pantex Plan officials the most recent information and help 
develop a response plan. Once again, the officials at Office of 
Environmental Management are not there to ``direct and control'' the 
response--they are there to help develop a response. Responsibility for 
corrective action rests with the Office of Defense Programs within the 
NNSA.
    All of these actions are appropriate--and entirely within the NNSA 
Act. They also are the best way to get experts from throughout the 
Department down to Pantex to help solve the problem. That is what we 
need to do when we are faced with a situation that threatens health and 
safety--solve the problem.
    I appreciate the opportunity to testify on the important issues of 
safety and security at the NNSA. I will conclude my statement and 
welcome any questions which the Panel may have.

    Mr. Upton. Thank you very much. As you know our usual 
procedure is that members will be able to limit ourselves to 5 
minutes and we will switch back and forth between members as 
they appear.
    Your written testimony asserts that under NNSA the 
independent oversight offices will continue to review all DOE 
sites and activities and report directly to the Secretary on 
their findings and recommendations. But I have a couple of 
questions that were not necessarily cited in your testimony. 
Will the oversight offices have the authority to unilaterally 
decide to initiate an inspection of a site within the NNSA or 
will they have to get NNSA approval?
    Mr. Glauthier. No. They will have the authority to decide 
when and where to make investigation.
    Mr. Upton. And Mr. Podonsky's office again I am sure will 
be conducting a no-notice cyber security penetration test on a 
regular basis. Will that office be able to do that under NNSA 
as well?
    Mr. Glauthier. Yes, it will.
    Mr. Upton. Because that's very important and certainly one 
of the things that we viewed as a number of us went and visited 
a number of the labs in January.
    Mr. Podonsky, one criticism of the oversight function in 
the past has been its reluctance to make specific findings and 
get involved in developing or reviewing corrective action plans 
and validating closure of those findings. Over the past year 
your security oversight office has been doing more of this 
hands-on work but a number of us are concerned that under the 
new NNSA these activities may again be limited by claims of 
undue interference. Indeed, throughout the written testimony of 
a number of the witnesses today there seems to be a notion that 
your office's role will be more circumscribed, essentially 
providing advice to the Secretary only. The GAO's testimony 
later on raises that exact issue and notes that DOE's 
implementation plan for NNSA is silent on the point.
    Do you expect a more limited role for oversight under the 
new structure or will you continue to take a more active role 
in corrective action planning and follow-up inspections to 
ensure the adequacy of the reforms?
    Mr. Podonsky. It is our intention, Mr. Chairman, to 
continue our role as an extension of the Secretary's office in 
which he established us to go out there and not to control or 
require, but to report on the activities. To date we have 
experienced within the existing NNSA mostly cooperation in this 
new approach that the Secretary has allowed us to take in terms 
of actually getting involved with corrective action plans and 
following those through to closure.
    Mr. Upton. So you don't see any problems at all, you think 
that you will have unfettered----
    Mr. Podonsky. As of right now under this Secretary we feel 
very comfortable.
    Mr. Upton. Okay. That sort of leads to another question. As 
you may know, a number of us are planning to introduce 
legislation today that codifies what the Secretary has embarked 
upon. Do you know if the administration--I don't know if the 
exact language has been shared, but does the Department yet 
have a recommendation as to whether they would support this 
codification?
    Mr. Glauthier. Of course, Mr. Chairman, we don't have the 
legislation yet so we can't give you our assurance but we would 
be very interested to see it. Our concern is to be sure that we 
will be able to carry on the operations in the way that we have 
put them down. So we will be watching to look and see if your 
legislation is consistent with that.
    Mr. Upton. One of our strengths is yes, we do agree that we 
have a Secretary that is embarking on this effort. We are 
concerned, as I think my colleague from New Mexico has shared 
in her opening statement, that in fact under the next President 
and the next Secretary that in fact these reforms are kept in 
place and not allowed to slip back and therefore the intent of 
the legislation is to in fact codify what is being done now so 
that we have assurance in the next administration and the one 
following that if things don't work out well that we will have 
the proper oversight.
    Mr. Glauthier. We share your objectives. As you may have 
noted in our implementation plan we put forward several 
principles at the beginning, many of which had to do with the 
continuity of the management reforms and establishing more 
accountability within the whole Department for the same sorts 
of things.
    Mr. Upton. Thank you very much. My time is about ready to 
expire. I will let Mr. Stearns--I will yield to Mr. Stearns.
    Mr. Stearns. Thank you, Mr. Chairman. Mr. Secretary, you 
told us this morning that independent oversight of security and 
ESH functions will continue as before, including oversight of 
the elements within the new NNSA. That's good news, I think, to 
many of us. We agree with you on the need for continued 
independent oversight. However, I am not so convinced that the 
Defense Authorization Act lets you do that. Can you explain, 
please, how this works in light of the language in the law that 
specifies employees and contractors in the NNSA, ``shall not be 
responsible to or subject to the authority, direction, or 
control of any other officer, employee, or agent of the 
Department of Energy''?
    Mr. Glauthier. Yes, I would be happy to. I will also give 
you an initial response and then ask our counsel to add his 
thoughts as well.
    Mr. Stearns. You are not breaking the law are you?
    Mr. Glauthier. We are not. We believe this is well within 
the statute.
    Mr. Stearns. So you are finessing it.
    Mr. Glauthier. The statute gives very explicit authority to 
the Secretary to review and examine any of the operations in 
the full Department, to have any of his staff do that. The 
specific language you cited is a limitation on directing people 
within the NNSA from positions outside the NNSA. Both Mr. 
Podonsky and Mr. Michaels are operating from positions outside 
the NNSA but they have the authority under this legislation to 
review any of the operations, to examine what is going on, to 
make recommendations to the Secretary about changes and 
possible corrective action plans that would be appropriate. We 
believe there is no limitation that will affect the operations 
of these offices which are staff offices.
    Mr. Stearns. Let me ask counsel, do you think you are 
finessing it or do you think you have a legal basis to stand 
on?
    Mr. Fygi. I think my first observation, and I will answer 
the way I feel necessary, is that the Deputy Secretary's 
response is correct. We are not finessing anything. We are 
carrying out a statutory scheme that clearly codifies the 
Secretary's authority to monitor the entirety of the 
Department's activities through means of his choosing through 
policies that he adopts. Those also are statutory elements in 
the NNSA Act that are equal in dignity to the one that you 
referred to a moment ago.
    Mr. Stearns. Mr. Podonsky and Dr. Michaels, do you think 
this has made your job harder? Or maybe to ask you another way, 
do you think that this law, the language in the law to have 
independence and safety of security, do you think it should be 
changed?
    Mr. Podonsky. To answer your question, the first question 
is yes, I think it does make our job more difficult.
    Mr. Stearns. Because of the language.
    Mr. Podonsky. Because of the lack of specificity of the 
language. For example, we have already seen some aberration 
with career civil servants who say ``we are now a part of 
NNSA,'' we don't know whether we follow advice and counsel in 
terms of some of the oversight activities. That's an aberration 
I must say, but we are definitely concerned that that doesn't 
begin to grow into a wildfire. We do think from an oversight 
perspective, and I have not talked to the Deputy Secretary in 
detail about this, that there could be some more clarification 
to the language. But clearly it is our understanding from the 
Secretary and the Deputy Secretary, for the safeguards and 
security oversight, that we will continue to provide and report 
to the Secretary and the Deputy Secretary on issues and 
concerns.
    Mr. Stearns. Dr. Michaels?
    Mr. Michaels. I would concur entirely with Mr. Podonsky. 
Under the current Secretary and Deputy Secretary, flowing down 
to General Gioconda, the commitment to environment, safety, and 
health is unsurpassed. I feel very comfortable that although we 
have heard the same things that Mr. Podonsky has heard in terms 
of rumblings that the NNSA is insulated from our oversight, the 
law is clear on that regard and we have the full support of the 
leadership. I think what is also clear is this statute can be 
interpreted different ways and there are obviously people who 
interpret differently. My concern is that in the future 
administrations it may not be interpreted the same way.
    Mr. Stearns. Dr. Michaels, are you saying that you have 
also incurred resistance like Mr. Podonsky said?
    Mr. Michaels. We heard rumbling that before March 1 we were 
told by various career civil servants who said we won't see you 
after March 1, but we have made it very clear with the 
Secretary and the Deputy Secretary and the head of DP that that 
is not the case, that the oversight will continue as planned.
    Mr. Stearns. Do you agree with his word, aberrations is 
what you said?
    Mr. Podonsky. I called it an aberration, yes.
    Mr. Michaels. I agree. And I think it will be cleared up 
shortly.
    Mr. Stearns. Let's get to the heart of it. Is your job 
easier or harder since this legislation passed?
    Mr. Michaels. Harder.
    Mr. Podonsky. I echo that.
    Mr. Upton. Thank you, Mr. Chairman.
    Mr. Upton. Mrs. Wilson.
    Mrs. Wilson. Thank you, Mr. Chairman. As I understand it 
from your answers to the previous questions that you continue 
to have the authority under the act as written to review 
compliance, to inspect, make reports, to make recommendations 
to the Secretary without any limitation. Is that correct? Is 
there any----
    Mr. Michaels. Yes, ma'am.
    Mrs. Wilson. Is there any element of oversight that your--
or your definition of oversight that you are in any way 
precluded from by the act?
    Mr. Michaels. In terms of compliance, yes. The Price-
Anderson program which specifically has orders to contractors 
of the NNSA to pay fines, for example: I can no longer sign 
documents calling for that. That would be under the 
implementation plan. Price-Anderson enforcement actions will be 
signed by the Administrator of the NNSA.
    Mrs. Wilson. But the NNSA still has to comply with Price-
Anderson and they have that authority; is that correct?
    Mr. Michaels. Correct.
    Mrs. Wilson. So the mission is achieved with respect to 
Price-Anderson, it is just no longer your job, right?
    Mr. Michaels. I hope that continues that way, yes. But it 
is frankly of concern to me that in the long run we could have 
two Price-Anderson programs where we have different objectives 
and different policies. I think the implementation plan is 
specifically written to ensure that that doesn't happen.
    Mrs. Wilson. With respect to the career civil servant that 
you referred to and the aberration that you referred to, that 
they are less willing to listen to your advice and counsel, did 
that civil servant or in those particular cases, did they work 
for you directly?
    Mr. Podonsky. No, they did not.
    Mrs. Wilson. So they worked for somebody else?
    Mr. Podonsky. For the Program Office.
    Mrs. Wilson. They were not in your line of command, you 
don't have any supervisory responsibility for them at all?
    Mr. Podonsky. No.
    Mrs. Wilson. They do have a boss, right, presumably within 
the NNSA?
    Mr. Podonsky. Yes.
    Mrs. Wilson. Why should they listen to you if you are not 
their boss and they are responsible for implementing the same 
law that you are? Doesn't this get back to the same issue of 
matrix management that we are trying to get away from?
    Mr. Podonsky. Well, the way the Secretary has allowed us to 
conduct oversight, ma'am, was to be in a proactive fashion, not 
just a whistle blower organization of the past where you just 
raised issues and people had to respond with unfunded mandates. 
The way the Secretary has allowed us to do oversight is in a 
way that was helpful, value added, and the individual that I am 
referring to, when did I take it to General Gioconda, and not 
in specifics but in generalities, General Gioconda, as the 
Acting Defense Programs Assistant Secretary, felt that that was 
totally inappropriate for his staff to act that way because 
they have found our oversight to be most helpful.
    Mrs. Wilson. So we are talking about staff in Washington?
    Mr. Podonsky. Staff in Washington.
    Mrs. Wilson. Let me make sure I understand you. You 
referred to a number of acts and things, NEPA was one of them, 
the radiation compliance, the environmental safety and health 
rules. Just so that we clarify for the record, the NNSA still 
must comply with all of those acts; is that correct?
    Mr. Glauthier. Yes, absolutely.
    Mrs. Wilson. Thank you, Mr. Chairman.
    Mr. Upton. Mr. Bryant.
    Mr. Bryant. Thank you, Mr. Chairman. If I might just follow 
up with my colleague, Mrs. Wilson's questions, Dr. Michaels, 
can you issue a subpoena or notice of violation under the 
Price-Anderson Act to any NNSA facility or can you only make a 
recommendation to the NNSA Administrator regarding enforcement 
action?
    Mr. Michaels. I can make a recommendation to the 
Administrator. I can issue subpoenas or enforcement orders to 
non-NNSA facilities within DOE, but for the NNSA facilities I 
would have to ask the Administrator to do such a thing.
    Mr. Bryant. Just to follow up on that one, too, do you have 
the authority to initiate type A accident investigations at 
NNSA facilities or do you have to operate in a recommendation 
only mode?
    Mr. Michaels. Correct, I no longer have that authority to 
initiate. For example, the Y-12 accident that occurred in 
December, I was onsite shortly after the accident and I 
immediately initiated a type A investigation. I could no longer 
do that under current NNSA implementation plans.
    Mr. Bryant. Thank you.
    Mr. Podonsky, some in Congress and others have suggested 
that your office as a function is best performed within the 
NNSA itself rather than external to it as the Secretary 
proposes to continue. Those with a long memory remember when 
your office reported to the responsible line or program 
management, the Assistant Secretary for Defense Programs in the 
1980's, which I think everyone now agrees was a bad idea and 
resulted in conflicts of interest. What is your view on whether 
your office could effectively operate within and reportable to 
the NNSA and is that something that you would urge us to 
consider?
    Mr. Podonsky. Having also served in that ``long memory'' 
that you just described where I reported to the Assistant 
Secretary for Defense Programs, which I equate to the previous 
NNSA organization, we were competing consistently with 
production. Safety was competing with production. It was very 
ineffective. That is not a reflection on the nominee, General 
Gordon. That is a reflection of priorities of the CEO having to 
balance between oversight and mission. And so if in fact we are 
inside the NNSA as opposed to external to the NNSA, we feel we 
would be very ineffective and history has shown that to be the 
case.
    Mr. Bryant. Thank you. Mr. Secretary, I have just a few 
questions for you. If you could describe the relationships of 
the operations offices, your headquarters, into the 
laboratories and weapons plants and field sites. The law was 
supposed to streamline this chain of command and improve 
accountability but it seems as if all guidance must still be 
passed through the contracting officials at the operations 
offices in order to implementing changes in the contractor run 
lab plants.
    Mr. Glauthier. We have tried to streamline the management 
and make the lines of authority much clearer going back to last 
spring, the April announcement that we made, in trying to 
clarify the difference between line and staff organizations 
within the Department. The offices like Independent Oversight 
and Environmental Safety and Health are staff offices who 
develop policy for the various programs. The policy then is to 
be implemented by the line organizations. So we have tried to 
make it clear that the line authority and accountability goes 
from the Secretary and Deputy Secretary down through the 
organization to Defense Programs, to the field office to the 
contractor, and that that chain is a necessary chain for 
accountability, responsibility.
    The specific example you mentioned of having guidance go to 
a laboratory does have to go through the field office because 
the laboratory is run by a contractor, and the contracting 
officer, who is the field office manager has the legal power to 
direct the contractor. We have made sure that those people all 
have the appropriate authorities and these responsibilities can 
continue.
    Mr. Bryant. Let me ask you again. Several of our hearings 
last year and even in the Rudman report itself there was 
substantial emphasis on the necessity to hold DOE contractors 
to more accountability. How has the accountability of the 
contractors been improved under the new NNSA arrangement?
    Mr. Glauthier. We certainly agree with the need to hold 
them accountable and felt that had not been done in the past. 
Some of the reports cited earlier have characterized the 
previous experience. The NNSA really does not change this. It 
sets the accountability clearly. It makes it clear that those 
sites, for example, within the NNSA are to report specifically 
there. Los Alamos or Sandia, for example, report into the 
Albuquerque office and then to the Defense Programs program and 
the NNSA Under Secretary up to the Secretary. So that 
accountability chain will continue to function and we will 
continue to expect results to be reported along those lines.
    Mr. Bryant. Thank you, Mr. Chairman, and the balance of my 
time I would yield back, what time I have left.
    Mr. Upton. The gentleman's time expired prior to that. I 
recognize the gentleman from Massachusetts, Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman, very much. You may 
know that I opposed the creation of NNSA because it would not 
address the environmental health and safety problems 
experienced at the national laboratory. Obviously the history 
of this whole area is very, very murky. We once had an agency 
that was not subject to expert review. It was called the Atomic 
Energy Commission, and its legacy is still seen in the 
headlines of today in Paducah, Kentucky, and the Ohio 
facilities and Hanford, Washington, at the Nevada test site, 
Rocky Flats, Savannah River in South Carolina, Los Alamos in 
New Mexico. All of these places still reflect the lack of 
oversight that the Atomic Energy Commission was subject to, 
secret experiments on Americans without their knowledge using 
radioactive materials. The NNSA is a step back to the days of 
the old Atomic Energy Commission.
    Where is the accountability to workers at the labs? Where 
is the accountability to the environment that the national labs 
will have responsibility of? In your testimony you indicate 
that the Office of Environment, Safety, and Health has the 
responsibility to investigate and report on problems but not 
correct problems at the laboratories under the auspices of the 
NNSA. How would this increase the ability of the Department of 
Energy to improve environment and safety conditions at the 
national laboratories under NNSA control if the responsibility 
for corrective action remains with NNSA, semi-autonomous 
organization within the Department of Energy?
    Mr. Glauthier. Congressman, I don't believe it increases 
the ability to do it. What we are trying to do is avoid any 
reduction in our authority to do it and it is very important 
that we keep the Environment Safety and Health Program at a 
level where it is a staff office that we can look at, examine 
any of the operations throughout the Department and issue 
policies that will come down through the Secretary and the 
directions that will be carried out uniformly across all of the 
sites. The sites that you mentioned, some of them are within 
the NNSA, others are not. It is very important that 
environment, safety, and health issues be managed strongly and 
consistently at all of those sites.
    Mr. Markey. I know you did it somewhere in your opening 
statement, but could you summarize the issues that the 
Department would like to see corrected?
    Mr. Glauthier. Well, the principal recommendation that the 
Secretary has made and is working on is to have the authority 
added to the legislation for the Secretary to be able to direct 
anyone within the NNSA. At this point the statute limits even 
the Secretary to only directing the Administrator and then, 
through the Administrator, others within the NNSA. That is a 
limitation in his authority that does not exist in the other 
organizations that were cited earlier in one Rudman Report as 
examples of semi-autonomous agencies, and he has asked for and 
would like to get that changed.
    There are other changes that would make it easier. The 
primary one is a broader delegation authority which would 
address some of the things that you are talking about. But at 
this point we are not asking for any other changes.
    Mr. Markey. I agree with you. I think that regardless of 
who the Secretary of Energy may be, that they should have the 
ultimate responsibility so there is accountability at the 
highest level that the public can rely upon to discharge these 
very important responsibilities.
    I thank you, sir. Thank you, Mr. Chairman.
    Mr. Upton. Thank you. Mr. Burr from North Carolina.
    Mr. Burr. Thank you, Mr. Chairman, and I thank you and 
Chairman Barton for this dual hearing. Welcome, and I apologize 
for the tardiness. Today has already started off as one of 
those days that we hate up here. I think everybody in the world 
is here. Glenn, it is good to see you back.
    Let me just ask right from the start. Dr. Michaels, you 
have sort of a dual hat in both, but Mr. Podonsky doesn't. Now, 
who is best to answer the question why or why not?
    Mr. Glauthier. I may be in the best position to give you 
that answer. The dual hat that you refer to for Dr. Michaels is 
a very narrow and specific one. It is only for the purposes of 
exercising shutdown authority over sites. If there is a safety 
issue that is so serious we feel it is necessary to have the 
operation shut down, he has the authority to make that kind of 
direction inside or outside the NNSA. The dual hat gives him 
that authority within the NNSA. Everything else he does, the 
oversight, the policy development, the recommendations for 
corrective actions or changes do not require actually being 
within the NNSA. So they continue to operate from the staff 
office position, as is the case with Mr. Podonsky.
    Mr. Burr. So tell me, if you will, where our safety net is 
on the security aspect. If Mr. Podonsky has a concern as it 
relates to the safety side, but not having a dual hat doesn't 
provide him the type of access that he needs on one side of 
this two-part process, then where are we?
    Mr. Glauthier. Mr. Podonsky, before the NNSA, did not have 
that authority either to direct people within the organization. 
That authority really came from the line organizations. So Mr. 
Podonsky would investigate and identify problems, identify 
corrective actions that were needed and make those 
recommendations to the line organization. If the immediate 
office is not responsive, then we expect him to raise that 
concern up the chain, bring it to me, bring it to the 
Secretary. We do have the authority to direct----
    Mr. Burr. Prior to this when Mr. Podonsky went into one of 
the facilities on a security question he had the authority to 
have what he requested produced for him, correct?
    Mr. Glauthier. When he requested in terms of information 
or----
    Mr. Burr. Yes, sir.
    Mr. Glauthier. Yes, information requests, and we expect 
that still to exist.
    Mr. Burr. To expect that still to exist, then why wouldn't 
he have the dual hat function where the question was taken off 
the table that I have, which we have now insulated these 
facilities to where he can make a request but they don't have 
to respond to it? He could work through the back channels that 
would lead him through the Secretary. I know how demanding the 
Secretary's schedule is because I have seen him in the Arab 
nations and I have also seen him in back of Vice President Gore 
at his victory party last week so he has traveled a lot of 
ground in a very short period of time. But we have to go back 
through the Secretary to address just a request for information 
for Mr. Podonsky to make an evaluation on a security concern he 
might have. Tell me the logic behind that road map we have 
designed.
    Mr. Glauthier. That should not be necessary. We are only 2 
weeks into the implementation of this. I think it is 
understandable there is some confusion in the field about what 
they do and don't have to respond to. Information requests 
ought to be something that everyone has to respond to. If they 
come from Mr. Podonsky, an information request is part of the 
authority that the Secretary has to have his staff offices 
investigate any operation within the Department. So we expect 
that the new Administrator will ensure that all of the 
operations within the NNSA honor those requests and that we are 
not going to have to come back on a case-by-case basis and have 
appeals to the Secretary. The question about direction really 
comes more in the latter area or, should we hope eventually, 
than is the corrective action, what are you doing about----
    Mr. Burr. At some point in the design you or Secretary 
Richardson or some individual looked at this process and you 
have these two bodies and you saw Dr. Michaels, who was a very 
talented individual who had a responsible job, and you came to 
a conclusion that he needs two hats because he needs the 
ability to shut down if he comes to this conclusion. Tell me 
why you looked at Mr. Podonsky and looked at security and 
didn't feel that the same type of accommodation is needed? Is 
security not as big of a concern as safety is?
    Mr. Glauthier. If we decide that we need to have that we 
can put that in place later on. The reason we did it for Dr. 
Michaels is the safety and health risks, if they do exist in 
such a severe level that they endanger the workers or the 
public and we need immediate action, we want to make sure that 
he has that authority. Mr. Podonsky doesn't really operate in 
the same mode at this point to my knowledge----
    Mr. Burr. Safety does not have the--security does not have 
the same sense of urgency that safety does?
    Mr. Glauthier. We have a safety position that is separate. 
General Habiger is dual hatted in fact in the Office of 
Security for the NNSA. He has the responsibility for security 
policy development and security review of the whole operation 
in really the same fashion that Dr. Michaels does for 
environmental, safety, and health. The office that Mr. Podonsky 
runs is an oversight office that functions in a way more like 
an audit group that goes out in great detail on a periodic 
basis and looks at operations at individual facilities but is 
really--I think the parallel is more the security office that 
General Habiger has.
    Mr. Burr. I realize the separation of the two and clearly 
under that structure General Habiger has access to both sides 
of this. I question whether Mr. Podonsky will have the same 
type of availability to the resources he needs to do his audit 
and, heaven forbid, that he find a serious flaw, has a lengthy 
process to go through to acquire the information to make some 
final determination.
    Mr. Glauthier. Let me give you an initial response and then 
ask Mr. Podonsky to also add his thoughts. One of the things we 
wanted to do was to be sure that we didn't end up with two 
oversight offices, one inside and one outside the NNSA. We 
wanted to make sure this system worked. The legislation is not 
ideal from our perspective. There was never a hearing on it, as 
you know. It was not drafted in a way that we worked 
collaboratively on it as we hoped to with most legislation. So 
we are trying to make the best of what we have to be sure that 
this office can continue in a strong and independent oversight 
role and to make sure then it will be able to carry that 
function along.
    Mr. Podonsky. Congressman, as long as the legislation gets 
further crystallized in clarity as to our ability to inspect, 
review NNSA without controlling or directing we report back to 
the Secretary, we feel that will continue to be effective as we 
have become in the last 11 months because of the committee's 
interest as well as the Secretary's commitment. Having served 
under six previous secretaries, unless the CEO of this 
corporation was interested as Secretary Richardson is today and 
Secretary Glauthier, it doesn't matter what we found. So we 
feel very strongly that the way it is set up now there needs to 
be further clarity in the legislation so that the existing NNSA 
staff folks won't use that as an excuse as to why not to work 
with us.
    Mr. Burr. Just two general comments. I realize my time has 
run out. One would be I have some degree of confidence that I 
believe you will be working under a seventh administration 
before too long and we can't feel as confident that the next 
Secretary will take security with the same vigor that our 
current one has. And it is very legitimate to make some 
comments that question the process that went through or did not 
go through with this legislation. By the same token it is 
justified for us to question the implementation process and 
that's in fact part of this hearing.
    I thank each of you and I yield back.
    Mr. Upton. The gentleman from Illinois, Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. I am going to follow 
up with Congressman Burr and also I came in on the last part of 
Congressman Markey's colloquy with you all, and the last couple 
of comments that were made deal with the implementation of 
legislation that you may not have all been fired up about. The 
conversation with Congressman Markey dealt with, I think, a 
desire to move some legislation also to correct or move in a 
more positive direction that you would feel. Am I correct in 
drawing this analysis and can you tell me if the Secretary 
wants to change the language of the law to clarify explicitly 
as such oversight applied to NNSA as well as the rest of the 
complex?
    Mr. Glauthier. Secretary Richardson would like a change in 
the legislation but he has not asked for that particular 
change. What he has asked for is clarity that he--and his 
successors--have the authority that they can direct any 
employees within the NNSA rather than to only direct them 
through the Administrator.
    Mr. Shimkus. When a Secretary makes this request, who is he 
making this request to?
    Mr. Glauthier. He has done it in discussions and in 
testimony, testimony 2 weeks ago before the House Armed 
Services Committee and in discussions with various leaders of 
the Congress.
    Mr. Shimkus. I think it would better serve the process if 
the Secretary, who is still I think considered somewhat of a 
favorite son of the committee, that he would draft some 
legislation and get it up here. I think what we are looking for 
and--we want to see instead of talk, we want to see some 
action. We want to talk over and discuss the language of the 
law and if we can get a legislative proposal then we have a 
basis. If we are just talking theory, we are not getting down 
to the work that needs to be done. If you would pass that on to 
the Secretary, I think I am echoing a lot of the sentiments of 
probably both committees.
    Mr. Glauthier. We appreciate that. We do have specific 
language and we would be happy to share that with you and 
appreciate any support that could you provide.
    Mr. Shimkus. With that I yield back the balance of my time, 
Mr. Chairman.
    Mr. Upton. Thank you. Just a couple of housekeeping matters 
and I think we will move to the next panel. First of all, I 
note that our colleague, John Dingell, wanted to be here very 
much this morning. We still expect an appearance so I would ask 
unanimous consent that all members will be able to keep the 
record open and perhaps provide some questions that you might 
respond to.
    Second, I am told that the Energy and Power Subcommittee is 
going to have a hearing on this legislation that is going to be 
introduced today next Wednesday. It is my understanding that 
the language has been or will be shared with you certainly by 
close of business today. If you could just--if we could just 
get a comment on a quick turnaround and get some comments and 
strenghths and weaknesses, preferably the former, by Wednesday 
of next week. I know my colleague Chairman Barton would be most 
appreciative of that effort.
    Mr. Burr. Mr. Chairman, could I have unanimous consent for 
a couple of additional questions?
    Mr. Upton. Hearing none, the gentleman is recognized.
    Mr. Burr. It is a safe request. I have been told that this 
was asked but they didn't write the answer down.
    Mr. Podonsky, let me ask you, has anything changed with the 
passage of this legislation relative to your oversight 
capabilities?
    Mr. Podonsky. Yes. I mentioned to one of your colleagues in 
a question--I echoed what Dr. Michaels said--is that it has 
become more difficult. I think it would be better to 
characterize it as increasingly challenging to do effective 
oversight.
    Mr. Burr. Can you be a little more specific about the term 
``challenging''? What challenges has it created?
    Mr. Podonsky. Any time we do oversight in the Department it 
is difficult to be effective if the people receiving the 
inspection don't feel that it is going to be value added. But 
now with the legislation there were some aberrations, is the 
word I used, or where some career folks were debating whether 
or not they needed to be inspected or receive any advice and 
counsel from our activity. I mentioned one of the things that 
this administration has done; Secretary Richardson and Deputy 
Secretary Glauthier has allowed us to do oversight with a 
little more value added. We can discuss with the sites some of 
the proactive changes that might be taken not with unfunded 
mandates but to be--we inspect the entire complex. We have 
found that some of the issues that we have found throughout 
other sites we can share with the sites that we are inspecting 
and actually help them find solutions to their problems.
    Mr. Burr. If under this new setup in your oversight role 
you ran into a roadblock, somebody refused to supply what you 
had requested, what process would you now go through versus 
what you went through before to find a solution to it?
    Mr. Podonsky. Actually, there are three points in time I 
would like to answer that question with. Prior to Secretary 
Richardson when we ran into a roadblock I went to my assistant 
secretary and hopefully my assistant secretary would take it to 
the Secretary. The second point in time was when the Secretary 
Richardson moved us as a direct report to he and Deputy 
Assistant Secretary Glauthier, if we had any issues 
whatsoever--which we have had none so far--we would take it 
directly to either one of them. The third point in time is now 
within NNSA. It has only been in effect 2 weeks. We only had 
this one aberration. I immediately had discussions with Acting 
Assistant Secretary for Defense Programs, General Gioconda. 
General Gioconda sees us as a very necessary evil, that we 
provide his organization some value. So we have good support 
there.
    Mr. Burr. I have had more people than that describe you 
that way. Dr. Michaels, let me just ask you one question. Could 
you have shut down a facility without the authority given to 
you in the legislative plan?
    Mr. Michaels. Previous to March 1, I could. Now, with the 
implementation plan, I have my double hat within the NNSA in 
order to do the same thing.
    Mr. Burr. But without the dual hat you would not have had 
the power?
    Mr. Michaels. Correct.
    Mr. Fygi. The distinction, which goes back to your initial 
question of trying to define how the initial cut was made on 
dual hats, is that the emergency shutdown authority by its 
terms involved direct command authority in a very narrow class 
of circumstances, whereas the Glenn Podonsky oversight function 
by its terms was never, unlike the emergency shutdown 
authority, never codified as including direct command 
authority. I think that is the distinction that was one of the 
factors that weighed in the Department's judgment how to 
initially approach the number of double hats employed.
    Mr. Burr. Clearly this legislation was the result of, 
originally, security concerns that arose. I hope nobody takes 
offense at the questions that try to find the answers as to why 
security seems to be in the back seat, yet safety was 
recognized in this process as a front seat issue. I am hopeful 
that the process will work as smoothly as you see it, and I 
hope that if we have an opportunity to clarify it through 
legislation that in fact we will exercise that option. I thank 
you very much. I thank the chairman.
    Mrs. Wilson. Mr. Chairman, if I could ask unanimous consent 
to ask a few more questions?
    Mr. Upton. Sure, go ahead.
    Mrs. Wilson. Thank you, Mr. Chairman. Mr. Deputy Secretary, 
I want to know whether there was anyone from the national 
weapons labs included in the implementation task force that was 
established in October?
    Mr. Glauthier. No. There were not any contractors who were 
in the actual task force. The task force was made up of Federal 
employees. We actually ran or processed--tried to consult with 
people in all parts of the operation and had discussions as we 
got more of the plan together. We have tried to work with the 
offices in this last 2 months where we have gotten the 
principals together and our general outlines of the plan that 
we published the first of January and as we tried to implement 
that tried to work with the different offices.
    Mrs. Wilson. I am not sure--I think that answer was no. 
Could you clarify it a little bit? Did you consult with or 
involve the national nuclear weapons labs in the implementation 
task force?
    Mr. Glauthier. You asked first about membership about the 
task force. They were not members of the task force. In terms 
of consulting we consulted with them relatively late in the 
process because we started consulting with the management of 
the programs, the people who are Federal employees, and then as 
time went on we worked out more broadly. So they were consulted 
but later in the process than some others were.
    Mrs. Wilson. Has the Director of the FBI or Director of the 
CIA reviewed your implementation plan?
    Mr. Glauthier. We did not send the formal plan, the full 
text. I don't know that--I don't believe so.
    Mrs. Wilson. Thank you, Mr. Chairman.
    Mr. Upton. Well, thank you again, panel, for being here 
this morning. Again you may see some questions arise from this 
subcommittee from members that are not here.
    Mr. Glauthier. Mr. Chairman, could I clarify one last thing 
in response to a moment ago about the CIA and the FBI review? 
Our representative, Ed Curran, who is our Director of 
Counterintelligence, did review this and he is an FBI employee 
as you well know; and then the CIA, Larry Sanchez, who is the 
head of our Intelligence Program and is the connection to the 
CIA, also reviewed that. Larry is an employee of the CIA. So 
they were both involved in the review process.
    Mr. Upton. Thank you. You are now formally excused. Thank 
you.
    Panel 2 will consist of Dr. Robert Kuckuck, Deputy Director 
of Operations for Lawrence Livermore; Dr. Paul Robinson, 
President and Laboratory Director of Sandia; Dr. Richard 
Burick, Deputy Director of Los Alamos; and Mr. Robert Van Hook, 
President of Lockheed Martin Energy Systems.
    Gentlemen, as you know, as some of you have been here 
before, it has been a longstanding practice for us to take 
testimony under oath. Do any of you have objections to that? 
Hearing none, the second part of that question is you are also 
entitled under committee rules to be represented by counsel. Do 
you have a need to have counsel? Seeing none, if you would 
stand and raise your right hand.
    [Witnesses sworn.]
    Mr. Upton. You are now under oath. As you saw in the 
previous panel, your testimony is being made part of the record 
in its entirety. If you could limit your remarks to 5 minutes 
that would be terrific. Dr. Kuckuck, we will start with you.

TESTIMONY OF ROBERT W. KUCKUCK, DEPUTY DIRECTOR FOR OPERATIONS, 
     LAWRENCE LIVERMORE NATIONAL LABORATORY, UNIVERSITY OF 
   CALIFORNIA; C. PAUL ROBINSON, PRESIDENT AND LABORATORIES 
  DIRECTOR, SANDIA NATIONAL LABORATORIES; RICHARD J. BURICK, 
DEPUTY DIRECTOR, LOS ALAMOS NATIONAL LABORATORY; AND ROBERT I. 
   VAN HOOK, PRESIDENT, LOCKHEED MARTIN ENERGY SYSTEMS, INC.

    Mr. Kuckuck. Mr. Chairman and members of the committee, I 
am the Deputy Director of Operations at the Lawrence Livermore 
National Laboratory. I appreciate the opportunity to address 
the committee today concerning the National Nuclear Security 
Administration and safety and security oversight at the 
laboratories. Our laboratory was founded in 1952 as a nuclear 
weapons laboratory. National security continues to be our 
central mission.
    Livermore is a principal participant in the Department of 
Energy stockpile stewardship program, heavily involved in 
programs to prevent the proliferation of weapons of mass 
destruction and engage in energy, environmental and bioscience 
research and development as well as industrial applications of 
our core technologies. Our scientific and technological 
achievements in support of our national security mission depend 
on the conduct of safe and secure and efficient operations of 
the laboratory.
    The laboratory is committed to doing its part to providing 
every employee and the neighboring community with a safe and 
healthy environment. Likewise, because of the nature of our 
work and the intellectual and physical assets at our site, 
attention to safeguards and security is also of paramount 
importance. To this end I will very briefly report to you steps 
we have taken this past year to ensure that our operations are 
safe and secure. I will also provide the basis for my belief 
that safety and security for the laboratories will continue to 
receive this high priority commitment with the establishment of 
the National Nuclear Security Administration.
    With this reorganization there is the potential for more 
streamlined and integrated management and oversight of safety 
and security, clear program direction, and strengthened 
accountability. During 1999, LLNL Director Bruce Tarter 
testified before this committee on two separate occasions on 
the issue of laboratory security. He stated Livermore's 
commitment and described our efforts to provide increased 
confidence in the security of the laboratory. We have made 
substantial progress in many areas: Security program 
management, materials control and accountability, physical 
security systems, classified material protection and control, 
cyber security, and personnel security. In particular, we have 
worked expeditiously to address all of the issues that arose in 
self-evaluations resulting from the May 1999 inspection by the 
DOE Office of Security Evaluations, OSE. As an outgrowth of 
these efforts we received an overall satisfactory or green 
rating from DOE/OSE in their follow-up inspection December 
1999.
    We are on target to reach the challenging goals we set in 
1999. We have implemented a significantly improved strategy to 
protect Livermore Superblock and the special nuclear materials 
in it. Our Materials Control and Accountability Program has 
successfully closed all previous OSE findings and all safeguard 
measurements are now current. In addition, major improvements 
have been made in controlling and protecting classified parts. 
Furthermore, the laboratory is in full compliance on all 
physical security systems and training issues associated with 
Livermore's personnel security assurance program have been 
addressed. We are rapidly implementing our cyber security 
strategy, including steps to address and identify potential 
weaknesses in the security of some of our unclassified computer 
systems.
    In the area of safety we are well into the process of 
implementing DOE's safety management system at Livermore and we 
are already beginning to experience a reduction in safety 
incidents. At the laboratory we have in the past tended to 
focus our attention on special hazards associated with high 
technology research projects. However, we can and must do 
better at preventing the more routine accidents connected with 
day-to-day activities. Our ISMS implementation is based on a 
set of work standards that were developed in partnership with 
DOE's Oakland Operations Office and the University of 
California. These work smart standards were accepted and ISMS 
implementation began in August 1999. We have set a goal, safety 
performance comparable to the best of our peers through top 
management leadership; clear roles, responsibilities, and 
performance expectations; and accountability.
    Training and integrating safety management was competed by 
all employees in September. Livermore's implementation of ISMS 
is currently under review by a DOE/OAK-appointed verification 
team. In December the team completed ISMS verification phase 1A 
and 2A, a review of documentation and implementation down to 
the directorate level. The verification team was impressed by 
laboratory management's enthusiastic support of ISMS and 
commitment to safety. They also identified a number of 
noteworthy practices that have been implemented. The laboratory 
recently completed a short list of items identified in OAK's 
acceptance review and submitted its ISMS description to OAK for 
final approval. Final verification of the implementation of 
ISMS at Livermore will begin this spring.
    I briefly reviewed for you the steps we have taken this 
past year for a particular reason, to illustrate our commitment 
to safe and secure operations at Livermore. These activities 
have greatly heightened safety and security awareness among all 
laboratory employees. More than ever attention to safety and 
security is ingrained in the way that we operate.
    With the establishment of the National Nuclear Security 
Administration we will continue our strong attention to safety 
and security. We will still be governed by the same set of 
laws, orders, rules, regulations, and subject to oversight just 
as before. These requirements are currently explicitly stated 
in our contract and will remain so under the NNSA. However, 
with the reorganization there is a potential for continued 
improvement through more effective management and oversight of 
safety and security at reduced overall costs.
    A particularly significant change we face in many 
laboratory functions, including safety and security, is a 
continually growing amount of external management and 
oversight. Effective management and oversight are very 
important but it is also important to avoid blurring lines of 
responsibility and accountability. Through different lines of 
authority we have been at times provided with differing and 
sometimes conflicting guidance and directions with varying 
interpretations by our overseers. Add to that the multiplicity 
of layers of management for each line of authority and a myriad 
of oversight functions. We are in a situation where we are need 
to improve the efficiency and cost effectiveness of the efforts 
spent on management and oversight of safety and security.
    The establishment of the National Nuclear Security 
Administration can potentially improve the situation in three 
related ways. First of all, with this reorganization there is a 
potential for more streamlined and integrated management and 
oversight of safety and security. Second, there is a potential 
for straightforward direction of safety and security management 
programs. It is possible to reduce conflicting guidance and 
establish clear expectations about performance. Finally, with 
clear performance expectations and a single DOE management team 
in charge, there is the opportunity for improved 
accountability. Effective management depends on accountability.
    The Secretary's creation of a Field Management Council that 
approves directives to the field, together with a central point 
of issuance, the lead program secretarial officer, has already 
been a major positive step in this direction. The FMC helps 
ensure the coordination and integrated evaluation of directives 
and it helps to eliminate overlapping or conflicting 
requirements. I am greatly encouraged by the FMC's activities 
and would be pleased to see even greater opportunity for 
contractors to provide feedback on directors prior to their 
issue.
    These potentially positive results I have just described 
will of course depend on details on how the new National 
Nuclear Security Administration will operate as it matures. I 
can't predict these details, including those related to the 
working relationships between NNSA and the overseers of safety 
and security and environmental management. However, streamlined 
management, clear program direction, and accountability are all 
attributes hoped for from the new NNSA when it was established 
by congressional legislation last year. An NNSA with these 
attributes combined with an oversight approach and appropriate 
checks and balances on implementation of findings would surely 
help to strengthen safety and security management at all DOE 
national laboratories.
    Let me close by saying once again safe and secure 
operations are vitally important to Livermore. They underpin 
all of our research and development activities and they protect 
our employees, our neighbors, and some of our Nation's most 
closely held secrets. Our laboratory's operations came under 
great scrutiny in 1999. We made upgrades to physical security, 
cyber security, and our counterintelligence program to 
strengthen these areas, address identified issues and deal with 
perceived weaknesses. Also during 1999 we made great strides in 
the implementation of DOE's integrated safety management system 
at the laboratory. These activities have greatly heightened 
safety and security awareness among all laboratory employees.
    More than ever, attention to safety and security is 
ingrained in the way that we operate. Our attention to safety 
and security is not diminished with the establishment of the 
National Nuclear Security Administration. In practical terms we 
are governed by the same laws, orders, regulations and subject 
to oversight as before. However, with this reorganization there 
is a potential for streamlined management and oversight of 
safety and security, clear program direction, and strengthened 
accountability. While details about implementation are 
important and need to be resolved, in principle such changes 
could have a positive effect on safety and security management 
and implementation at the laboratory.
    Thank you very much.
    [The prepared statement of Robert W. Kuckuck follows:]
     Prepared Statement of Robert W. Kuckuck, Deputy Director for 
           Operations, Lawrence Livermore National Laboratory
                            opening remarks
    Mr. Chairman and members of the committee, I am the Deputy Director 
for Operations at the Lawrence Livermore National Laboratory (LLNL). 
Our Laboratory was founded in 1952 as a nuclear weapons laboratory. 
National security continues to be our central mission. Livermore is a 
principal participant in the Department of Energy's Stockpile 
Stewardship Program, heavily involved in programs to prevent the 
proliferation of weapons of mass destruction, and engaged in energy, 
environmental, and bioscience research and development, as well as 
industrial applications of our core technologies.
    Our scientific and technological achievements in support of our 
national security mission depend on the conduct of safe, secure, and 
efficient operations at Livermore The Laboratory is committed to doing 
its part to provide every employee and the neighboring community with a 
safe and healthy environment. Likewise, because of the nature of our 
work and the intellectual and physical assets at our site, attention to 
safeguards and security is also of paramount importance. To this end, I 
will very briefly report to you steps we have taken this past year to 
ensure that our operations are safe and secure. I will also provide the 
basis for my belief that safety and security at the Laboratory will 
continue to receive this high priority commitment with the 
establishment of the National Nuclear Security Administration. With the 
reorganization, there is the potential for more streamlined and 
integrated management and oversight of safety and security, clear 
program direction, and strengthened accountability.
                 safety and security at the laboratory
    Laboratory Security. During 1999, LLNL Director C. Bruce Tarter 
testified before this committee on two separate occasions on the issue 
of Laboratory security. He stated Livermore's commitment and described 
our efforts to provide increased confidence in the security of the 
Laboratory. We have made substantial progress in many areas: security 
program management, materials control and accountability, physical 
security systems, classified material protection and control, cyber 
security, and personnel security. In particular, we have worked 
expeditiously to address all issues that arose in self-evaluations or 
resulted from the May 1999 inspection by the DOE Office of Security 
Evaluations (OSE). As an outgrowth of these efforts, we received an 
overall Satisfactory (Green) rating from DOE/OSE in their Follow-up 
Inspection in December 1999.
    We are on target to reach the challenging goals we set in 1999. We 
have implemented a significantly improved strategy to protect 
Livermore's Superblock and the special nuclear materials in it. Our 
Materials Control and Accountability Program has successfully closed 
all previous OSE findings, and all safeguards measurements are now 
current. In addition, major improvements have been made in controlling 
and protecting classified parts. Furthermore, the Laboratory is in full 
compliance on all physical security systems, and training issues 
associated with Livermore's Personnel Security Assurance Program (PSAP) 
have been addressed. And we are rapidly implementing our cyber security 
strategy, including steps to address identified potential weaknesses in 
the security of some of our unclassified computer systems.
    Laboratory Safety. We are in the process of implementing DOE's 
Integrated Safety Management System (ISMS) at Livermore, and we are 
already beginning to experience a reduction in safety incidents. At the 
Laboratory, we have in the past tended to focus our attention on 
special hazards associated with high-technology research projects; 
however, we can and must do better at preventing the more routine 
accidents connected with day-to-day activities. Our ISMS implementation 
is based on a set of work standards that were developed in partnership 
with DOE's Oakland Operations Office and the University of California. 
The Work Smart Standards were accepted and ISMS implementation began in 
August 1999. We have set a goal--safety performance comparable to the 
best of our peers--through top management leadership; clear roles, 
responsibilities, and performance expectations; and accountability.
    Training in Integrated Safety Management was completed by all 
employees in September. Livermore's implementation of ISMS is currently 
under review by a DOE/OAK-appointed Verification Team. In December, the 
team completed ISMS Verification Phase IA/IIA (a review of 
documentation and implementation down to the Directorate Level). The 
Verification Team was impressed by Laboratory management's enthusiastic 
support of ISMS and commitment to safety. They also identified a number 
of Noteworthy Practices that have been implemented. The Laboratory 
recently completed a short list of items identified in OAK's Acceptance 
Review and submitted its ISMS Description to OAK for final approval. 
Final verification (Phase IB/IIB) of the implementation of ISMS at 
Livermore will begin this Spring.
        oversight by the national nuclear security adminstration
    A Commitment to Safety and Security. I have briefly reviewed for 
you the steps we have taken this past year for a particular reason: to 
illustrate our commitment to safe and secure operations at Livermore. 
The activities have greatly heightened safety and security awareness 
among all Laboratory employees. More than ever, attention to safety and 
security is ingrained in the way we operate. With the establishment of 
the National Nuclear Security Administration, we will continue our 
attention to safety and security. We are governed by the same set of 
laws, orders, rules and regulations and subject to oversight as before. 
These requirements are currently explicitly stated in our contract and 
remain so under the NNSA. However, with the reorganization, there is 
the potential for continued improvement through more effective 
management and oversight of safety and security at reduced overall 
cost.
    Opportunities for Improved Management and Oversight. A particularly 
significant change we face in many Laboratory functions, including 
safety and security, is a continually growing amount (as measured over 
decades) of external management and oversight. Effective management and 
oversight are very important, but it is also important to avoid 
blurring lines of responsibility and accountability. Through different 
lines of authority we have been at times provided with differing--and 
sometimes conflicting--guidance, rules, regulations, and/or orders 
together with varying interpretations by our overseers. Add to that a 
multiplicity of layers of management for each line of authority and a 
myriad of associated oversight functions. We are in a situation where 
we need to improve the efficiency and cost effectiveness of the effort 
spent on management and oversight of safety and security.
    The establishment of the National Nuclear Security Administration 
(NNSA) can potentially improve the situation in three related ways. 
First of all, with the reorganization, there is the potential for more 
streamlined and integrated management and oversight of safety and 
security. Secondly, there is the potential for straightforward 
direction for safety and security management programs. It is possible 
to reduce conflicting guidance, rules, regulations, and/or orders and 
establish clear expectations about performance. Finally, with clear 
performance expectations and a single DOE management team in charge, 
there is the opportunity for improved accountability. Effective 
management depends on accountability.
    The Secretary's creation of a Field Management Council (FMC) that 
approves directives to the field--together with a central point of 
issuance, the Principal Secretarial Officer--has already been a major 
positive step in this direction. The FMC helps insure the coordination 
and integrated evaluation of such directives, and it helps eliminate 
overlapping or conflicting requirements. I am greatly encouraged by the 
FMC's activities and would be pleased to see even greater opportunity 
for contractors to provide feedback on directives prior to their issue.
    Issues in Implementation Details. The potential results I have just 
described depend on details about how the new National Nuclear Security 
Administration will operate as it matures. I cannot predict the 
details, including those related to the working relationships between 
NNSA and the overseers of safety and security (and environmental 
management). However, streamlined management, clear program direction, 
and accountability are all attributes hoped for from the new NNSA when 
it was established by Congressional legislation last year. An NNSA with 
these attributes--combined with an oversight approach with appropriate 
checks and balances on implementation of findings--would surely help to 
strengthen safety and security management at all DOE national security 
facilities.
                            closing remarks
    I appreciate the opportunity to address the Committee on safety and 
security oversight of the Laboratory and the new National Nuclear 
Security Administration. As I have said, safe and secure operations are 
vitally important to Livermore--they underpin all our research and 
development activities and they protect our employees, our neighbors, 
and some of our nation's most closely held secrets. Our Laboratory's 
operations came under great scrutiny in 1999. We made upgrades to 
physical security, cyber security, and our counterintelligence program 
to strengthen these areas, address identified issues, and deal with 
perceived weaknesses. Also during 1999, we made great strides in the 
implementation of DOE's Integrated Safety Management System at the 
Laboratory. These activities have greatly heightened safety and 
security awareness among all Laboratory employees.
    More than ever, attention to safety and security is ingrained in 
the way we operate. Our attention to safety and security is not 
diminished with the establishment of the National Nuclear Security 
Administration. In practical terms, we are governed by the same set of 
laws, orders, rules and regulations and subject to oversight as before. 
However, with the reorganization, there is the potential for 
streamlined management and oversight of safety and security, clear 
program direction, and strengthened accountability. While details about 
implementation are important and need to be resolved, in principle such 
changes could have a positive effect on safety and security management 
and implementation at the Laboratory.

    Mr. Upton. Thank you. Dr. Robinson, Paul, welcome.

                  TESTIMONY OF C. PAUL ROBINSON

    Mr. Robinson. Thank you, Mr. Chairman. I did submit a 
longer statement. Let me just summarize a few of the key points 
and perhaps try and summarize some reactions to the previous 
panel.
    I think the central question before us all today is what 
are the right management principles to invoke for implementing 
oversight in the new semi-autonomous agency that has been 
created, the National Nuclear Security Administration. I cited 
in my testimony a number of major reports that have been 
carried out by senior people in the country to examine the 
situation at the laboratories and plants. First, the Galvin 
Commission in 1995; the 120-day study carried out by members of 
the Institute for Defense Analysis in response to the national 
defense authorization request; the President's Foreign 
Intelligence Advisory Board that completed its work last year; 
and the Foster panel, which was created to assess reliability 
and safety of the security of the U.S. nuclear stockpile 
established by the National Defense Authorization Act in 1999. 
All of these people, though tasked with specific agendas, all 
found occasion to remark about the level of bureaucracy that 
has grown up over time.
    Mr. Chairman, I left graduate school and joined one of the 
national laboratories in 1967, at that time under the Atomic 
Energy Commission. So I have watched the transition over more 
than 30 years as we move from the AEC, the Energy Research and 
Development Administration, and on to the Department of Energy. 
I must say it is easy for me to reflect back on that entire 
period of time and see the growth of bureaucracy with almost 
nothing to halt the steady and continuous growth.
    That is cited in the words I quoted from those expert 
panels. I think that the debate we are having here is not as to 
whether we should have oversight and management of these 
activities. Of course they should be there and it is a Federal 
function. But we must come to some agreement on what is 
excessive oversight and when does management move from good 
management to micro management. I think that is a central theme 
and setting the pendulum is a key part of the task you have 
taken on. When you spend more and more of your work going 
through bureaucratic procedures there is less time devoted to 
the mission work. I have seen that expand over time and I think 
it has gone too far. It is time--and I looked with great hope 
at the legislation for the NNSA as a chance to do just what was 
said, of streamlining some of the processes.
    Now, I certainly do not want to be put in the position of 
blaming any of the individuals in the Department today. I see 
no gain in that, no future in that. In fact, I have seen 
improvements in recent time as these folks who have come in now 
have in fact acknowledged the level of bureaucracy. As Mr. 
Glauthier said this morning, in April of last year they indeed 
invoked some new procedures to try to cut down on the many 
lines of accountability and authority which were a labyrinth 
overlapping the Department. That has been seen as a significant 
gain. I certainly take no issue with the good gentlemen, Dr. 
David Michaels or Glenn Podonsky. I think they are very well 
meaning individuals, they want to help and I believe they want 
to do more than just write traffic tickets, by analogy, which 
often turns out with oversight responsibilities. They would 
like to be part of the solution as well.
    Unfortunately, over time a lot of well meaning people have 
said we want to help and we want to be part of the solution. As 
the Galvin Commission said, we have all been getting far more 
help that we can usefully use. That is a central part of the 
problem. When everybody is in charge no one is in charge. It is 
crucial to try to define what are those lines of responsibility 
and accountability and we must hold people accountable for the 
work.
    One other key point I would mention is the history has not 
been a good one. We have watched the number of audits and 
oversight visits increase monotonically over time. They only 
after the Galvin Commission report put the spotlight on it and 
began to decrease somewhat. At that time we had two major 
audits or investigations of our lab every single month. The way 
these were carried out with the management change from 
headquarters, various offices, to the program offices to the 
field offices, each one would be worried, gee, what if they 
should find something derogatory in that inspection or 
evaluation. I know, we will conduct an inspection early. So we 
back up 2 or 3 weeks on the calendar before a major inspection 
by an oversight group, there would be a preinspection and then 
another group working on the chain would say, well, I wouldn't 
want my boss to find out that there is a problem, we better 
conduct an investigation 2 weeks before that. Over time a great 
number of the staff, a lot of the expenditures that were 
carried out were to keep up with these audits and oversight 
investigations.
    A key principle I believe has made an appearance upon the 
U.S. industrial scene in recent years. One of the most 
important parts of the quality I think it has brought to 
American business is that you can't really improve quality 
simply by inspecting out defects in a product or activity. You 
have got to take proactive efforts to build in quality from the 
ground up by the very people who must carry out the work. 
That's a theme that I think is vitally important for us in the 
laboratories to take to heart, to emphasize, and that I think 
comes with streamlining the oversight at the same time. That 
will pay much better dividends to the American taxpayers for 
the expenditures they invest with us.
    The environmental safety and health responsibilities must 
be embedded particularly in laboratories with the people who 
are there to do the work. An early administration actually 
tried to operate the laboratories as if they were a nuclear 
power station. Now, there is almost nothing we do that would 
resemble a nuclear power station. In fact, if we are carrying 
out leading edge research on behalf of the Nation, we almost 
never repeat the same activity twice. Research and development 
requires you to press the frontier and to try new things. It 
doesn't look like a production activity, and so that overlay 
never quite worked. But lots and lots of growth and 
organizations occurred but what we never called to 
accountability for was, was this working out or was it not 
working out. That's a key part of what I believe the NNSA was 
to accomplish, to put accountability in the people who are in 
charge of the mission and of the program's programs, and that I 
embraced very thoroughly.
    Let me close by mentioning that I attached to this 
statement a number of the activities that we have taken, not 
because anyone suggested that they should be taken, but because 
we knew they were important to carry out our mission in the 
best way. I have included an appendix of a wide number of 
activities, both in cyber security, which has been the newest 
and the major worry within the laboratories, but also security, 
environment, safety, and health.
    I think as you peruse those you will see the list is 
something that could not have occurred by an external 
organization at a long distance away making a suggestion of 
what should be done to better do the work. These are the kinds 
of things that had to arise by the people responsible for 
carrying out the work with their own caring about security and 
safety to take actions which are effective in raising the level 
of both security and safety to protect the lives of our 
employees and to protect our communities.
    Thank you very much, sir.
    [The prepared statement of C. Paul Robinson follows:]
   Prepared Statement of C. Paul Robinson, Director, Sandia National 
                              Laboratories
                              introduction
    Mr. Chairman and distinguished members of the committee, thank you 
for the opportunity to testify today. I am Paul Robinson, director of 
Sandia National Laboratories. Sandia is managed and operated for the 
U.S. Department of Energy by Sandia Corporation, a subsidiary of the 
Lockheed Martin Corporation.
    Sandia National Laboratories is a multiprogram laboratory of the 
U.S. Department of Energy (DOE) and is one of the three National 
Nuclear Security Administration (NNSA) laboratories with research and 
development responsibility for nuclear weapons. Sandia's job is the 
design, development, and certification of nearly all of the non-nuclear 
subsystems of nuclear weapons. Our responsibilities include arming, 
fuzing, and firing systems; safety, security, and use-control systems; 
engineering support for production and dismantlement of nuclear 
weapons; and surveillance and support of weapons in stockpile. We 
perform substantial work in programs closely related to nuclear 
weapons, such as nuclear intelligence, nonproliferation, and treaty 
verification technologies. As a multiprogram national laboratory, 
Sandia also performs research and development for DOE's energy offices, 
as well as work for other agencies when our unique capabilities can 
make significant contributions.
    I am pleased to comment on the important issue of safety and 
security oversight of the new National Nuclear Security Administration. 
Oversight is an essential function for good management, and when it is 
properly implemented it enhances the ability of an organization or 
program to perform its mission. The question before us is, What are 
sound management principles for implementing oversight in the new 
National Nuclear Security Administration? The implementation of the 
NNSA presents an opportunity for DOE to correct some of the structural 
problems with the oversight function as administered in the past.
    I will begin my statement with a brief review of a consensus view 
on DOE management and oversight that highlights a need for change. I 
will describe some positive trends in how oversight is evolving at DOE, 
largely as a result of several high-level studies. I will discuss how 
lessons learned from past oversight experiences should influence how we 
implement the newest effort--in oversight of cyber-security. I will 
also comment on the changes in the DOE management structure proposed by 
the Secretary's Implementation Plan for the National Nuclear Security 
Administration, including some concerns over ``dual-hatting'' of 
various staff functions.
    Finally, I have attached an appendix to my statement that lists 
some of the many improvements and innovations in security and safety 
implemented by Sandia National Laboratories on its own initiative 
without directive from DOE oversight offices. It is important for the 
Congress to appreciate that the NNSA laboratories are vigorously 
proactive in achieving high levels of security and safety, and not only 
as a result of DOE oversight.
                    consensus on the need for change
    Several high-level studies have been critical of oversight and 
management at the Department of Energy. In 1995, the influential 
``Galvin Report,'' (the Secretary of Energy's Task Force on Alternative 
Futures for the DOE National Laboratories) found that the GOCO 
(government-owned, contractor-operated) concept, the model on which the 
laboratories have operated for the last fifty years, had been 
irretrievably weakened through unrestrained growth in DOE 
micromanagement, rule-making, and excessive oversight.
    The DOE system of using GOCOs as Management and Operating 
contractors has served the nation in an exceptional way. The original 
intent of the GOCO system, from the latter days of the Manhattan 
Project, was to provide a means for the government to obtain technical 
management and research expertise that is greater than that available 
within the federal system itself. A wide variety of reviews, spanning 
decades, have concluded that the GOCO concept adds exceptional value to 
the nation, and is a preferred research and development model.
    Regrettably, the Galvin Task Force lamented the demise of the GOCO 
concept in actual DOE practice:
        The GOCO system was a promising concept. The Contractors, as 
        contractors, do yeoman work. The system has been employed for 
        decades. But in that time it has followed the natural course of 
        government's proclivity to govern more. The owner wants to take 
        charge more. Most able government personnel aspire to add 
        value. Translation: add more governance. This makes work for 
        more government personnel, increasing the size of the 
        operation, increasing still further need for management, ad 
        infinitum. Congressional policy has significantly driven this 
        consequence. (Page 53)
    The Galvin report was very direct in its criticism of ``excessive 
oversight and micromanaging'' by DOE:
        The net effect is that thousands of people are engaged on the 
        government payroll to oversee and prescribe tens of thousands 
        of how-to functions. The laboratories must staff up or 
        reallocate the resources of its people to be responsive to such 
        myriads of directives; more and more of the science-intended 
        resources are having to be redirected to the phenomenon of 
        accountability versus producing science and technology 
        benefits. (Page A-1)
    Two years after the Galvin Report, the Institute for Defense 
Analyses echoed these concerns in their study for Congress 
(commissioned by the National Defense Authorization Act for Fiscal Year 
1997), commonly known as the ``120-Day Study'':
        The current system can best be described as one in which 
        everybody reviews everything until everyone is satisfied. The 
        ``process'' is ad hoc, and almost defies description . . . 
        There is no consensus among all these reviewers and checkers 
        and checkers of checkers regarding the desired end-state for a 
        facility. Consequently, each of the organizations that reviews 
        a document, decision, or process does so from its own 
        perspective and insists that the facility meet its priority 
        requirements for safety. (Page ES-1)
    Last year's report of the President's Foreign Intelligence Advisory 
Board (PFIAB) entitled, ``Science at Its Best; Security at Its Worst,'' 
referred to DOE as a ``big, byzantine, and bewildering bureaucracy.'' 
In regard to security performance, the PFIAB found that ``multiple 
chains of command and standards of performance negated accountability, 
resulting in pervasive inefficiency, confusion, and mistrust'' (page 
I). It concluded that ``real and lasting security and 
counterintelligence reform at the weapons labs is simply unworkable 
within DOE's current structure and culture'' (page 46). The PFIAB's 
recommendations, of course, were the basis for the legislation creating 
the semi-autonomous National Nuclear Security Administration within the 
Department of Energy.
    And most recently, the ``Report of the Panel to Assess the 
Reliability, Safety, and Security of the United States Nuclear 
Stockpile'' (commissioned by the Strom Thurmond National Defense 
Authorization Act of 1999), commonly known as the ``Foster Report,'' 
again called for DOE management reform--with a detectable tone of 
exasperation--stressing the need to integrate safety and security into 
line management responsibility:
        The Department of Energy needs to address the internal 
        management practices that have repeatedly been cited as 
        counterproductive to the weapons program by external review 
        groups, including the Galvin Commission, the 120-Day Study, and 
        the Chiles Commission . . . The key management principle that 
        has been urged upon the Department is the integration into line 
        management of all significant functional responsibilities, 
        including safety and security. The Department has suffered from 
        the diffusion of these functions across a range of staff and 
        line organizations, leading to clouded lines of authority and 
        blurred responsibility and accountability. (Page 10)
              doe's oversight structure needs improvement
    Sandia's experience with oversight conducted by DOE over the years 
leads me to believe that the Department is making an effort in recent 
years to heed the advice of the review panels. In the past, it was not 
unusual for various staff offices at multiple levels of the DOE 
management structure to exercise overlapping and often redundant 
oversight functions. We often found ourselves responding to the demands 
of multiple DOE offices on the same or similar issues. Consequently, 
the impact on programmatic work was far more disruptive than was 
necessary.
    At the peak of the Department's environmental, safety, and health 
(ES&H) compliance initiative in 1992, we pointed out to DOE that the 
audit rate was two assessments per month at Sandia. Inspection teams 
visited us from multiple offices at DOE headquarters and field 
elements. Inconsistency in results and expectations was a problem. For 
example, the environmental protection program at our California 
facility was graded as ``excellent'' by one set of examiners, but an 
audit six months later by a different group scored it ``marginal,'' 
even though the program had been improved in the interim. We had great 
difficulty dealing with multiple demands and conflicts in 
prioritization of action items. For a long while, it seemed as though 
some oversight staff within the DOE were simply playing ``gotcha!'' 
with the organizations on the line performing the mission work of DOE. 
Other individuals undoubtedly saw oversight initiatives as an 
opportunity to build empires. The record of the Department in those 
early years was unfortunate because it created a mistrustful 
environment that was counterproductive to mission work.
    The Institute for Defense Analyses in its ``120-Day Study'' found 
experiences like this to be a widespread and serious problem:
        Because of the large number of DOE and external organizations 
        that have some responsibility for managing ES&H concerns, 
        defense nuclear facilities are subject to a wide range of 
        oversight and audit requirements. Facilities are subject to 
        oversight from their facility representatives, the site or area 
        office, the operations office, the program-sponsoring 
        secretariat, other headquarters activities, the DNFSB, and 
        other federal and state regulators. Often these are 
        uncoordinated, as there is no central authority below the 
        Office of the Secretary that can discipline the activities of 
        the internal oversight elements . . . Many DOE and contractor 
        officials describe Defense Programs' oversight as creating an 
        inverted management pyramid, because the number of reviewers 
        exceeds the number of hands-on workers. For example, 
        contractors have cited examples where work done by two or three 
        people becomes the subject of review meetings involving 40 or 
        more Defense Programs officials. (Page II-14)
    Fortunately, the situation is significantly better today that it 
used to be. These findings by the Galvin Task Force and the 120-Day 
Study helped alert receptive executives in DOE to the problem of 
oversight abuses and conflicting management responsibilities. The 
insight of DOE field office staff into these problems was also a 
catalyst for change, as they pushed back against some of the excesses 
that had arisen in various parts of DOE. With no real management 
control over autonomous oversight activities within the headquarters of 
the Department, serious difficulties had been created for us all--for 
the DOE field offices, who are closer to the work and who are charged 
with both execution of mission as well as ES&H oversight, for the 
laboratories and plants at the end of the chain for DOE orders and 
directives, and for DOE itself as it struggled to direct oversight in a 
way that would not frustrate the mission.
    In successive oversight campaigns for physical security, nuclear 
materials control, cyber security, and other issues that gained 
attention, DOE has tried to do a better job and move away from the old 
dysfunctional pattern of adversarial, redundant, layered authorities 
and audit overkill. I believe DOE has learned that successful oversight 
is much more than just conducting inspections. The Total Quality 
revolution that swept through American industry beginning almost 20 
years ago taught us that the old strategy of ``inspecting-out'' defects 
does not work in the long term. Rather, you have to ``build-in'' 
quality right from the outset of the program.
    Today, DOE management appears to be more aware of the need to 
conduct oversight in a manner that is constructive for the programs. 
That means building security and safety directly into program 
management (through the programmatic budget process) and into the 
cultures of the line organizations, rather than installing an 
organizational overlay above line management. Inspections will continue 
to be an essential element of the oversight model, but they must be 
part of a balanced program that works with, rather than against, 
program management. The Institute for Defense Analyses' study cited 
this as one of six management principles that DOE should adopt:
        There is widespread agreement that ES&H responsibilities, in 
        order to be properly executed, must be embedded in line 
        management. Achieving day-to-day safe operations can only be 
        achieved by the people close to the work, and within a well 
        understood safety management system. This means giving line 
        managers the responsibility and authority they need, holding 
        them accountable, and then letting them do their jobs--with, of 
        course, appropriate oversight. (120-Day Study, page IV-2)
               an example: price-anderson administration
    The Department's administration of the requirements of the Price-
Anderson Amendments Act of 1988 is an example of the evolution in 
thinking regarding how DOE should perform oversight. Reporting to the 
Assistant Secretary of Environment, Safety, and Health (EH-1), the 
Office of the Deputy Assistant Secretary for Nuclear and Facility 
Safety develops nuclear safety policy for all DOE nuclear facilities 
other than Navy nuclear propulsion facilities. The Office of 
Enforcement and Investigation (also reporting to EH-1) reviews 
potential violations and can assess fines directly against DOE 
contractors.
    The contractors, understandably, are eager to maintain high levels 
of nuclear facility safety performance in order to minimize the 
potential for financial penalties. However, in the past, DOE's approach 
stressed enforcement without integrating requirements into programmatic 
objectives. There was no coordination or adjudication with DOE program 
offices. Thus, the Department's policies for nuclear safety performance 
could be articulated in terms of measurable performance objectives 
within a program budget and schedule. The contractors had little 
programmatic guidance and rarely had explicit budget authority for 
nuclear safety functions.
    DOE appears to be moving toward a more effective approach by 
establishing a mechanism for coordinating policy with programs. The 
Secretary of Energy's recent action to establish a Field Management 
Council was an important step to ensure that policies affecting field 
operations are coordinated with the appropriate Lead Program 
Secretarial Officers. This process should eventually establish a 
clearly understood chain of accountability for nuclear facility safety 
performance (and other policy objectives) through program management 
hierarchies.
   cyber-security needs to be integrated with the mission's programs
    The lessons learned from our experience with Price-Anderson and 
other oversight areas are useful as the Department considers how to 
establish both oversight and management structures for cyber security. 
It would be poor practice to establish a cyber-security enforcement 
office in DOE that places requirements directly on facilities rather 
than holding the line management of the nuclear weapons enterprise 
responsible. More than any other area of security, cyber security must 
be integrated into the total program. An enterprise-wide solution is 
required, comprising the laboratories, production plants, field 
offices, and headquarters. Connections between sites offer potentially 
exploitable opportunities for foreign nation-state attackers and 
increased vulnerability to insider threats. The top management for 
national nuclear security programs--specifically, the NNSA 
Administrator, the Deputy Administrator for Defense Programs, and the 
operations managers--are the only officials with the programmatic scope 
to assure that the nuclear weapons complex has an enterprise-level 
computer network with both the functionality to support the mission and 
the cyber security to meet its rigorous requirements for information 
protection.
    My expectation is that an appropriation on the order of $360 
million over three years will be required to implement effective 
enterprise-wide cyber security. The responsibility and the funding must 
be placed unequivocally in the hands of the defense programs' 
management. The oversight function should critique and support the 
management process that is tasked with meeting those cyber-security 
objectives, but it must not be allowed to unilaterally usurp the 
management process.
                       changing the doe structure
    The Secretary's Implementation Plan for the National Nuclear 
Security Administration brings together, as mandated, the closely 
related functions of defense programs, nonproliferation programs, and 
naval reactors under a single administrator who is an Under Secretary 
of Energy. Each of these portfolios will be managed by a deputy 
administrator. This realignment should enhance coordination and 
communication among these activities. I am also encouraged that the 
Secretary's implementation plan permits the NNSA laboratories to 
continue to perform work for the DOE science and energy programs, a 
relationship that has been of great benefit to the laboratories in the 
past.
    The field office managers for Albuquerque and Nevada operations 
report to the Deputy Administrator for Defense Programs. The operations 
managers are the federal management level closest to the actual work 
performed at the laboratories and plants. Their boss, the Deputy 
Administrator for Defense Programs, is effectively the chief operating 
officer of the nuclear weapons complex. The Administrator of the 
National Nuclear Security Administration may be thought of as the chief 
executive officer.
    There has been some criticism that the operations offices and DOE 
headquarters have redundant management functions. Recent testimony by 
GAO complained that the Secretary's implementation plan ``still puts 
the operations office in the chain of command, continuing to blur who 
is accountable.'' <SUP>1</SUP> If confusion exists in the management 
functions of headquarters and the field offices, it should be resolved 
using the generally accepted management principle of pushing decision-
making to the lowest operational levels possible. The Deputy 
Administrator for Defense Programs should not be directly managing the 
laboratories and plants. That is a job for the operations managers in 
the field. The operations managers are removed from the political 
distractions of Washington and they can focus effectively on addressing 
the significant challenges of operating the nuclear weapons complex. 
These field managers are not autonomous; they are fully accountable to 
the Deputy Administrator. I believe that all of the weapons design and 
production facilities should be attached to a single field office that 
would have day-to-day operating responsibility.
---------------------------------------------------------------------------
    \1\ Statement of Gary L. Jones, Associate Director, Energy, 
Resources, And Science Issues; Resources, Community, and Economic 
Development Division; Government Accounting Office. Testimony before 
the Special Oversight Panel on DOE Reorganization, House Armed Services 
Committee, March 2, 2000.
---------------------------------------------------------------------------
    Abolishing the DOE field organizations (as GAO seemed to advocate) 
would require that day-to-day operational decisions be pushed up the 
chain of command to a level further removed from direct oversight of 
the work. That would be a counterproductive approach to fixing the 
redundancy problem and would result in less effective oversight of 
operations. If we have redundant management functions in headquarters 
and the field offices, the presumption should be to remove the 
duplicate functions from the headquarters level.
    The management structure outlined in the Secretary's implementation 
plan makes good sense in concept, but a few practical problems remain. 
The alignment of field elements with the appropriate DOE under 
secretary should be improved. In particular, Lawrence Livermore 
National Laboratory, one of the three nuclear weapons laboratories, 
continues to be managed by the Oakland Operations Office, which does 
not report to the Deputy Administrator for Defense Programs. This 
situation, and a few other anomalies, should be easy to remedy.
                 ``dual-hatting'' of oversight offices
    Many observers have raised concerns about the provisions in the 
National Nuclear Security Administration Implementation Plan for 
``dual-hatting'' of the support officers for counterintelligence, 
security, ES&H, and other staff functions. In my opinion, the 
concurrent appointments of these officers and staff in the NNSA and the 
Department will tend to perpetuate the earlier problems of confusion 
and conflict between staff and management functions.
    The support offices for security, counterintelligence, and 
environment, safety, and health assigned to the Under Secretary and 
Administrator for the National Nuclear Security Administration should 
be unique and report exclusively to that official. They are above and 
independent of the Deputy Administrator for Defense Programs (and the 
other deputy administrators) and his field elements. Assessment 
information provided by the support offices to the Administrator will 
permit him to direct his deputy administrators to resolve security and 
safety issues in their purview in a way that is integrated with mission 
objectives. This approach is the proven and accepted method for quality 
assurance activities throughout both the nuclear power industry and the 
defense industry. This structure is also entirely consistent with the 
recommendations of the President's Foreign Intelligence Advisory Board 
as expressed in their Memorandum of Clarification on June 30, 1999:
        There clearly must be solid CI, intelligence, and security 
        programs within the new agency. To achieve this, the agency 
        director must have sufficient staff assigned directly to him/
        her to advise on the implementation of CI, security, and 
        intelligence policy as promulgated by the Secretary.
    The Administrator, in turn, will be directly accountable to the 
Secretary of Energy, and should be held accountable for acceptable 
performance in security, counterintelligence, and environment, safety, 
and health. The Secretary may wish to rely on his own separate advisory 
staff in these areas to advise him on the security and safety 
performance of the NNSA and report back to the Secretary with any 
concerns. I believe the PFIAB, in its memorandum, regards this 
arrangement as proper:
        The Secretary is still responsible for developing and 
        promulgating DOE-wide policy on these matters, and it makes 
        sense to us that a Secretary would want advisers on his/her 
        immediate staff to assist in that vein.
    The GAO testimony I cited earlier reported that the DOE Office of 
Independent Oversight and Performance Assurance is attempting to modify 
DOE orders to ensure that it can place direct requirements on NNSA 
elements. Such a move is not desirable and would continue the confusion 
of staff functions exercising line management authority, and would be 
contrary to the principles outlined by the PFIAB. An audit organization 
reporting to the Secretary should do just that--report to the 
Secretary. The proper approach is for the Secretary to hold the 
Administrator accountable, rather than allowing oversight organizations 
to bypass him and exert direct executive control. The 120-Day Study 
regarded this practice as a prevalent and unfortunate problem in DOE:
        People throughout Defense Programs confuse the power and 
        influence that comes with being a staff person associated with 
        a powerful line manager, with line management responsibility 
        (page ES-2)
    As a laboratory director, I have no objection to independent 
oversight that is balanced and truly independent. Such oversight can be 
very helpful, indeed, essential. However, staff oversight organizations 
that can insert themselves into the program management chain with no 
accountability or adjudication are no longer truly independent.
    It may also be advisable for the Secretary to periodically 
commission a fresh set of eyes and minds for oversight activities. In 
the current structure, the inspecting offices are permanent 
establishments and have a career stake in the status quo. This conflict 
of interest would not exist with external review entities, such as 
select panels or a ``red team'' combined from other technical agencies.
                               conclusion
    The new National Nuclear Security Administration should be 
implemented on sound management principles, including the concepts of 
clear lines of management authority, separation of staff and line 
responsibility, quality built-in to the program, and appropriate 
internal and external oversight. If properly implemented, the National 
Nuclear Security Administration can correct the dysfunction caused by 
confusion of authorities, adversarial oversight, usurpation of 
operational management by staff organizations, and a self-perpetuating 
oversight establishment in the Department. The Secretary's 
Implementation Plan is a significant first step toward realizing the 
vision of an effective National Nuclear Security Administration.
    It is my belief that the circumstances in DOE that have been so 
strongly criticized by review panels are not the fault of any 
individuals, certainly not the people who are in charge or occupy key 
positions in the Department of Energy today. As the President's Foreign 
Intelligence Advisory Board found, the single most identifiable factor 
that led to the current state of affairs was the relentless growth of 
bureaucracy. My definition of bureaucracy is when well-meaning, capable 
people find it difficult to accomplish their mission responsibilities 
because of multiple lines of authority and bureaucratic hurdles that 
must be overcome. Unfortunately, that is the state DOE has come to. The 
Congressional act to isolate the nuclear weapons, nonproliferation and 
verification, and naval reactors programs from the rest of the 
Department is an attempt to break as many bureaucratic lines as 
possible in order that the new agency can get on with its mission while 
achieving high levels of security and safety in a fashion that is 
integrated with its program responsibilities.
                                APPENDIX
   sandia national laboratories self-originated security and safety 
                              improvements
    The following list illustrates some of the many improvements and 
innovations in security and safety implemented on the initiative of 
Sandia National Laboratories without directive from DOE oversight 
offices or the Defense Nuclear Facilities Safety Board.
Computer Security
<bullet> Sandia pioneered the three-level network security architecture 
        that was accepted as the standard configuration for the nuclear 
        weapons complex in 1999. This architecture includes an 
        unclassified, non-sensitive external network open to the 
        Internet and our university and industrial collaborators; an 
        unclassified internal restricted network accessible only by 
        personnel with authorized access; and an internal classified 
        network secured by personnel clearances, strong authentication 
        systems, encrypted communications, need-to-know groupings, and 
        hardware/ software isolation from unclassified systems.
<bullet> At the creation of the Sandia Restricted Network (which 
        contains sensitive unclassified information), Sandia developed 
        a restrictive firewall to protect this network from the 
        Internet. The capabilities of the firewall have been enhanced 
        through the years to provide greater utility for Sandia's 
        scientists and engineers while presenting a significant barrier 
        to unauthorized access from the Internet.
<bullet> A proxy server for the worldwide web was implemented at Sandia 
        National Laboratories in 1995 with a set of filters developed 
        by Sandia that strengthened the firewall by allowing users to 
        access web pages on the Internet while preventing the automatic 
        execution of dangerous file types. Filters installed at the 
        Internet point of connection prevent other sites from 
        masquerading as Sandia addresses and inhibit other common 
        attacks.
<bullet> In 1995, Sandia implemented a network intrusion detection 
        system using the ``NID'' software developed at Lawrence 
        Livermore National Laboratory. Sandia is in the process of 
        replacing NID with an improved commercial package, 
        ``RealSecure'' from Internet Security Systems.
<bullet> Sandia has recently developed another firewall called ``FTP 
        Guard,'' which runs on an operating system approved by the 
        National Security Agency, to protect against file transfers out 
        of the classified network. FTP Guard is a ``diode'' filter 
        that, when implemented, will permit users on the Sandia 
        Internal Secure Network to download unclassified files from an 
        unclassified network while preventing file transfers in the 
        opposite direction. FTP Guard has passed multiple independent 
        technical reviews and is the first system of its kind to be 
        accredited by DOE. We expect FTP Guard to be implemented on our 
        production network at an appropriate time in the future.
<bullet> Sandia, in cooperation with Lawrence Livermore National 
        Laboratory, Los Alamos National Laboratory, and DOE nuclear 
        weapons production agencies, developed a secure, high-speed, 
        intersite network linking the classified networks at each of 
        the nuclear weapon laboratories and the production plants. This 
        wide-area network, called ``DOE SecureNet'' was conceived and 
        designed by the laboratories.
<bullet> Sandia adopted the Kerberos network authentication protocol 
        developed at the Massachusetts Institute of Technology. 
        Kerberos provides strong authentication for client/server 
        applications by using secret-key cryptography. Sandia developed 
        an interactive password management system to support our use of 
        Kerberos by assigning randomly generated alphanumeric, mixed-
        case sequences as passwords. We also developed software to 
        implement Kerberos authentication in the Netscape web browser, 
        providing secure web access to sensitive unclassified 
        information on the Sandia Restricted Network. The draft DOE 
        order on password protection essentially institutionalizes this 
        security feature pioneered by Sandia. Sandia now uses a secure, 
        heterogeneous Distributed Computing Environment from The Open 
        Group, a consortium of vendors, which incorporates the Kerberos 
        authentication system.
<bullet> Sandia implemented an Entrust public key infrastructure on its 
        unclassified restricted network in 1997, enabling secure 
        exchange of sensitive unclassified documents via encryption and 
        digital signature within the laboratory and with other DOE 
        sites.
<bullet> In 1998, Sandia began a network scanning process (using ISS/
        CyberCop) almost a year before the Tri-Lab InfoSec Plan 
        recommended it.
<bullet> In 1999, Sandia added SecurID authentication to ISDN dial-up 
        access to its unclassified networks. A SecurID card provides 
        strong two-factor authentication.
<bullet> Sandia wrote security configuration guidelines for classified 
        and unclassified desktop systems in 1999. Desktop security 
        models for PCs (Windows), UNIX, and Macintosh systems provide 
        uniform definition and automated monitoring to reduce 
        vulnerabilities.
Physical Security
<bullet> Between 1996 and 1999, Sandia National Laboratories, New 
        Mexico, installed automated security gates at 24 portals to 
        control access by pedestrians and vehicles into the 
        laboratory's technical area. This system improved security by 
        using magnetic-strip badge readers rather than visual 
        inspection by security guards, which can be unreliable, 
        especially during peak traffic times.
<bullet> In 1998, Sandia spent $500,000 on equipment for technical 
        security countermeasures, which was not yet required by DOE but 
        which we felt would increase the reliability of the system. It 
        is our understanding that DOE plans to require the new 
        equipment at DOE sites in the next few years.
<bullet> Three years ago, Sandia National Laboratories, California, 
        replaced its alarm system using laboratory funding rather than 
        line item funding. The California site has installed extensive 
        access control features, allowing owners of limited areas to 
        grant access to rooms and areas based on need to know. We 
        intend to install a similar system at New Mexico as funding 
        permits.
Personnel Security
<bullet> In 1997, Sandia established an Infraction Review Committee to 
        process and evaluate security infractions. This committee is 
        composed of the manager of the security incident management 
        program, the line manager of the person responsible for the 
        potential infraction, and the manager of the safeguards and 
        security topical area involved in the incident. Incidents from 
        special access programs and sensitive compartmented information 
        facilities are also reviewed by this committee.
<bullet> In 1999 Sandia implemented an electronic Foreign National 
        Request (FNR) System. Web-based and user-friendly, the system 
        uses a workflow system and parallels the concurrence process to 
        improve data quality, facilitate approvals, eliminate data re-
        entry, and provide users with on-line access to unclassified 
        data regarding the status of visit requests. Other laboratories 
        in DOE and DoD have asked Sandia to share these programs with 
        them.
Security of Nuclear Materials
<bullet> In 1995, Sandia completed a site-wide plan for disposing 
        excess nuclear material. Since then, more than 20 metric tons 
        of accountable nuclear material has been shipped from Sandia, 
        either for recycling or disposal as waste. The benefits of this 
        reduction in inventory include reduced vulnerability, lower 
        protective force costs, and consolidation of material into 
        facilities specially designed to protect nuclear material.
<bullet> In 1997, we implemented the Sandia National Laboratories Local 
        Area Network Materials Accountability System (SNL-LANMAS) to 
        maintain the laboratory's book inventory of nuclear materials. 
        SNL-LANMAS tracks nuclear materials in storage and transport 
        and calculates the radioactivity and decay rates.
Environment, Safety, and Health (ES&H)
<bullet> Sandia National Laboratories was one of the first Department 
        of Energy facilities to institute an Integrated Safety 
        Management System, and did so before it was mandated.
<bullet> Sandia developed automated risk management tools that assist 
        in the identification, evaluation, and control of hazards; 
        generation of safety-basis documentation; maintenance of 
        safety-critical building systems; and tracking of safety and 
        security issues. These tools include the following modules:
    <bullet> Primary Hazard Screen module is a series of successive 
            question sets that link work hazards to program 
            requirements, recommended work controls, and training 
            guidance in the ES&H Manual covering all work activities.
    <bullet> Hazard Analysis module contains scenario templates and 
            more detailed analysis question sets related to low-hazard 
            facilities and operations.
    <bullet> NEPA/ADM module is a checklist for determining actions and 
            project documentation required for compliance with the 
            National Environmental Policy Act.
    <bullet> Maximo database automatically schedules maintenance of 
            safety-critical building structures, systems, and 
            components in terms of priority and frequency.
    <bullet> Sandia Issues Management System database supports tracking 
            of safety and security issues and corrective actions, and 
            roll-up for reporting to executive management.
<bullet> Sandia developed a Chemical Information System, which is a set 
        of networked chemical management databases supported by a field 
        team of inventory specialists. We connected the local fire 
        station on Kirtland Air Force Base to this system so that 
        firefighters can determine what chemicals may reside in Sandia 
        buildings when they respond to emergencies. The Chemical 
        Information System includes the following elements:
    <bullet> Chemical tracking database allows tracking and 
            inventorying of bar-coded chemical containers from purchase 
            to disposal.
    <bullet> Material safety library has more than 60.000 Material 
            Safety Data Sheets available on-line for managers and 
            personnel to use in understanding and controlling chemical 
            reactions and exposures.
    <bullet> Chemical exchange service supports the redistribution of 
            surplus chemicals for reduction of existing inventories and 
            new chemical purchases.
<bullet> In 1997, Sandia established a database for construction safety 
        inspections. This item was cited as an ``area of excellence'' 
        in the DOE laboratory appraisal report for that year. In 
        addition, we implemented a safety incentive program which 
        rewards subcontractors for safe performance of job duties.
Education and Training for Security and Safety
<bullet> Sandia created a suite of interactive training courses on the 
        Sandia internal web site for security and ES&H. This 
        computerized training system provides flexible delivery options 
        and automated record-keeping of training compliance. User-
        friendly modules with test questions include initial and 
        refresher courses on general security, computer security, 
        classification and document control, ES&H awareness, and 
        general employee radiological training. The Training and 
        Educational Development System database is a course management 
        software application that lets management assign, track, and 
        enforce course completions for all personnel.
Programmatic Security Research and Development
    In addition to the security actions listed above, security 
technologies pioneered by Sandia include a wide range of security 
concepts, systems, and components proposed and developed in the 
national interest.

<bullet> In 1999, Sandia National Laboratories developed the world's 
        fastest encryptor chip called the ``SNL Data Encryption 
        Standard (DES) Application Specific Integrated Circuit 
        (ASIC).'' It is the fastest known implementation of the DES 
        algorithm, a mathematical transformation commonly used to 
        protect data by cryptographic means. The device encrypts data 
        at more than 6.7 billion bits per second, 10 times faster than 
        any other known encryptor.
<bullet> Activated denial concepts are used to convert benign 
        operational working environments into unfriendly ones upon 
        detection of an adversary attack. Activated denial technologies 
        developed by Sandia and used throughout the DOE include smoke 
        dispersal systems, aqueous foams, and sticky and rigid foams.
<bullet> Explosives detection of vapors or particulates is an area 
        where Sandia now holds multiple patents. We are providing 
        licenses to industry to commercialize walk-through detectors of 
        molecules of explosive compounds, suitable for use in airports.
<bullet> Architectural surety is a concept developed at Sandia as a 
        response to the Oklahoma City bombing in April 1995. It applies 
        multi-level surety principles developed in the nuclear weapons 
        program to the design of civil structures. These principles can 
        be applied to many civilian situations that involve high 
        consequences (e.g., air travel, storage of spent nuclear fuel, 
        critical infrastructures). A graduate course in architectural 
        surety has been taught in cooperation with the University of 
        New Mexico's Civil Engineering Department, and other 
        universities are developing partnerships with Sandia to offer 
        courses in architectural surety.
<bullet> Sandia National Laboratories develops technologies for safely 
        disabling terrorist bombs. Every year, in cooperation with the 
        FBI, Sandia conducts advanced training for bomb squads of 
        police departments, emphasizing the science, technology, and 
        practice of bomb disablement. We entered this work on our own 
        initiative because our expertise in chemical explosives and 
        detonation systems for nuclear weapons could be applied to this 
        important public safety issue.
<bullet> In 1996, Sandia National Laboratories installed a suite of 
        security systems at a high school to demonstrate the 
        application of technologies appropriate for school security and 
        safety. The school reported a 90 percent decrease in vandalism 
        and theft and a 75 percent decline in fights on campus. Since 
        then, Sandia has advised administrators at more than 100 
        schools nationwide. In cooperation with the National Institute 
        of Justice, we have made available, as a public service, a 
        manual entitled, ``The Appropriate and Effective Use of 
        Security Technologies in U.S. Schools.'' This manual is 
        downloadable from the DOE and Department of Justice web sites.

    Mr. Upton. Thank you.
    Dr. Burick, welcome.

                 TESTIMONY OF RICHARD J. BURICK

    Mr. Burick. Thank you, Mr. Chairman. I am Deputy Director 
of Operations at Los Alamos. I am pleased to have the 
opportunity to comment on the oversight of the safety and 
security and the new National Nuclear Security Administration. 
We share with you a deep interest in the successful 
implementation of the NNSA.
    This morning I have three key points to make and I would 
like to summarize my written testimony. First, at Los Alamos 
ES&H and security are important elements of our goal of 
operational excellence, founded on total organizational 
commitment rather than on a particular oversight structure. 
Second, the creation of the NNSA offers an opportunity that 
should be used by the DOE to create a more effective oversight 
system, improve the match between requirements and resources, 
and resolve ambiguities in past arrangements. We support 
independent oversight. It has been helpful in the past.
    However, a real caution: Audit functions should not set 
policy. That is the responsibility of the line organization. 
And the third point is the laboratory will cooperate with the 
Department of Energy and all of its elements, including 
auditing and oversight functions as the DOE implements the law 
establishing the NNSA.
    And now some points on operational excellence and safety 
and health. A performance objective of our management and 
operations contract with the University of California is to 
achieve operational excellence. As the Deputy for Operations, I 
am the institutional champion of this goal. The goal of 
continued improvement in security in the ESH, as expressed in 
our laboratory, is our 6 zeros and is espoused by our director 
John Brown: Zero in juries and illnesses on the job; zero 
safeguards and security violations; zero injuries and illnesses 
off the job; zero environmental incidents; zero ethics 
incidents; and zero people mistreatment incidents. The 
laboratory is currently responding very well to these clear and 
simple goals.
    Los Alamos is a safe place to work and getting safer all of 
the time. In 3 years under integrated security management the 
laboratory rating of OSHA recordable injuries has been reduced 
by a factor of 2\1/2\. By this measure our safety record is 
approaching world class in our peer group of high tech 
industries. If we maintain or improve our current OSHA rates, 
the average worker at Los Alamos during their career will not 
experience an injury related from work either on or off the 
job. Under ISM's guiding principles of management, commitment, 
and worker involvement and safety, we believe that the change 
to the NNSA will not affect our progress and safety. We will 
continue to welcome the help of DOE reviewers in improving our 
ISM system and in doing work safely.
    Now, on the environment. The laboratory continues to 
improve its compliance with environmental rules, remediate 
contaminated sites, and reduce the environmental impact of our 
current operations.
    Strict observance of Federal and State environmental 
standards has helped us to reduce the accumulation of legacy 
waste, accelerate site cleanup, and earn the trust of our 
neighboring communities. Our environmental efforts recently 
earned the laboratory three ``Green Zia'' awards from the State 
of New Mexico and a satisfactory rating in environmental 
compliance with the DOE in October 1999.
    Assisted by new technology, the laboratory continues to 
shrink the number of contaminated locations onsite. The 
laboratory has started to move some legacy waste offsite to 
permanent disposal with 17 shipments last year to the Waste 
Isolation Pilot Plant. For this purpose we received DOE and EPA 
certification of our noninvasive waste characterization system, 
the first such certification in the DOE complex. Under our 
waste minimization program we have reduced routine hazardous 
waste, mixed low level waste and low level waste all by roughly 
two-thirds. Waste water outfalls of the laboratory had been 
consolidated from 141 in 1993 to 21 today, facilitating 
treatment, monitoring, and permitting.
    And now on security. In 1999 the laboratory was subjected 
to unprecedented pressure regarding security. Led by the 
efforts of recently strengthened security, counterintelligence 
and cyber security teams, we received a satisfactory grade on 
the December 1999 security audit by Mr. Podonsky's 
organization, DOE-OA. In addition, we have started a program to 
adopt the highly successful principles underlying integrated 
safety management to our safeguards and security program. The 
University of California recently appointed Security Chief 
Terry Owens and a permanent security panel chaired by retired 
Admiral Tom Brooks to drive security improvements within the 
laboratory. Under the direction of the DOE's new security 
office we have witnessed an unprecedented level of 
communication and cooperation between the Department and field 
activities.
    The Department also shows better understanding of the 
connection between security mandates and the overall cost of 
operations. Los Alamos is predominantly a defense programs 
facility, but we do a significant amount of classified work for 
other agencies and DOE offices. Because work would be more 
effective under uniform policies, consideration could be given 
to ensuring that common security practices are adopted and 
implemented across the range of DOE and NNSA activities.
    Participation of the Albuquerque field office has been 
valuable in reviewing and developing our security program. We 
expect this cooperation with the field office to continue under 
the new NNSA. We have also seen a corresponding improvement in 
relation with the Department's oversight program. The reviews 
conducted last year by the Office of Independent Oversight and 
Performance Assessment were professional and helpful in meeting 
our security goals.
    Cyber security. The laboratory director has appointed an 
Internal Information Security Policy Board headed by the 
principal director of--the deputy director of the laboratory to 
work with the technical experts, improve--provide a coherent 
info-set plan based on the best available information. A 
prototype installation at the laboratory provided key input to 
the 3-year cyber security plan. For approximately $60 to $90 
million over 3 years the plan would equip the classified 
network with computing terminals having no capability for 
recording on removable media. It would upgrade both classified 
and unclassified networks and implement the necessary 
administration activities. A supplemental appropriation would 
be very helpful for rapid implementation of this plan and we 
ask for your support.
    In conclusion, transfer of DOE's atomic energy defense 
activities to the new NNSA offers opportunities, challenges and 
problems. The creation of the NNSA is an opportunity to create 
a more efficient and effective oversight system. Needed 
improvements include less micro-management, a smaller 
regulatory structure, fewer unfunded mandates, fewer 
conflicting priorities, and better coordination and budget 
rules between programs. A very unfortunate outcome would be for 
the NNSA to create more layers of bureaucracy and multiple 
voices of conflicting oversight.
    The NNSA should adopt the principles of integrated 
management that are proving effective in our laboratory. These 
include line management responsibility for safety and security, 
clear and unambiguous roles of responsibility, and balanced 
priorities among operation, safety, and security. From our 
perspective the key to effective oversight is the cooperative 
approach. We intend to be fully responsive to whatever 
structuring emerges.
    Thank you very much.
    [The prepared statement of Richard J. Burick follows:]
   Prepared Statement of Richard Burick, Deputy Director, Los Alamos 
                          National Laboratory
                              introduction
    Mr. Chairman, I am pleased to have the opportunity to testify 
before this joint hearing of the Subcommittee on Oversight and 
Investigations and the Subcommittee on Energy and Power of the House 
Committee on Commerce. We have a deep interest in the successful 
implementation of the National Nuclear Security Administration (NNSA) 
and appreciate your interest in the issues associated with this 
subject.
    I have three key points to make today:

<bullet> ES&H and security are important elements of our goal of 
        operational excellence founded on total organizational 
        commitment rather than on a particular oversight structure.
<bullet> The creation of the NNSA offers an opportunity that should be 
        used by the DOE to create a more effective oversight system, 
        improve the match between requirements and resources, and 
        resolve ambiguities in past arrangements.
<bullet> The Laboratory will cooperate with the Department of Energy 
        and all its elements, including auditing and oversight 
        functions, as the DOE implements the law establishing the NNSA. 
        We believe we will be consulted as issues arise and believe 
        such involvement will assist the effectiveness of that 
        implementation.
                         operational excellence
    A performance objective in our management and operations (M&O) 
contract with the University of California (UC) is to achieve 
operational excellence. This was a strong message from the University 
when they selected John Browne in 1997 as Laboratory Director, and 
drove the leadership structure he set up and the people he selected for 
those posts. As his deputy for operations, I am the institutional 
champion for this goal.
    Performance measures for the Laboratory were formalized in the 1992 
M&O contract, breaking new ground in DOE relationships. The message on 
operational excellence was reinforced in the five-year M&O contract 
signed in 1997 through a special assessment on Laboratory performance 
in the areas of safety, environment, and community relations. At the 
end of two years (October 1999) the Secretary of Energy could elect to 
terminate the Los Alamos M&O contract for inadequate performance. We 
worked hard and passed that test.
    The goal of continued improvement in security and ES&H is expressed 
throughout the Laboratory in these terms:
    In meeting the moral imperative not to injure people or the 
environment while accomplishing our mission, and the business 
imperative to meet the environment, safety, and health requirements of 
the contract between the University of California and the Department of 
Energy, the employees, contractors and guests of the Los Alamos 
National Laboratory will strive to have:

<bullet> ZERO injuries and illnesses on the job
<bullet> ZERO safeguards and security violations
<bullet> ZERO injuries and illnesses off the job
<bullet> ZERO environmental incidents
<bullet> ZERO ethics incidents
<bullet> ZERO people mistreatment incidents
    The Laboratory is responding well to these clear and simple goals.
Safety and Health
    Los Alamos is a safe place to work, as measured by the OSHA metric 
of Total Recordable Injuries (TRI). A third-party review confirmed that 
our implementation of OSHA metrics was consistent with that in use in 
private industry.
    In three years, our TRI rate has been reduced from a rate of 5.88 
to 2.34 per 200,000 work hours for all work by our employees and on-
site contractors. Less than half of the recordable injuries were 
serious enough to result in a lost workday. The TRI reduction by a 
factor of 2.5 is a solid achievement and substantially exceeds contract 
objectives, but does not represent our desired goal of 2.0 by October 
of this year. At that point, our TRI will be ``world class'' in our 
peer group of high-tech industries.
    To put the numbers in perspective, a TRI rate of 3 corresponds 
approximately to one work-related recordable injury per worker's 
career. When the goal is reached, a worker will have a reasonable 
prospect of suffering no work-related lost-day injury or illness over a 
work lifetime. This is the sense of ``zero'' incidents. It's the same 
goal you have in your household: no injuries--a desired endpoint, not 
always achieved, but always a goal. From the industry comparison, we 
know that our target rates are achievable.
    Our approach is to engage the Laboratory top-to-bottom through a 
process we call Integrated Safety Management (ISM). The implementation 
and associated change in the safety culture of the institution are 
based on a commitment to improving the safety performance of the 
Laboratory. In this way we share the safety goal of the best industries 
in this country.
    The first guiding principle of our ISM system is management 
commitment and worker involvement in safety. The Laboratory Director 
endorsed ISM in December 1996 and since then the commitment has grown 
through all layers of management to support the safety of the workers, 
the public and the environment. What began as a contract objective has 
grown into a cultural change.
    With recent changes in structure and management, the potential 
existed to disrupt ISM. However, throughout these changes our safety 
performance continued to improve. ISM is a quality management system 
focused on safety rather than a response tailored to a particular 
oversight structure. On this basis we believe that the DOE 
reorganization will not slow progress, and if handled well, will 
enhance progress in safety.
    Part of keeping the ISM system on the path to improvement is an 
effective assessment function. Self-assessment focus and results are 
often featured during the weekly management meetings with division 
directors, and findings from external audits are discussed whenever 
received. Thorough self-assessment and cooperative engagement with 
external reviewers helps improve our safety performance and strengthen 
line management's responsibility for safety, one of the ISM guiding 
principles.
    We have developed an excellent working relationship the various DOE 
audit teams. Our sound relationship is evidenced in the excellent 
interactions with the teams who performed the two-year Special 
Assessment, ISM Phase I and II verification, and the EH2 assessment of 
ISM Implementation at LANSCE Division in October 1999. All of the teams 
found the Lab supportive of their work. After review for factual 
accuracy, the Lab accepted the observations of the teams and 
established a formal structure to manage corrective actions. We will 
continue to welcome the help of DOE reviewers in improving our ISM 
System and in doing work safely.
Environment
    The Laboratory continues to improve its compliance with 
environmental rules, remediate contaminated sites, and reduce the 
environmental impact of current operations.
    Compliance--To ensure compliance, the Laboratory undergoes 
assessments, audits, investigations, measurements, and so forth that 
are both extensive and intensive, much of which is self-conducted and 
self-reported. Our self-monitoring has been accompanied by increasingly 
stringent applications of standards by external auditors. For example, 
treatment, storage, and disposal of hazardous waste is inspected by New 
Mexico State Environmental Department (NMED) auditors and held to a 
high standard of labeling and containment.
    Strict observance of federal and state environmental standards has 
helped us to reduce the accumulation of legacy waste, accelerate site 
cleanup, and earn the trust of our neighboring communities. The federal 
Environmental Protection Agency (EPA) and the NMED hold us to a high 
standard and we routinely share our data and self-reported issues with 
them. This has helped build the belief that we share a common goal of 
minimizing environmental impact. Our environmental efforts recently 
earned the Laboratory three ``Green Zia'' awards from the State of New 
Mexico and a ``satisfactory'' Laboratory rating in environmental 
compliance from the DOE in October 1999.
    A regulatory milestone was passed when the DOE issued a Record-Of-
Decision (ROD) approving the Laboratory's Site-Wide Environmental 
Impact Statement. The Laboratory will publish an annual report on 
compliance with the terms of the ROD.
    Environmental remediation--At Los Alamos, the number of potentially 
contaminated sites is approximately 2,100. Much of the site evaluation 
work has been completed; as a result, many sites have been found to 
require no further action. At many of the remaining sites, expedited 
cleanup has been completed or has begun. A small percentage of sites 
will require more extensive remediation, lasting through about 2009.
    Technological advances continue to make progress toward more cost-
effective cleanup. A new in-situ vitrification method is being tested 
at the Laboratory's old plutonium site (DP--site; TA-21) to immobilize 
buried waste. Although this technique might provide an economical 
alternative to excavating and reburial, its applicability may be 
limited to sites meeting a fairly narrow set of criteria. Another 
environmental restoration project has excavated over 19,000 cubic yards 
of high explosives and barium contaminated soil and debris from a 
legacy site using remote/robotic equipment.
    The Laboratory has started to move some legacy wastes off-site to 
permanent disposal. The Laboratory delivered the first waste packages 
to the Waste Isolation Pilot Plant (WIPP) on March 25, 1999. By the end 
of the fiscal year, 17 shipments were made to WIPP. For this purpose, 
we received DOE and EPA certification for our non-invasive, precise 
characterization system and demonstrating a rigorous Quality Assurance 
program--the first such certification in the complex.
    We have since increased our work in this program to provide 
assistance to Rocky Flats and Idaho sites to help enable them to ship 
waste and we have been tasked to lead the DOE Complex in developing a 
National Transuranic Waste Certification Program.
    Prevention--A goal of operational excellence is that facility 
operations should be sustainable indefinitely with no environmental 
degradation.
    The Lab continues to extend its air and ground water monitoring 
network to ensure accurate characterization of the Lab's environmental 
health. As our environmental surveillance becomes more thorough and the 
technology more advanced, areas of concern continue to be found. Each 
concern is shared with appropriate regulatory authorities and with 
neighboring communities that might be affected.
    The Laboratory has made substantial documented progress in reducing 
environmental impacts. For example, since 1993 the Laboratory has 
reduced routine hazardous waste, mixed low level waste, and low level 
waste all by roughly two-thirds. Wastewater outfalls have been 
consolidated from 141 in 1993 to 21 now, facilitating treatment, 
monitoring, and permitting.
    Technology can make key contributions to minimizing future 
operational impacts. Recently, Los Alamos developed the Advanced 
Recovery and Integrated Extraction System (ARIES), an environmentally-
clean method to reduce ``pits'' (weapons plutonium cores) from 
classified form to unclassified storable form. Last year, ARIES 
successfully demonstrated operation on a variety of excess pits. 
Development of this and related technologies will be absolutely 
essential for future nuclear production operations.
Security
    In 1999 the Laboratory was subject to unprecedented pressure from 
security audits, assessments, and evaluations coming in at a rate of 
about one per week, including 18 DOE-Headquarters team visits, 5 
University of California visits, 12 congressional team/committee fact-
finding visits, 2 visits of the President's Foreign Intelligence 
Advisory Board and staff, 9 formal audits, 7 investigations, and 14 
force-on-force security exercises. The Laboratory was fortunate to have 
in place strengthened security, counterintelligence, and cyber security 
teams started by the Laboratory Director two years ago. We received a 
``satisfactory'' grade (the highest score) on the December 1999 
security audit by DOE-OA and were told that our nuclear materials 
control and accounting program was now the best in the complex.
    The Laboratory was successful in meeting the commitment made last 
year to solve some very complex security problems. Efforts will 
continue. We are in the midst of an aggressive program to adopt the 
highly successful principles underlying Integrated Safety Management to 
the safeguards and security program. We are confident that this 
approach will make significant strides in reinforcing the 
accountability of all of our employees in meeting their security 
responsibilities.
    Management and Oversight--The University of California recently 
appointed Terry Owens, an experienced manager for security; and a 
permanent security panel headed by retired Admiral Thomas Brooks to 
provide guidance and advice to the University on all security related 
activities at UC's National Laboratories. These appointments 
demonstrate the University's efforts to continue to drive security 
improvements within the Laboratories.
    Much of our recent success has been built on a foundation of 
collaboration and cooperation with the Department. We are seeing 
significant and far-reaching signs of improvement in the Department's 
management and oversight of the security program. Under the direction 
of the DOE's new security office, we have witnessed an unprecedented 
level of communication and information sharing between the Department 
and the field activities. We are being asked for our opinion on policy 
decisions and it is evident that our input is considered.
    Perhaps most important, the Department is putting into place a 
direct connection between security funding and the policy and 
requirements that drive much of the cost of carrying out our security 
responsibilities. We have also seen strong evidence of a more active, 
hands-on involvement on the part of the DOE Headquarters staff. They 
are talking with our staff, visiting our facilities, looking closely at 
our operations, and gaining a clearer understanding of the scope and 
complexity of our security challenges. In short, we are working 
together to solve the issues that have dominated the public debate of 
the past year, and the result is a much stronger security program that 
better reflects the demands of our complex operations and the 
increasingly sophisticated threats we face.
    We are encouraged by the recent changes and look forward to 
continued improvements to correct some of the long-standing management 
issues that have hindered the development of a ``best-in-class'' 
security program within the Department. In the past, these issues have 
included unreconciled priorities among different elements of the 
Department and requirements added without resources. Our recent 
experience indicates that the Department is working to resolve these 
problems.
    While our Laboratory is predominately a Defense Programs facility, 
we do a significant amount of classified work for other agencies and 
DOE offices. Since task execution would be more effective under uniform 
policies, consideration should be given to ensuring that common 
security (and safety) practices are adopted and implemented across the 
range of DOE and NNSA activities.
    The advent of the NNSA offers the opportunity to review the role of 
the Operations Offices. Our experience with the Albuquerque Operations 
Office has been beneficial, their participation in our security program 
is valuable to us, and we rely on them in vetting new or modified 
operations and changes to our internal policies and procedures. We 
expect this cooperation to continue in the NNSA.
    We also realize that there have been some concerns raised over the 
issue of independent oversight of security activities within the NNSA. 
Along the same lines as the improvements in the security management 
program I noted earlier, we have also seen a corresponding improvement 
in the Department's oversight program. The reviews conducted last year 
by the Office of Independent Oversight and Performance Assurance were 
professional and helpful in meeting our security goals. We were invited 
to share our concerns with them and given the opportunity to explain 
our policies and procedures. We worked closely with the auditors to 
ensure our security program was well understood and accurately 
characterized by the audit team. Based upon their approach, we were 
largely in agreement with their final report and fully supported the 
recommended corrective actions. As a result, the respective viewpoints 
of top managers within the Laboratory and the Department on the status 
of our security program are largely in harmony. We have a clearer 
understanding of the expectations the Department has for improving our 
program, and they have a better understanding of the complexity of our 
security challenges.
    Cyber security--Up until about a year ago, information security 
depended heavily on individual responsibility from those entrusted with 
that information. After the vulnerability of classified computer data 
to compromise by the insider became an issue a year ago, a DOE-wide 
effort was launched immediately to enhance cyber security. Drivers 
included security training stand-downs, the Defense Program 
Laboratories 9-Point Action Plan, the Secretary's 6 cyber security 
enhancement mandates, the DOE Office of Independent Oversight and 
Performance Assurance findings, the DOE Counterintelligence Office 
findings, and DOE Notice 250.2 on foreign national access to DOE cyber 
systems. All of the stated or implied requirements were translated into 
actionable items, prioritized, and implementation started. Classified 
data is now thoroughly protected against wholesale compromise by the 
insider as well as from outside. However, some of the measures are 
temporary or far from state of the art.
    The Laboratory Director has appointed an internal Information 
Security (infosec) Policy Board, headed by the principal deputy 
director, to work with our internal technical experts as well as 
external groups such as the Defense Program Lab infosec organizations 
and provide a coherent infosec plan based on the best information 
available. The board will be able to negotiate sound standards and to 
advise the Laboratory on implementation. Our experience with Integrated 
Safety Management shows that performance standards set with broad 
involvement of technical experts is important to effectiveness.
    A prototype system highly secure against deliberate subversion was 
installed for evaluation in one area of the Laboratory. The system 
comprises a central computer in a secure room with secure links to user 
terminals that have no provision for recording output on removable 
media. The users say productivity as well as security is enhanced.
    This prototype provided key input to the Laboratory's three-year 
cyber security plan. For approximately $60-90M total over three years, 
the plan would equip the classified Red network with computing 
terminals having no capability for recording output on removable media, 
upgrade both classified and unclassified network protection, and 
implement supporting administrative activities. This is a very basic 
proposal that provides much of the benefit of more complete solutions.
    The urgency to enhance cyber security has driven the Laboratory, 
the Defense Program complex, the Department, the Administration, and to 
some extent the Congress (as in the current year authorization 
legislation) to work in parallel, each with some variation on the 
threat concept and priorities for response to different challenges such 
as insider versus outsider attack and protection of classified versus 
sensitive information. After twelve months of this, it is probably time 
for a more coordinated government-wide approach. A threat spectrum 
should be defined (with the understanding that it evolves 
continuously), plans should be made with the best technical advice to 
respond to the threat (again, recognizing the rapid pace of change), 
priorities and budgets should be agreed to, and funds provided.
    Given the high priority of improving security advocated by the 
Administration and Congress, it was disappointing to see so little 
fiscal year 2000 funding appropriated for enhancements. At the 
Laboratory, we cannot unilaterally redirect significant program funds 
for such a purpose. However, we were able to take some funds out of 
administrative accounts to make some key investments. A supplemental 
appropriation could be very helpful for rapid implementation, and we 
ask for your support.
                           concluding remarks
    Transfer of DOE's atomic energy defense activities to the new 
National Nuclear Security Administration offers opportunities, 
challenges, and problems.
    The creation of the NNSA is an opportunity to create a more 
efficient and effective oversight system. Many of the observations of 
the congressionally chartered 1997 study <SUP>1</SUP> on DOE by the 
Institute for Defense Analysis are still relevant today. Needed 
improvements have been told and retold many times and include less 
micromanagement, a simpler regulatory and oversight structure, fewer 
unfunded mandates, fewer conflicting priorities from headquarters, and 
better coordination and budget rules between programs. A very 
unfortunate outcome would be for the creation of the NNSA to lead to 
simply more layers of bureaucracy and multiple voices of conflicting 
oversight.
---------------------------------------------------------------------------
    \1\ The Organization and Management of the Nuclear Weapons Program. 
Institute for Defense Analysis (March 1997)
---------------------------------------------------------------------------
    The NNSA should adopt the principles of integrated management that 
are proving effective in our Laboratory. These include line management 
responsibility for safety and security, clear and unambiguous roles and 
responsibilities, and balanced priorities among operations, safety, and 
security. We understand that an issue of concern is the role of the 
established DOE oversight functions vis a vis the NNSA, specifically 
the authority and reporting chain of the safety and security oversight 
offices. From our perspective, the key is retaining a cooperative 
approach. We expect to work through the implementation with DOE/NNSA, 
address the concerns as they are identified, and in the end be fully 
responsive to the structure as implemented.

    Mr. Upton. Thank you.
    Mr. Van Hook.

                 TESTIMONY OF ROBERT I. VAN HOOK

    Mr. Van Hook. Mr. Chairman, I appreciate the opportunity. I 
am responsible to the Department as the M&O contractor for the 
Y-12 production facility. I want to leave you with two bottom 
lines messages which I will return to several times. Safety and 
security are line responsibilities. They not governed by 
oversight, they are not governed by auditing, they belong to 
the line.
    Second, requirements must be balanced with available 
resources. In this case I have defined resources as both 
personnel and funding, and I will touch on those a couple of 
times. Our mission and support of stockpile stewardship is the 
manufacture of safe, secure, and reliable components for the 
nuclear weapons complex. Specifically we process and store 
highly enriched uranium, lithium, and our specialty materials 
and we are responsible for the surveillance of secondaries. 
Ensuring the safety of our work force and the public and 
maintaining the highest security for the strategic materials 
and information we utilize are key to our success.
    At Y-12, like the other sites, we are on a continuous 
process of changing our safety culture from an experience based 
behavior to a standards based behavior. Again we consider 
safety to be a line responsibility. In our case we have joined 
integrated safety management with a labor management initiative 
called I Care, We Care to drive individual awareness and 
accountability for safety, including that of surrounding 
workers.
    Security at Y-12 is focused primarily on material 
production since we are the highly enriched uranium storage 
facility. However, personnel security, classified information, 
cyber security and proprietary information are included in our 
program. At Y-12 we employ a layered approach to security to 
detect, delay, interrupt and defeat any adversary. We have been 
tested and evaluated many times in our 58-year history and at 
no time has this physical security been defeated.
    I will comment briefly on our modernization program that 
includes a fiscal year 2001 line item construction start for 
the enriched uranium storage facility which when completed will 
significantly enhance both security and safety of personnel and 
special nuclear materials. Before March 1 of this year Y-12 
executed mission work primarily for Defense Programs. Contract 
oversight was provided by Oak Ridge Operations Office through 
the Office of Science with a memorandum of understanding with 
defense programs. Safety and security oversight was performed 
by Oak Ridge operations or the specialty inspections you heard 
about this morning. The Secretary of Energy had also 
established a process whereby the requirement changes from 
safety and security as they flowed down to our site would flow 
through the Assistant Secretary of Defense Security programs 
thereby assuring that an attempt is made to balance 
requirements with available resources.
    On March 1 of this year, as NNSA was established, while our 
line responsibilities continued to be largely in support of DP, 
the Office of Security and Emergency Management and the Office 
of Environment Safety and Health will now have working 
relationships that are particularly important to our 
operations. Those with respect to ES&H remain roughly the same 
since we have defined relatively clear roles between the line 
and the staff as it relates to ES&H responsibility.
    Prior to implementation of NNSA, Defense Programs worked 
with Security much in the same way as it did with ES&H. The 
Office of Security and Emergency Operations developed 
departmental policy and provided oversight and assessment. 
Security was a line function of DP. With the implementation of 
NNSA the picture changes slightly with the Office of Security 
now setting policy, providing direction as well as funding and 
conducting oversight assessment.
    I believe that it is going to be particularly important to 
establish the ground rules for the relationships between 
programmatic DP offices and the Office of Security to ensure 
one clear message is sent from headquarters and received in the 
field. Balancing requirements with resources, again funding and 
personnel, will require very close attention to avoid getting 
at cross purposes over what work is to be performed. New 
requirements should be developed and coordinated with the 
program offices prior to being implemented in the field.
    It is also particularly important to define the safety and 
security standards, have these clearly communicated so we know 
the expectations to which we are being measured. Y-12, like 
other weapons programs sites, is suffering from aging 
facilities and a severe shortage of highly trained personnel. 
Consistent direction from DP and the Office of Security for the 
use of DP resources must allow us to effectively apply limited 
funding and personnel. We cannot execute requirements coming 
from these two customers if the requirements are not fully 
coordinated at headquarters before they are sent to the field. 
As is generally the case, the devil is in the detail and the 
success of NNSA is going to depend in large measure of 
establishing these appropriate working relationships between 
NNSA and its parent, DOE.
    Thank you.
    [The prepared statement of Robert I. Van Hook follows:]
 Prepared Statement of Robert I. Van Hook, President, Lockheed Martin 
                          Energy Systems, Inc.
    Mr. Barton, Mr. Upton, and distinguished members of the 
subcommittees, thank you for the opportunity to testify on the very 
important topic of Safety and Security Oversight of the newly 
established National Nuclear Security Administration (NNSA). My name is 
Bob--Van--Hook and I am President of Lockheed Martin Energy Systems 
(LMES) which is the M&O contractor for the Department of Energy at the 
Y-12 Plant in Oak Ridge, Tennessee.
    Y-12 supports the Stockpile Stewardship Program through the 
manufacture of secondaries and other weapons components from uranium, 
lithium, and other specialty materials for the U.S. Nuclear Weapons 
Complex. Y-12 is responsible for surveillance of secondaries and serves 
as the principal U.S. repository for highly enriched uranium. Y-12 also 
supports DOE's Office of Nonproliferation and Nuclear Security and the 
Office of Intelligence through our National Security Program Office. In 
1997, the Congress established the National Prototype Center at Y12 to 
provide access to technologies developed in the manufacture of nuclear 
weapons to other government agencies and the private sector.
    Manufacture of SAFE, SECURE, and RELIABLE components for the 
Nuclear Weapons Complex is the mission of Y-12. Ensuring the safety of 
our workforce and the public, and maintaining the highest security for 
the strategic materials and information we utilize are key to our 
success. The workforce at Y-12 performs thousands of operations daily, 
many of which are with radioactive and hazardous industrial chemicals, 
and a rigorous safety program is essential to these operations. DOE has 
embraced Integrated Safety Management (ISM) as the philosophy for its 
safety culture, and each DOE site is implementing this process as the 
preferred approach to work planning and execution. Key to this process 
is worker involvement in the planning, hazard identification, 
execution, and feedback components of any task.
    Y-12 has developed the ISM program and is in the continuous 
implementation phase. We, like other DOE sites, are in a culture change 
process in which we are shifting our workforce behavior from an 
experience-based behavior to a standards-based behavior. This is a slow 
and difficult process because it is human nature to behave as you have 
learned through experience on the floor and not to turn to new 
processes and outside knowledge to assist you in your daily work 
practices. Although it happened in a non-nuclear operation, we had a 
recent unfortunate example at Y-12 where dependence on past experience, 
and not reaching out for additional assistance, caused a serious 
accident with worker injuries. As a result of this accident, we are 
redoubling our efforts to effect ISM implementation in all work at Y12.
    In spite of this accident, the safety record at Y-12 has continued 
to improve over the past few years. In 1999, job related reportable 
injuries have decreased by 10%, lost workday rates were down 25%, and 
lost workday away rates were down 12%. Exposure to hazardous chemicals 
and radioactivity has been minimized through engineered systems to 
protect the worker. LMES has augmented ISM with a unique management-
labor initiative on safety, ``I Care--We Care.'' The I Care--We Care 
Program provides a process for employees to submit safety and health 
issues including near-misses, suggestions and concerns to management 
for resolution without fear or retaliation or retribution. It is the 
teaming between management and labor that is the key to assuring 
industrial safety. We are utilizing both ISM and the ``I Care--We 
Care'' processes to drive for individual awareness and accountability 
for safety, including that of surrounding workers.
    One of the principal drivers in the Y-12 Modernization Program is 
to further engineer safety into the processes required to support the 
production of nuclear weapon components in order to reduce our 
dependence on personnel protective equipment. This will significantly 
reduce the risk of worker and public exposure.
    Security at Y-12 is focused primarily on material protection. 
However, personnel security, classified information, cyber security, 
and protection of intellectual property (including proprietary 
information) are included in our security program. Specifically, Y-12 
is responsible for reducing site vulnerabilities against the DOE-
defined threat and ensuring cost-effective safeguards and security 
programs for the protection of:

<bullet> Category 1B through 4D Special Nuclear Material, measured in 
        metric tons, which are protected from theft, diversion, and the 
        threat of radiological sabotage.
<bullet> Classified information, including well over 100,000 classified 
        parts and over a million classified documents.
<bullet> Government property including a number of one-of-a-kind, 
        irreplaceable objects, difficult to replace and no longer 
        manufactured machine tooling, as well as a billion dollars 
        worth of other Government property.
<bullet> Over 4,000 contractor and government employees.
    In addition to the protection of strategic materials and vital 
government information and property, Y-12 is responsible for 
safeguarding some of this country's most sensitive information. 
Rigorous implementation of the DOE Personnel Security Assurance Program 
(PSAP), a human reliability program; Special Access Programs (SAP) for 
particularly sensitive projects, and special program requirements for 
those with access to compartmented intelligence information, is used to 
control and protect information related to these high-risk programs.
    At the Y-12 site, LMES employs a layered approach to security 
through a combination of procedures, delay barriers, detection systems, 
access controls and a highly trained protective force to detect, delay, 
interrupt and defeat a determined adversary threat. Our security has 
been tested and evaluated on many occasions through our 58-year 
history, and at no time has our security been defeated.
    Prior to March 1 of this year, Y-12 executed programs primarily for 
Defense Programs, with programmatic direction through a supporting DP 
organizational element, the Albuquerque Operations Office. Contract 
oversight was provided by the Oak Ridge Operations Office, working for 
the Office of Science through a Memorandum of Understanding with 
Defense Programs. Safety and security oversight of our performance was 
performed by ORO on behalf of DOE-HQ offices of Security and Emergency 
Management and Environment, Safety, and Health.
    On March 1, the NNSA was established and it contains the major 
program sponsors of Y-12 work--Defense Programs, Nonproliferation and 
National Security, Materials Disposition, and the Office of 
Intelligence. While our line responsibilities are largely in support of 
DP, the Office of Security and Emergency Management and the Office of 
Environment, Safety and Health will have working relationships that are 
particularly important to the operations of Y-12.
    In the ES&H area, the working relationships should remain roughly 
the same since Defense Programs and Environment, Safety and Health have 
had relatively clear roles and responsibilities in DOE. Defense 
Programs has the line responsibility for safety in the operations of 
its facilities, and ES&H establishes departmental policy and provides 
oversight and assessment of ES&H issues at the DP sites.
    The Secretary of Energy has also established a process whereby ES&H 
requirement changes flow down to DP sites through the Assistant 
Secretary for Defense Programs--thereby ensuring that an attempt is 
made to balance requirements with available funding. This has been 
particularly important in the recent era of tight budgets and aging 
facilities where every dollar has multiple demands.
    Working with DOE, we have developed risk prioritization techniques 
to help identify how the annual appropriated budget would be utilized 
to maintain a high level of commitment to the safety of our workforce 
as we execute the required work. The process involves identification of 
both safety and programmatic needs followed by a rank ordering of this 
integrated listing to determine how far each year's budget can be 
stretched. Important safety issues are addressed first, but there are 
always improvements in infrastructure related to safety that have to be 
worked incrementally from year to year.
    The Office of Security and Emergency Management was established in 
DOE by the Secretary to increase emphasis on security in the DOE 
complex following identification of security concerns at several DP 
sites. During a September 1999 inspection of Y-12 Security conducted by 
the Department of Energy's Office of Independent Oversight (OSE), the 
security posture of the site was determined to be in a ``marginal'' 
condition, primarily because of our inability to conduct a full 
inventory of special nuclear material. A full inventory can not occur 
until the final stages of enriched uranium operations are restarted. We 
are currently working to a funded resource loaded schedule that 
provides for full restart in the late spring of 2002.
    Since that inspection, a number of corrective actions, 
improvements, and enhancements have been accomplished. A DOE Special 
Security Survey completed on March 3, 2000, recognized the improvements 
and progress that had been made and will issue a site rating later this 
month. During this Special Survey, a significant number of the findings 
from the OSE inspection were validated for closure. We are confident 
that our security posture has improved and that the Special Security 
Survey rating will reflect that.
    Recent security enhancements and improvements that have been put in 
place at Y12 include:

<bullet> Vehicle access to the Y-12 Protected Area has been reduced by 
        more than eighty percent, and vehicle searches have been 
        significantly enhanced.
<bullet> Physical access and detection systems have been strengthened 
        and/or improved throughout the Limited and Protected Areas of 
        the plant.
<bullet> Protective Forces have been increased nearly twenty-five 
        percent, and many have been more strategically deployed to 
        counter emerging threats.
<bullet> An effective partnership has been formed among DOE, LMES, and 
        the recently selected DOE-Oak Ridge security contractor, 
        Wackenhut Services, Inc., who assumed selected major program 
        responsibilities for security at Y-12 on January 10, 2000.
<bullet> A Personnel Evaluation Board has been scheduled to review in 
        advance any adverse employment action being considered against 
        any individual in a security sensitive program.
<bullet> Foreign National visitors or assignees are strictly controlled 
        in accordance with pre-approved security plans.
    The Y-12 Modernization Program currently includes an FY 2001 
construction start for the HEU Materials Facility which, when 
completed, will significantly enhance both the security and safety of 
Special Nuclear Materials.
    Prior to implementation of the NNSA, Defense Programs worked with 
Security much the same as it did with ES&H. The Office of Security and 
Emergency Operations (SO) developed departmental policy and provided 
oversight and assessment. Security at DP sites was a line function. 
With the implementation of NNSA, the picture changes with SO setting 
policy, providing direction as well as funding, and conducting 
oversight and assessment. It is going to be particularly important to 
establish the ground rules for the relationship between the 
programmatic security office and SO to ensure one clear message is sent 
from DOE-HQ and received in the field. I believe the line has to own 
security just as the line owns safety and program.
    Balancing requirements with resources (funding and personnel) will 
require very close attention to avoid getting at cross-purposes over 
what work is to be performed. New requirements should be made based on 
changes in threat, or where significant enhancements in technology have 
been made. As new requirements are placed on field elements, these 
requirements should be fully developed and coordinated with the program 
offices prior to placing in the field. It is also important to clearly 
define security standards, and communicate to the field so that 
performance can be measured against these expectations.
    Y-12, like other DOE weapons program sites, is suffering from aging 
facilities and a severe shortage of highly trained personnel. Layoffs 
and attrition have taken a toll, and lack of funds for new hires has 
caused a serious critical-skills shortage. Consistent direction from DP 
and SO for the use of DP resources must allow the weapons complex to 
efficiently apply limited funding and personnel. We do not have the 
necessary people with the appropriate skills to execute requirements 
coming from these two customers if these requirements are not fully 
coordinated at DOE-HQ before they are sent to the field.
    I believe establishing the NNSA is the right thing to do for this 
country. It separates Defense Programs and related National Security 
Programs from other unrelated DOE functions. As is generally the case, 
``the devil is in the detail,'' and the success of the NNSA will depend 
in a large measure on establishing appropriate working relationships 
between NNSA and the parent DOE.

    Mr. Upton. Perfect. Five minutes on the nose. As we did 
before, members will have 5 minutes to do questions.
    Mr. Kuckuck, Dr. Robinson, Dr. Burick, do you all support 
having Mr. Podonsky's office remain involved in corrective 
action plan development as it has been lately? Is that a wise 
thing for us to continue?
    Mr. Burick. We believe it is, Mr. Chairman.
    Mr. Upton. That's the answer that we want to hear----
    Mr. Burick. I say that in all sincerity. As you know, we 
have had some problems at Los Alamos in past years, 
particularly in some areas. Mr. Podonsky and his team have made 
some suggestions that we have followed. Unfortunately, many 
times the funding that backs up the suggestions isn't there and 
that has been problematic for us.
    Mr. Upton. I want to get to that in just a moment. Dr. 
Robinson.
    Mr. Robinson. Let me say I think it is important the way 
that it be done. It should not be an independent 
responsibility, but it must be enjoined with the program office 
and program responsibility. We at the laboratories stand at the 
far end of this, often whip-sawed in several directions at 
once. If Mr. Podonsky's organization comes up with an idea and 
a positive suggestion, I believe he should get agreement with 
that with the program offices and then let us have one set of 
standards by which we will be held accountable.
    Mr. Upton. Mr. Kuckuck.
    Mr. Kuckuck. I would support that. My comments would be 
along with the latter part of Dr. Robinson's, that I think the 
moving goal line or the agreed upon standards is probably 
paramount to us being able to effectively move forward.
    Mr. Upton. One of the things, Dr. Burick, you reference 
having the funding necessary to react to the problem. I noticed 
that in the written statements I think both Sandia and Los 
Alamos talked about cyber security funding. What is your 
estimate in terms of what each of you are going to need?
    Mr. Burick. Our current estimate, Mr. Chairman, is based on 
the system that you saw when you were in Los Alamos in January. 
We believe somewhere between $60 to $90 million over a 3-year 
period would be sufficient for us to take our 2,000 classified 
computers, put them in a safe and secure environment where 
there would be no chance of any recordable media being 
downloaded by a single individual. The central computer system 
would be housed in a vault which would be subjected to two-man 
rule. Both of those people would then be enrolled in PSOW.
    Mr. Upton. Dr. Robinson, in your statement you indicated 
you thought Sandia would need nearly four times as much.
    Mr. Robinson. We have developed a program working together. 
Sandia has the responsibility to make the links that operate 
between each of the sites and to the production plants. That's 
why our expenditures are somewhat higher. I am happy to say the 
three laboratories working together have developed a common 
information security plan together over this period. I think 
the total among all our labs is $360 million over 3 to 4 years.
    Mr. Upton. So that's for all, not just--I had the 
impression that was just for----
    Mr. Burick. What I quoted you, Congressman, was what it 
would take to do onsite at Los Alamos with our 2,000 computers, 
not the inner laboratory links that Dr. Robinson is talking 
about.
    Mr. Upton. I am glad we cleared that up. I thought it was 
just Mrs. Wilson's district that was looking for such a large 
infusion of needed dollars for sure.
    Who is responsible for dealing with the environmental 
contamination at your sites and does the answer depend on 
whether the contamination resulted from past or current 
activities? This is probably a question that we should have 
asked the earlier panel with its involvement of NNSA, but whose 
responsibility is it?
    Mr. Robinson. The operating contractor for Sandia 
Laboratory for the first 43 years was AT&T Corporation. When 
Martin Marietta, now Lockheed Martin, took over from them, 
there was clear demarcation of problems that occurred before 
that that fell to the previous arrangement. Problems since then 
are Lockheed Martin-Sandia Corporation responsibilities.
    Mr. Upton. Mr. Van Hook.
    Mr. Van Hook. We have an EMI contractor in addition to the 
M&O contractor that operates Y-12. For the currently generated 
material the defense program contractor has the responsibility 
for the legacy material. M&I, in this case Bechtel Jacobs has 
the responsibility.
    Mr. Upton. Thank you.
    Mr. Stupak, are you ready or do you want me to come back?
    Mr. Stupak. Go ahead.
    Mr. Upton. Mrs. Wilson.
    Mrs. Wilson. Thank you, Mr. Chairman. This is kind of an 
administrative matter from the beginning. Did any of you on 
this panel have to have your testimony cleared by the 
Department of Energy or the Office of Management and Budget?
    Mr. Robinson. The tradition for laboratories throughout my 
history, which is more than 30 years, is we prepare remarks 
based on our role as laboratory directors and they are not 
cleared by the Office of Management and Budget or DOE. So no 
one affected my testimony.
    Mrs. Wilson. Thank you.
    Mr. Van Hook. If I could comment, I at least and I assume 
the others as well had it scanned for classification issues.
    Mrs. Wilson. I understand. Were any of you as lab directors 
or those of you who are deputy directors, if you have knowledge 
of your director's involvement, were any of you involved in the 
task force on the implementation plan for the NNSA?
    Mr. Burick. To my knowledge we were not at Los Alamos.
    Mr. Robinson. We were not.
    Mr. Kuckuck. We were not to my knowledge at Livermore.
    Mrs. Wilson. Thank you. Dr. Burick, I have some questions 
about cyber security that arises from your testimony and from 
the chairman's questions. You noted that there is a significant 
lack of funding for cyber security at Los Alamos. Have you made 
the case or did you develop the budget to request increases in 
funding for cyber security and, if so, what was the response 
for such requests?
    Mr. Burick. Yes, we have. We have developed a budget 
request for this year's supplemental and I believe it is 
working its way through both the House and the Senate side.
    Mrs. Wilson. Was that supplemental included in the 
administration request or was it over and above?
    Mr. Burick. I believe it was over and above, Congresswoman.
    Mrs. Wilson. Thank you. Paul, I had a couple of questions 
for you that kind of arose from your testimony. The GAO 
testified earlier in March about the DOE Office of Independent 
Oversight and Performance Assurance wanting to modify DOE 
orders so it could place direct requirements on NNSA elements. 
I wonder if you would comment on whether you think that is 
desirable, that change.
    Mr. Robinson. I believe it is not appropriate for staff 
organizations to define policy. They can certainly suggest 
policy, but there needs to be a coming together, a resolution 
and an agreement as to what policies will be followed instead 
of getting many sets of policy directions which has been the 
history in the past.
    Mrs. Wilson. There are some folks who want to look at the 
role of the Nuclear Regulatory Commission with respect to the 
NNSA and the national laboratories. In your view, particularly 
you, Paul, since you are the guy at Sandia, would the NRC 
enforcement of nuclear safety responsibilities positively or 
negatively impact environment, safety and health at your 
laboratory?
    Mr. Robinson. If I could generalize your question a little 
more, there is also an organization, Defense Nuclear Facility 
Safety Board, that carries out a similar function as the NRC 
does over nuclear plants. The Defense Nuclear Facility Safety 
Board carries that over the nuclear weapon production 
community. So we have such a role. I think I may be unique 
among the laboratory directors. For several years I have been 
in favor of external regulation, both bringing the OSHA, EPA, 
NRC as appropriate, to carry out regulations of our site. But I 
made that with one condition, that we would then remove the 
internal regulation and the very large number of people 
involved in that activity who are in the Department of Energy 
today. If that were not to occur, it would only make our life 
worse and I think we would require much higher expenditures for 
what would not be an appreciable gain.
    Let me give you an example about safety statistics. If you 
look at the laboratories as a whole, our laboratories in 
particular, against the National Safety Council statistics of 
what other industries, comparable industries do, we are far 
better in performing safety. Fewer incidents, fewer fatalities, 
fewer days away cases for our employees. If you had external 
regulation you would measure us against a national yardstick to 
say how we are doing. What is being done internally by the 
Department, there is no yardstick. The yardstick is constantly 
moving. The more you improve the more you should be expected to 
improve. Now, I embrace the goals of zero incident, zero 
facilities. But there comes a level of diminishing returns and 
costs, and we have got to set what is reasonable as standards.
    Mrs. Wilson. Thank you, Mr. Chairman.
    Mr. Upton. Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman. I apologize for being 
late. My plane was late and I got in later than I thought, but 
I really did want to talk to this panel so I am glad I made it 
in time for that.
    Dr. Burick, if I may, I read your testimony and that of the 
other witnesses today and, quite frankly, I don't have a clear 
sense of how this new autonomous agency is going to work and 
how the Secretary is going to make sure that the DOE's 
environmental and health and safety standards and legal 
commitments are being carried out. It took us a long time to 
get Defense Programs to even admit that there were such 
problems. The DOE area offices protected the weapons 
laboratories and production facilities from any effective 
supervision from headquarters and, frankly, I think they were 
part of the problem. Not surprisingly in your testimony today 
the laboratories which have a long history of refusing to take 
direction from DOE think we should go back to letting some 
variation of the area offices run things.
    Having said that, we were provided a report here, and I 
would like to make it part of the record, Mr. Chairman, by Mr. 
Frank Rowsome, DP 45. It is dated February 28, 2000. I just 
received it late last night. But with unanimous consent I would 
like to have it----
    Mr. Upton. Without objection.
    [The information referred to follows:]
    INSERT OFFSET FOLIOS 1 TO 22 HERE

<SKIP PAGES = 022>

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Stupak. I want to read a little bit of it and I will 
ask a question about it. His background to this report, Mr. 
Rowsome says, ``Over a decade ago safety professionals were 
brought into DOE to change the safety culture and safety 
requirements by triggering resentments among the weapons 
professionals. They had the opposite of the intended effect. 
Line management of the nuclear weapons program as these 
professionalizing safety assurances, complacency, self-
satisfaction, and resistance to questioning; the premises of 
the program are overriding the systematic search for safety 
weaknesses.''
    He goes on to say he recommends follow-up studies and 
corrective actions are suggested in this report. In addition to 
a reappraisal of safety programs, a major overhaul of safety 
requirements is needed to correct the problems identified.
    Mr. Rowsome on page 3 in a section which is entitled ``What 
is going wrong with DP's safety basis documents?''--it is a 
question he has that is on page 3. I would like you to look at 
the top of page 4. I believe you have that there in front of 
you. ``A close reading of the report indicates that the 
deficiencies are so serious and so widespread that the safety 
bases documents failed to meet their intended purpose. DOE 
cannot rely upon such safety bases to discover and correct 
safety problems that might have escaped detection and 
correction by other means. These safety bases are failures at 
strengthening the assurance of safety. It is worth noting that 
all of these safety bases documents have been reviewed and 
approved by DOE's Albuquerque operations office. Elements for 
defective safety bases among AL nuclear safety reviewers has 
been well-known within the circle of competent safety basis 
professionals who have had occasion to read the documents in 
question.''
    On top of the next page it says, ``I have yet to find--'' 
this is Mr. Rowsome now--``I have yet to find a culture in any 
DP line management office at headquarters, AL, or AAO that 
consistently maintains as a matter of principle what safety 
issues should be fully aired, analyzed, documented and exposed 
to the light of day wherever and whenever they are found.''
    So I think this refers correctly to you on page 2 and 3 to 
Los Alamos. My question is what is your response? How is this 
new agency going to handle concerns that Mr. Rowsome pointed 
out without some type of oversight?
    Mr. Burick. Congressman, I would submit that many of the 
things you are discussing are what I would refer to as 
necessary documentation and paperwork. I will say that we have 
launched an aggressive attempt to update many of the 
authorization agreements which we have. I would also tell you 
that about 3 to 4 years ago Los Alamos went through some life 
altering experiences. We had four very serious accidents at Los 
Alamos which caused us to launch integrated safety management 
programs. Safety is not a matter of just having paper in place, 
it is a matter of having the culture of safety embedded in 
every worker's mind. We have done that. We feel with our 
integrated safety management program and the rates that I 
talked about today of our OSHA requirements shows that we have 
dramatically increased the awareness of every worker at Los 
Alamos.
    So having a document of authorization to do an experiment 
is important because it lays out the principles by which you 
will do your work. But much more important is having each 
individual worker coming in every morning and thinking to 
himself, what am I going to do that will either hurt myself, my 
colleagues, or my surrounding community.
    Mr. Stupak. Do you think this document which I have read 
quite a bit from is inaccurate? It is dated February 28, which 
is 2 weeks ago.
    Mr. Burick. I believe the documents that this gentleman was 
reviewing, and I haven't had a chance to review the entire 
report, were some dated authorization agreements that we are in 
the process of updating at the current time.
    Mr. Stupak. The report just down on page 5 there it says, 
``Even after acknowledging in December,'' and then the bottom 
third of the page, the last full paragraph, Mr. Rowsome says, 
``Even after acknowledging in December 1999 that the hazard 
analysis report for the W-76 weapons dismantlement and 
inspection program was too severely flawed to allow it to be 
approved as it was, first line management in SASDAL insisted 
upon stripping the W-76 safety evaluation report written by its 
safety basis review team of the findings of serious scope 
limitations in the W-76 hazard analysis report and some safety 
problems in the W-76 operation itself. The participants in the 
year long review of the safety of the W-76 were removed as 
authors of the report of their work and the tasks assigned to 
nonparticipants in the review.''
    It goes on in here that as you--the final report was 
released it was so heavily censored and changed that it wasn't 
even a viable report, according to Mr. Rowsome.
    Mr. Burick. Congressman, I am not familiar with that 
report. I believe that was put together with our Pantex 
colleagues on the dismantlement program and I am not intimately 
involved with that.
    Mr. Stupak. Mr. Chairman, I know my time has expired. We 
did get this late last night. I think this is one area that we 
still have to explore. I think the culture that we are trying 
to change still exists.
    Thank you.
    Mr. Upton. Thank you.
    Mr. Burr.
    Mr. Burr. I think Mr. Stupak's on to something on this 
line. Let me just suggest to all of you, I think the question 
we are here to explore is does it take external oversight to 
achieve and maintain the internal cultural change that so many 
have realized there was a need to go through. GAO in their 
assessments that result in brief talk about this decade and the 
problems that have existed, specifically at Los Alamos and 
Lawrence Livermore, and they raise a very valid question, and 
that is the internal process within DOE was so flawed in their 
evaluation that in reports on the same item they could range 
from marginal to excellent and at Lawrence Livermore from 
marginal to far exceeds expectations, and that there was no 
systematic way to approach the way that we use to evaluate 
safety and safeguards. So it facilitated quite a few changes. 
All three of your facilities were very gracious hosts to 
various members of this committee, and for that I am thankful.
    But let me ask you a few very pointed questions. Yes or no, 
do you view that Mr. Podonsky's oversight role has changed with 
the National Nuclear Security Administration or not?
    Mr. Kuckuck. No, sir, I don't.
    Mr. Robinson. I have not seen the change.
    Mr. Burick. I have not.
    Mr. Burr. You haven't seen the change and we are 2 weeks 
into this. Do you envision his role changing?
    Mr. Burick. I would see a similar role that he has played 
in the past.
    Mr. Robinson. I would certainly believe there should be a 
role of both external oversight as well as strong line 
management. I think you should have both.
    Mr. Burr. Nobody views the NNSA as barring an oversight 
role?
    Mr. Robinson. No.
    Mr. Kuckuck. No.
    Mr. Burr. Do any of you believe that your labs have the 
ability to refuse any request that Mr. Podonsky and his team 
might make of the labs?
    Mr. Burick. I don't believe we do.
    Mr. Robinson. I probably would rather answer that for the 
record, but on the face of it nothing obvious.
    Mr. Kuckuck. I would have the same opinion.
    Mr. Burr. That would be?
    Mr. Kuckuck. That we would not refuse.
    Mr. Burr. Is there anybody that would object to Mr. 
Podonsky being a dual hat employee like Dr. Michaels?
    Mr. Robinson. I think my own experience--and we have dual 
hatted people in the laboratories--dual hatting can be 
successful but it will not be successful unless there is 
agreement by the involved parties as to what the roles are.
    Mr. Burr. Clearly if there is no belief on your part that 
NNSA bars oversight or that you would be in a position that you 
would refuse a request by Mr. Podonsky or his team, then the 
only thing the dual hatting does is clarifies or codifies to 
some degree the belief that there is a security oversight role 
for NNSA by dual hatting it.
    Mr. Robinson. But I wouldn't want the dual hatting to lead 
to unilateral setting of policy by Mr. Podonsky and his group.
    Mr. Burr. Clearly the GAO report was very critical of the 
fact that even once we realized the security and safeguards 
problem and the oversight teams went in with some degree of 
responsibility, that their mandate fell short and GAO referred 
to it as that they did not formally validate or verify the 
corrective actions and certify closure of the findings. In 
other words, they had the authority to go in and say here is 
the problem, here is what we suggest the solution to be, but 
they didn't even have the power to say what you have adopted 
will work or that you ever implemented it. Is GAO correct?
    Mr. Robinson. I think there is a confusion as to what is 
implemented. If Mr. Podonsky's organization--and I take this 
theoretically because I don't know that it is happening exactly 
this way--if he comes in and does the investigation and says, 
gee, I don't like the way that is going, I suggest that you fix 
it in the following manner, here is how I want you to fix it, 
and then comes back later and says, you didn't fix it the way I 
told you to, I would say that would be an unacceptable 
procedure under the NNSA, that Mr. Podonsky should have a set 
of standards that are agreed upon, here are what we are going 
to all meet.
    Mr. Podonsky can assess us with respect to those. I think 
it appropriate for him to make suggestions but suggestions are 
different than dictating how the solution will be carried out. 
There is a role for the people who must operate the site to 
have their input. There is a role for the line management of 
the NNSA to decide whether this corrective action is the right 
one or whether it is the wrong one.
    Mr. Burr. I don't think any member would disagree with the 
participation from the labs on the solution and the 
implementation. I think that the GAO has pointed out that they 
are lacking accountability on the part of the oversight body at 
determining whether this was ever completed and therefore it 
then falls back into an independent status within the labs. I 
have got here the 15 largest nuclear safety violations, shared 
to some degree by Los Alamos and Lawrence Livermore with some 
big ones. Dr. Burick at Los Alamos, fire at CMR. DOE finally 
fined Los Alamos in 1998 $112,000 for the nuclear safety 
violations as it related to that fire. But I think there also 
seems to be--or seemed to be--life after the changes we went 
through--seemed to be a managerial neglect for safety at the 
CMR facility. I guess I would ask you why so many problems 
there and are they corrected?
    Mr. Burick. Congressman, that facility is one of the most 
antiquated, very maintenance intensive, and we have had a 
number of issues where we have not had the proper resources to 
correct those problems. We believe that it is safe and 
operating, but we operate it in what I would call in limited 
mode and currently have plans for replacing that facility to 
help with our pit production program, the W88 pit production at 
Los Alamos. I would say that was a facility that was built in 
the 1950's to not to today's standards. The work arrangements, 
the instrumentation, et cetera, is not adequate to maintain all 
of the facilities up to the latest requirements.
    Mr. Burr. But if you had the authority and the security and 
the safeguards oversight level, that they couldn't let you stop 
at some point without solving the problem, in this case an 
antiquated building, many hurdles, so that if you had a DOE 
oversight entity that went back to DOE and said we can't sign 
off on what they are going to do, they can't do what we are 
requiring them to do or what we have agreed is the answer in 
the partnership, doesn't that give you another pressure point 
to make sure that the resources are allocated?
    Mr. Burick. Yes, sir, it does. Resources have to meet 
requirements we believe very strongly.
    Mr. Burr. My point would be that the outside oversight 
views them the right way and could be a facilitator to the 
solutions of the common problems that you run into and not 
always the bogey man that we make it up to be.
    Dr. Kuckuck, Lawrence Livermore exposed five workers to 
radioactivity during a waste processing activity. They found 
that the radioactive alarms in the building had been turned 
off. Clearly there is an oversight responsibility that we have 
to make sure is in place to make sure that the internal culture 
in your facility or another facility does not allow something 
as arbitrary as that to happen. Would you agree?
    Mr. Kuckuck. I don't disagree with you at all. We have 
moved beyond that culture level at the laboratory.
    Mr. Burr. You also have suggested that you have no reason 
to question it. I have reason to believe that we are all headed 
in the same direction. I think that what we are here today to 
try to determine is what degree of accountability can we both 
agree on should stay in place to make sure that this changing 
culture does not revert to the culture of the 1980's or early 
1990's and the horrific problems that we had with security and 
with worker safety.
    I would close with a conclusion of the GAO, Mr. Chairman. 
It said that the Independent Oversight Office was not formally 
involved in the corrective actions for the problems found 
during this inspection in 1990. The Independent Oversight 
Office began to work with the laboratories during the 
development of corrective action plans and conducted follow-up 
reviews, but still does not require and does not formally 
validate and verify the corrective actions and certify closure 
of the findings.
    I believe that it is important that we both hold the same 
belief that we have not only identified a problem but found the 
correct solution and in fact implemented that solution, and in 
the hopes that we will reach that I look forward to working 
with the chairman.
    I thank you.
    Mr. Upton. Mr. Strickland.
    Mr. Strickland. Thank you, Mr. Chairman. In the past 
defense programs has tried to make the Environmental Management 
Office responsible for managing waste and decommissioning at 
some of its facilities. Environmental management with the 
support of the Secretary's office has tried to stop this 
practice. My question is this, under the new agency will your 
facility pay for the costs of managing all of its own waste, 
the waste that it produces out of your budget? Could you answer 
yes or no or whether or not you know? We can start with--and go 
down the table, please.
    Mr. Kuckuck. I believe that that responsibility is coming 
to the defense programs in the next year or 2 and by definition 
it will be part of our mission with our budget, I believe.
    Mr. Robinson. That's my understanding. Currently generated 
waste is the program responsibility. Legacy wastes are covered 
by another office in budget.
    Mr. Burick. That is our understanding also, Congressman. 
Current waste generated under our weapons program would be DP's 
responsibility or NNSA's responsibility. The legacy waste is 
the environmental----
    Mr. Strickland. So any newly generated waste would be your 
responsibility and would be paid for from your budget?
    Mr. Burick. Correct.
    Mr. Strickland. Now, in the event that you have a facility 
that is being decommissioned or dismantled or closed, what is 
your understanding of who has the responsibility to pay for the 
work that would be involved with that?
    Mr. Van Hook. At the Y-12 facility, the defense programs 
has to support the surveillance and maintenance of an abandoned 
facility until such time that it can be put in a condition that 
is acceptable to EM. And there is no agreement at the present 
time on what acceptable really means. So there is a continuing 
cost associated with surveillance and maintenance of an 
abandoned facility until that point that you can reach 
agreement with EM that they will accept it and take it into 
that budget category.
    Mr. Strickland. So in terms of the maintenance----
    Mr. Van Hook. Continues DP supported until you hit that 
point at which you could agree.
    Mr. Strickland. Would that include cleanup that would be 
involved in such----
    Mr. Van Hook. There is a certain level of cleanup that is 
required by the program, in this case defense programs, prior 
to it meeting the acceptance criteria of EM.
    Mr. Strickland. If you could help me understand, where does 
the criteria for an acceptable level of cleanup come from?
    Mr. Van Hook. EM, which is not always agreeable to DP.
    Mr. Strickland. I guess perhaps you can't answer this, but 
a question that is a relevant one and important one, who pays 
the perhaps billions that it would take to clean up the 
facility?
    Mr. Van Hook. There is a defense environmental management 
fund associated, as you well know, with the nondefense--I am 
not using the right terms--environmental funds. I don't think 
that it is practical to expect that the Defense Programs 
account is going to be able to cover that bill nor for the 
moment can the EM account cover the bill. It is going to take 
some creative thinking to deal with these legacies, 
particularly as we abandon.
    At Y-12 we are reducing our footprint from 6 million square 
feet of production space to something barely under 2 million. 
That means there is 4 million square feet of buildings that are 
in the process of being abandoned; not in the sense that you 
are walking away from them, but you have to conduct 
surveillance and maintenance to ensure that they are in a safe 
standby condition.
    Mr. Strickland. I guess my response and your answer is 
independence is fine until we come up against this huge major 
responsibility for cleanup and then independence may not be so 
attractive. Is that consistent with your thinking?
    Mr. Van Hook. It is not clear today. I don't see how the 
NNSA is going to make it any more clear or less clear.
    Mr. Robinson. I could comment because there is actually 
some progress going on in this area. Sandia operates in two 
major sites, Albuquerque, New Mexico, and Livermore, 
California. I am pleased to say our laboratory in Livermore 
this year completed all cleanup activities. We have no facility 
or spaces that are on an environmental list. This is the first 
DOE site for that to happen.
    We expect the next site within the DOE that will be taken 
off any environmental watch list is our Albuquerque facility. I 
am pleased to say that the EM people have continued to provide 
the funding for us to carry out that work. So in some cases 
things do work and we are getting it cleaned up.
    Mr. Strickland. I guess just one quick final question would 
be--and I would like your opinion here. Is this an area where 
there needs to be further specific clarification of 
responsibility and obligation?
    Mr. Van Hook. If there is an opportunity that NNSA is going 
to inherit for a long, long time S&M, then very definitely we 
need a clarification.
    Mr. Strickland. Do the others of you feel that way?
    Mr. Burick. I would agree with Mr. Van Hook's statement.
    Mr. Robinson. For the complex as a whole I would agree as 
well.
    Mr. Strickland. Thank you, Mr. Chairman. No further 
questions.
    Mr. Upton. I don't know if--Heather?
    Mrs. Wilson. Mr. Chairman, I ask unanimous consent to ask 
two additional questions.
    Mr. Upton. Without objection.
    Mrs. Wilson. It is not unusual for folks to read the same 
report and see different things in it. I guess maybe I did when 
I read the GAO report and read it as being critical of the 
Department of Energy and the oversight functions and a lack of 
consistent standards, the need to improve closing of findings, 
the lack of a comprehensive tracking system, none of which has 
to do with the labs but the Department of Energy.
    I just kind of wondered from your perspective as lab 
directors trying to deal with these inconsistencies. I look at 
these tables on page 15 of the report where in this particular 
example they cite you have four different oversight bodies 
coming in all at the same time year at the same time giving you 
different conclusions about what is right and wrong.
    How do you deal with that as a management perspective when 
you have got four different groups of guys coming in and saying 
that this is what you need to do and 2 months later someone 
else comes in and says you need to do something different ?
    Mr. Robinson. I cited in my testimony in an earlier time, 
not under this administration, where groups would come in and 
survey the same activities. One would find it exceptional and 
another would find it marginal, coming later in time and after 
it had improved from the first time. It has been confusing in 
the least to laboratory management.
    Mrs. Wilson. Is that why you don't want to see oversight 
have direct management responsibilities because of those lack 
of clear standards and--help me with an English word here--
conflicting reports at the same time from different oversight 
bodies?
    Mr. Robinson. There needs to be a coming together and an 
agreement as to what the standards are. The processes to do 
that have not been working effectively in the Department in the 
past.
    Mrs. Wilson. One final question for--with respect to Los 
Alamos. Dr. Kuckuck, what would be the effect of making Los 
Alamos subject to Price-Anderson civil penalties--I'm sorry----
    Mr. Burick. We are both from the University of California, 
so we could both answer that.
    Mrs. Wilson. I apologize.
    Mr. Kuckuck. I was focusing on Los Alamos. I am sorry, 
would you ask me once again?
    Mrs. Wilson. Either of you could answer it. Livermore would 
be affected by it as well as I understand--the effect of making 
Los Alamos or Livermore subject to Price-Anderson civil 
penalties?
    Mr. Kuckuck. That's really a question that the university 
would have to answer. The university has always operated these 
laboratories on a no gain, no loss philosophy, not-for-profit. 
For them to be able to deal with fines there would have to be 
some accomodation they would have to work out. I wouldn't want 
to speak to the university and what they would do for them. 
They might have a different perspective.
    Mr. Burick. I would say, Congresswoman, we would not 
welcome civil penalties. We are currently exempted from that. 
Don't forgot the main principle is that we don't want to hurt 
any of our workers. That's the underlying principle. So the 
Price-Anderson would be an additional complication to managing 
the laboratories. The basic premise that we don't want to hurt 
people when we do our work is what would bother us more than 
anything, as it does today.
    Mrs. Wilson. Thank you, Mr. Chairman.
    Mr. Burr [presiding]. The gentlelady's time has expired. 
Any members seeking additional time? Hearing none, the chair 
would like to ask one additional question. Chairman Barton will 
introduce legislation today that--Chairman Bliley I understand 
will introduce legislation today that would basically codify 
into law into Mr. Podonsky's office--that's what I get for 
listening to Mr. Upton as he walked out and was trying to tell 
me this question. Let me just ask all of you to comment on your 
feelings as it relates to Mr. Podonsky's oversight role being 
codified into law.
    Mr. Kuckuck. To the degree that I understand what that 
means, the role that he has now?
    Mr. Burr. The role that he has today.
    Mr. Kuckuck. I am not sure I understand the full 
consequences of what that means, but does that change the 
conditions on the university and the laboratory to respond to 
his findings?
    Mr. Burr. I would only make a personal observation, given 
the answers that all of you have given relative to your comfort 
level and cooperative spirit with Mr. Podonsky, I would think 
that your answers would probably be it shouldn't phase us, that 
it should be a continuation of what we currently have going on.
    Mr. Kuckuck. We accept the statutes above the contract and 
so anything that is codified into law would become something 
that we would comply with. I don't feel like I am answering 
your question.
    Mr. Burr. I guess I was looking for a more personal 
observation on the part of the representatives of the labs. Are 
you comfortable with us codifying Glenn Podonsky's current 
position into law?
    Mr. Robinson. I am going to quote a statement made earlier: 
The devil is often in the details. Certainly the inspection and 
evaluation role, which is the original title of Mr. Podonsky's 
office, I would not hesitate to say yes, that should exist. If 
you codify it into law it is acceptable to me. I understand 
there is a question of members of Mr. Podonsky's organization 
wanting to have an additional role in defining policy. I think 
I might have some difficulties with that. I would like to see a 
coming together in an agreement on a single source rather than 
having these many multiple sources of policy generation.
    Mr. Burr. I believe it would be safe to say that this 
legislation would not empower them to play a policy role.
    Mr. Robinson. I would support that.
    Mr. Burick. I would be comfortable with that, Congressman.
    Mr. Van Hook. I would be comfortable but I would like to 
offer a comment and that is that in my experience with Mr. 
Podonsky's activities, including his follow-up which we have 
experienced, the responsibility for developing the corrective 
action plan, the responsibility for closing the corrective 
action plan and in fact fixing the issue is the line 
responsibility. It is not Mr. Podonsky's responsibility. His is 
to come back and take a look and see if in fact you did the 
things that you said you were going to do. We make a commitment 
to DP that we are going to do the following, whatever that 
happens to be, and then they come for some observations that 
Podonsky's organization has given us, but he is not responsible 
for the closure. He is responsible to just come back and have a 
look and see if we did in fact do the things you said you were 
going to do. Belongs to the line.
    Mr. Burr. I thank all of you and would remind you that's 
one of the criticisms that GAO made in that report, is that he 
is not responsible for closure.
    Mr. Van Hook. He shouldn't be.
    Mr. Burr. I am not lobbying one way or the other, but----
    Mr. Van Hook. You do not get the accountability if the 
oversight group is responsible.
    Mr. Burr. Clearly we are intending to codify Glenn 
Podonsky's position and hopefully that legislation will move 
with the support of not only the laboratories but the 
Department of Energy. I would like to take this opportunity to 
thank each one of you and I know that you have come quite a 
distance. It certainly is good to see all of you again. We look 
forward to the next encounter.
    The Chair would adjourn the second panel and would call up 
the third panel. In our third panel today we have Mr. Gary 
Jones, Associate Director of Energy, Resources, and Science 
Issues of the General Accounting Office; Mr. Dan Miller, First 
Assistant Attorney General, Natural Resources and Environmental 
Section of the State of Colorado.
    Ms. Jones, I apologize. I introduced you as Mr. Jones.
    Ms. Jones. No problem. It happens all the time, Mr. 
Chairman.
    Mr. Burr. It is the custom of the Oversight Committee that 
all witnesses be sworn in and have the opportunity to have 
counsel. Do any of you have counsel who will be with you?
    Ms. Jones. No, sir.
    [Witnesses sworn.]
    Mr. Burr. Thank you very much. Ms. Jones, the chair would 
recognize you for the purposes of an opening statement.

    TESTIMONY OF GARY L. JONES, ASSOCIATE DIRECTOR, ENERGY, 
 RESOURCES, AND SCIENCE ISSUES, GENERAL ACCOUNTING OFFICE; AND 
  DANIEL S. MILLER, FIRST ASSISTANT ATTORNEY GENERAL, NATURAL 
RESOURCES AND ENVIRONMENT SECTION, STATE OF COLORADO, ON BEHALF 
          OF NATIONAL ASSOCIATION OF ATTORNEYS GENERAL

    Ms. Jones. Thank you, Mr. Chairman. I am pleased to be here 
today to provide our observations on improving security 
oversight within DOE and security issues related to the newly 
established National Nuclear Security Administration, or NNSA. 
While DOE has made a number of improvements to security 
oversight, our February report to this committee discussed 
areas where it could be further strengthened. For example, DOE 
needs a comprehensive system to track how all safeguards and 
security problems at its facilities are addressed.
    While DOE's Office of Security and Emergency Operations 
maintains a centralized management information system, it is 
not comprehensive and it is not directly accessible by the 
security staff at DOE's area offices and laboratories. 
Centralizing all information on security problems and their 
solutions and providing access to area office and laboratory 
safeguards and security staff would help these staff avoid 
similar problems and improve their safeguards and security 
programs.
    DOE could also make improvements to its processes for 
taking corrective actions on security problems to ensure that 
they are corrected in an economic and efficient manner. DOE's 
insependent security oversight office does not independently 
validate or verify corrective actions or certify that the 
action taken has addressed the problem identified. Therefore, 
that office has no assurance that the problems are adequately 
corrected and closed.
    Finally, ratings of safeguards and securities activities 
should be consistent among the various organizations within 
DOE. This has not been the case. For example, in 1998, Los 
Alamos received ratings that ranged from marginal to excellent. 
In 1996, Lawrence Livermore received ratings that ranged from 
marginal to far exceeds expectations. This inconsistency can 
send a mixed or wrong message to policymakers and managers. 
This inconsistency results in part from organizations' use of 
different criteria and the timing of the ratings. DOE has 
changed the safeguards and security performance rating criteria 
for the year 2000 contracts for two labs. This could result in 
more consistent ratings in the future for those laboratories.
    How does NNSA fit into the security picture? Although it 
was established to correct longstanding management and security 
problems, we have two concerns about how security management 
and oversight will be implemented for NNSA. First, there may be 
duplicate and/or overlapping security functions between DOE and 
NNSA. The Director of NNSA'S Office of Defense Nuclear Security 
is the same individual that is responsible for DOE's Security 
Office. It is called dual hatting. We believe that it is 
contrary to the intent of the law that NNSA be distinct from 
DOE. Further, it is not clear how officials responsible for 
both NNSA and DOE activities cooperate. A CRS analysis noted 
that for counterintelligence, both DOE and NNSA have authority 
to develop policy and procedures. This raises the possibility 
that two sets of policies and procedures could be implemented 
at a DOE facility like Savannah River that perform both DOE and 
NNSA missions.
    Second, significant questions remain about how the security 
oversight organization will oversee NNSA operations. The 
implementation plan states this organization will remain in 
DOE, review all DOE and NNSA security activities, and report 
its finding and recommendations to the Secretary. How the 
recommendations are handled, however, is not fully discussed. 
The independent oversight office has raised concerns that 
unless directed by the Secretary, NNSA is not required to act 
on their recommendations. Mandating that NNSA address their 
recommendations, however, could set up a relationship which 
would be inconsistent with the provisions of the act that 
prohibits NNSA personnel from being subject to the authority, 
direction, or control of DOE staff.
    Mr. Chairman, a timely implementation of our 
recommendations for improving security oversight and clarifying 
the roles and relationships of security organizations in DOE 
and NNSA will be important. Changing the culture may be more 
difficult. NNSA will be made up of DOE and contract employees 
that have worked in a DOE culture that has led to many security 
problems. For a newly created NNSA to be more effective, it 
must break out of the culture and mindset that permeates DOE. 
Otherwise security problems inherent in DOE may continue at 
NNSA.
    Thank you, Mr. Chairman.
    [The prepared statement of Gary L. Jones follows:]
   Prepared Statement of Gary L. Jones, Associate Director, Energy, 
   Resources, and Science Issues, Resources, Community, and Economic 
     Development Division, United States General Accounting Office
    Mr. Chairman and Members of the Subcommittees: We are pleased to be 
here today to provide our observations on the Department of Energy's 
(DOE) and the National Nuclear Security Administration's (NNSA) 
security programs to protect against theft, sabotage, espionage, 
terrorism, and other risks to national security at its facilities. As 
you know, the Congress established NNSA on March 1, 2000, as a semi-
autonomous agency within DOE with responsibility for the nation's 
nuclear weapons, nuclear nonproliferation activities, and naval 
reactors programs. NNSA was established to correct long-standing 
management and security problems at DOE's nuclear facilities. Our 
testimony today focuses on (1) oversight of safeguards and security 
programs at DOE and (2) security issues with NNSA. Our testimony is 
based on our numerous reviews of security at DOE--in particular, our 
recently issued report to the full Committee entitled ``Improvements 
Needed in DOE's Safeguards and Security Oversight''--and testimony 
presented earlier this month before the House Armed Services Special 
Oversight Panel on Department of Energy Reorganization.<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ See Nuclear Security: Improvements Needed in DOE's Safeguards 
and Security Oversight, (GAO/RCED-00-62, Feb. 24, 2000) and Department 
of Energy: Views on DOE's Plan to Establish the National Nuclear 
Security Administration, (GAO/T-RCED-00-113, Mar. 2, 2000).
---------------------------------------------------------------------------
    In summary, Mr. Chairman, sound management and independent 
oversight of security at DOE's nuclear facilities is critical to ensure 
that security problems are identified, raised to the attention of the 
highest levels in DOE, and corrected. DOE has recently made a number of 
improvements to its security oversight. However, our February report to 
the Committee discussed several areas where security oversight could be 
further strengthened. In particular,

<bullet> DOE needs a comprehensive tracking system for safeguards and 
        security findings at its nuclear facilities,
<bullet> all security findings and/or problems identified need to be 
        fully analyzed and appropriately closed, and
<bullet> safeguards and security ratings should be consistent among the 
        various security organizations within DOE.
    In addition, as security responsibilities shift, it is not clear 
how DOE's oversight at nuclear facilities will relate to the newly 
created NNSA. Specifically,

<bullet> while NNSA was to be distinct from DOE, the security office 
        within NNSA may have duplicative and overlapping functions with 
        DOE's security office, and
<bullet> significant questions remain about how the DOE security 
        oversight organization will oversee NNSA operations.
    We recognize that NNSA's creation, as outlined by DOE's 
Implementation Plan for NNSA, is an evolving process. However, we 
believe the best time to address past problems is when the organization 
and systems are being laid out for the first time, before commitments 
to old ways harden. Timely implementation of our prior recommendations 
for improving security at DOE and clarifying the role of DOE security 
organizations, such as NNSA, will be important. Changing the culture 
may be more difficult. NNSA will, at least initially, be made up of DOE 
and contractor employees that have worked in a DOE culture that has led 
to many security problems. For the newly created NNSA to be more 
effective, it must break out of the culture and mindset that permeates 
DOE. Otherwise, security problems inherent in DOE may continue in NNSA.
                               background
    DOE has numerous contractor-operated facilities and laboratories 
that carry out various DOE programs and missions. The laboratories 
conduct some of the nation's most sensitive activities, including 
designing, producing, and maintaining the nation's nuclear weapons; 
conducting efforts for other military or national security 
applications; and performing research and development in advanced 
technologies for potential defense and commercial applications. Because 
of these sensitive activities, these facilities--especially the 
laboratories--are targets of foreign espionage efforts.
    Security concerns and problems have existed at many of these 
facilities since they were created, and recent years have been no 
different. In 1997, DOE's Office of Security Affairs issued a report 
that rated safeguards and security at some facilities and laboratories 
as marginal and identified problem areas that included physical 
security and accountability for special nuclear 
material.<SUP>2,</SUP><SUP>3</SUP> In April 1999, all computer networks 
(except for those performing critical safety or security functions) at 
the laboratories were shut down because of concerns about inadequate 
security. During that same month, we testified before this Committee on 
numerous long-standing safeguards and security problems, including 
ineffective controls over foreign visitors, weaknesses in efforts to 
control and protect classified and sensitive information, lax physical 
security controls, ineffective management of personnel security 
clearance programs, and weaknesses in tracking and controlling nuclear 
materials.<SUP>4</SUP> In December 1999, a scientist at the Los Alamos 
National Laboratory was indicted on 59 felony counts of mishandling 
classified information. The scientist was accused of transferring files 
from Los Alamos' secure computer system to computer tapes, most of 
which cannot be accounted for. The Secretary of Energy has taken 
several steps to improve security at DOE's facilities, including 
restructuring the headquarters safeguards and security organization, 
appointing a ``Security Czar,'' elevating the security oversight 
organization to report directly to the Secretary, upgrading computer 
security, and instituting counterintelligence measures.
---------------------------------------------------------------------------
    \2\ See Status of Safeguards and Security for 1996 (Jan. 27, 1997).
    <SUP>3</SUP> The Office of Security Affairs is a DOE headquarters 
organization whose functions include establishing safeguards and 
security policies and providing advice and assistance concerning 
safeguards and security programs.
    \4\ See Department of Energy: Key Factors Underlying Security 
Problems at DOE Facilities, (GAO/T-RCED-99-159, Apr. 20, 1999).
---------------------------------------------------------------------------
    To a larger extent, to resolve organizational and managerial 
weaknesses that have been identified by ourselves and others as the 
causes of these security problems, several options for reorganizing DOE 
have been proposed and studied. For example, in June 1999, the 
President's Foreign Intelligence Advisory Board proposed a semi-
autonomous nuclear agency within DOE with a streamlined management 
structure and field operations. On October 5, 1999, the President 
signed the National Nuclear Security Administration Act, which was 
included in Public Law 106-65. This act created NNSA, a separately 
organized agency within DOE. In January 2000, DOE issued its 
Implementation Plan to create NNSA. As envisioned by the law, the 
Implementation Plan calls for three program offices within NNSA--
Defense Programs, Defense Nuclear Nonproliferation, and Naval Reactors. 
The Plan also sets up a statutorily required security support office--
the Office of Defense Nuclear Security. Overall, the Statute and 
Implementation Plan establish a structure quite similar to DOE's.
    DOE has overall responsibility for a security program that 
effectively protects against theft, sabotage, espionage, terrorism, and 
other risks to national security at its facilities. DOE has policies 
and procedures to protect its facilities, classified documents, data 
stored in computers, nuclear materials, nuclear weapons, and nuclear 
weapons components. The operating contractors at DOE's facilities are 
responsible for implementing these safeguards and security policies and 
procedures. To ensure that these policies and procedures are followed 
and implemented, DOE's field operations offices and the Office of 
Independent Oversight and Performance Assurance (the Independent 
Oversight Office) provide oversight of the effectiveness of safeguards 
and security policy and its implementation. These offices play a 
critical role in the early detection of safeguards and security 
problems and can play a major role in the timely resolution of those 
problems.
    DOE's field operations offices are the line organizations 
accountable for evaluating the laboratories' safeguards and security 
activities. The operations offices are required to conduct an annual 
survey of the adequacy of the operating contractors' safeguards and 
security programs. The Independent Oversight Office provides oversight 
of laboratory safeguards and security activities from DOE's 
headquarters. The Independent Oversight Office is an ``independent'' 
oversight organization that is separate from the line management 
structure and conducts safeguards and security inspections of DOE 
facilities and issues reports. The Independent Oversight Office reports 
directly to the Secretary of Energy.
            improvements needed in doe's security oversight
    In February 2000, we reported to this Committee that DOE's 
oversight of security at its national laboratories needs improvements. 
Specifically, improvements are needed in DOE's security management 
information system, corrective action process, and performance rating 
activities.
Security Management Information System
    DOE's Office of Security and Emergency Operations--DOE's 
headquarters safeguards and security policy organization--maintains a 
centralized management information system to track and monitor 
safeguards and security findings and the related corrective actions. 
However, findings developed between 1995 and 1998 by DOE's Independent 
Oversight Office are not included in this system nor are findings and 
recommendations developed by us and other outside organizations, such 
as congressional committees and special review teams. In addition, the 
system is not directly accessible by security staff at DOE's area 
offices and the laboratories. Each laboratory has developed its own 
information system containing data on findings that relate to their 
laboratory. As a result, information about problems at one location is 
not available to security staff at other locations. DOE's centralized 
security management information system would be of more value if it 
contained information on all security findings. Such information would 
help them avoid similar problems and improve their safeguards and 
security.
Corrective Action Processes
    DOE requires that the laboratories conduct a risk assessment, a 
root cause analysis, and a cost-benefit analysis as part of their 
process to correct safeguards and security problems found by DOE's 
oversight activities. These analyses help to ensure that safeguards and 
security problems are corrected in an economic and efficient manner. 
Despite their importance, these assessments and analyses have not 
always been conducted. For example, at the Los Alamos National 
Laboratory, we found that root cause analyses had been performed for 
only about two-thirds of the security findings we reviewed. Risk 
assessments and cost-benefit analyses had not been performed for any of 
the Los Alamos National Laboratory findings we reviewed. The Los Alamos 
National Laboratory began requiring root cause analyses in 1998, and, 
according to laboratory officials, began requiring risk assessments 
since we completed our review. Formal cost-benefit analyses are still 
not conducted. As a result, Los Alamos National Laboratory cannot 
determine whether correcting a security risk is worth the cost of the 
corrective action.
    In addition, the Independent Oversight Office is not required to 
and, in the past, has generally not worked with the laboratories to 
develop corrective action plans for its safeguards and security 
findings. Also, this office is not required to and has not been 
formally involved in validating the corrective action, verifying that 
the problem was corrected, and certifying that its findings were 
closed. During the past year, the Independent Oversight Office has 
worked with the laboratories to develop corrective action plans and has 
conducted follow-up reviews of its findings that are being corrected, 
validated, verified, or closed by the operations offices. However, the 
Independent Oversight Office still has not become involved in 
validating and verifying corrective actions and certifying that 
findings are closed. Therefore, the Independent Oversight Office has no 
assurance that the problems were adequately corrected and closed.
DOE Performance Ratings Activities
    From 1994 through 1999, DOE's nuclear laboratories have received 
many different assessments of the effectiveness of their safeguards and 
security programs. For example, in 1998 Los Alamos National Laboratory 
received ratings ranging from marginal to excellent depending on the 
DOE organization conducting the assessment. Likewise, in 1996 Lawrence 
Livermore National Laboratory received ratings ranging from marginal to 
far exceeds expectations. This inconsistency can send a mixed and/or 
erroneous message to policy makers and managers. At least partially, 
this inconsistency results from various organizations' use of different 
criteria and the timing of the rating. DOE has changed the rating 
criteria for the year 2000 safeguards and security contract performance 
rating. These changes could decrease rating inconsistency in future 
years.
                       security issues with nnsa
    Now I would like to discuss security issues related to NNSA. NNSA 
was established as a semi-autonomous agency that was to be distinct 
from DOE. To clearly show the separation of NNSA management from DOE's 
organization, the Act laid out chains of command in both DOE and NNSA 
that would insulate NNSA from DOE management and decisionmaking, except 
at the level of the NNSA Administrator. This is because the 
Administrator is under the immediate authority of the Secretary. We 
have two concerns. First, the Implementation Plan fills numerous key 
positions within NNSA with DOE officials--thus, these officials have 
DOE and NNSA responsibilities and have been dubbed ``dual-hatted.'' 
Second, the relationship of the existing DOE organization that provides 
safeguards and security oversight to NNSA is unclear.
Dual-hatted Positions
    The Implementation Plan calls for dual-hatting of virtually every 
significant statutory position, including the Deputy Administrators for 
Defense Programs and Nuclear Nonproliferation. In addition, the 
Director of NNSA's Office of Defense Nuclear Security will also be a 
dual-hatted position.<SUP>5</SUP> The Implementation Plan explains that 
the ``dual-hatted'' positions were established to ensure consistent 
policy implementation and to ensure seamless DOE and NNSA responses to 
emergencies. However, in our view, officials holding similar positions 
concurrently in DOE and NNSA is contrary to the legislative intent 
behind the creation of NNSA as a separate entity within DOE. Moreover, 
to reinforce the two separate channels of management, the Act states 
that no NNSA officer or employee shall be responsible to, or subject to 
the authority, direction, or control of any DOE officers or employees 
other than the Secretary and the Administrator.
---------------------------------------------------------------------------
    \5\ Other dual-hatted positions include the Directors of the Office 
of Defense Nuclear Counterintelligence, the Office of Emergency 
Operations, the General Counsel and Deputy General Counsel, and Field 
Office Managers in charge of the Oak Ridge, Savannah River, and Oakland 
offices.
---------------------------------------------------------------------------
    Whether DOE and NNSA have dual-hatted managers or not, the 
Implementation Plan does not clearly define how officials that are 
responsible for both NNSA and DOE activities will operate. Furthermore, 
whether NNSA security officials will establish their own set of 
policies and procedures or use existing DOE security policies and 
procedures is not clear. A Congressional Research Service memo 
commented that, in some areas, such as counterintelligence, both DOE 
and NNSA have authority to develop policy and procedures. This raises 
the prospect of two different sets of security policy and procedures, 
DOE's and NNSA's, being implemented at DOE's facilities that perform 
both DOE and NNSA missions.
                       security oversight of nnsa
    Significant questions remain in the Implementation Plan's 
discussion of the role of the Independent Oversight Office. The 
Implementation Plan states that this oversight organization will remain 
in DOE. According to the Implementation Plan, the Independent Oversight 
Office will review all DOE and NNSA sites and activities and will 
report its findings and recommendations to the Secretary. How the 
recommendations are to be handled by NNSA, however, is not discussed. 
The Independent Oversight Office has raised concerns that, unless 
specifically directed by the Secretary, NNSA is not required to act on 
oversight findings and recommendations and thus might take no action. 
The Independent Oversight Office is attempting to change DOE Order 
470.2, ``Safeguards and Security Independent Oversight Program,'' to 
require NNSA to correct safeguards and security problems identified 
during its inspections. However, depending on how the order is changed, 
this could set up a relationship which would be inconsistent with the 
provisions in the Act that prohibit NNSA personnel from being subject 
to the authority, direction, or control of any DOE staff other than the 
Secretary and the Administrator. In addition, while amending the order 
may require NNSA to act on findings and recommendations from the 
Independent Oversight Office, it will not fix the same problem for 
other oversight offices, such as the office that oversees environment, 
safety, and health.
    The day-to-day working relationship between the Independent 
Oversight Office and NNSA is also unclear. For example, the Independent 
Oversight Office inspects DOE facilities and when safeguards and 
security problems are found, works with the operating contractor at the 
facility in developing a corrective action plan. DOE's Implementation 
Plan provides no guidance on whether such relationships between 
oversight organizations and NNSA should continue to exist.
    In summary, DOE's Implementation Plan establishes a framework for 
the creation of NNSA and its security program, but it is not really a 
detailed roadmap and significant questions remain about the 
relationship between NNSA and DOE's security organizations.
    Our work on DOE's oversight of safeguards and security was 
performed from June through December 1999, and our work on the 
establishment of NNSA was performed during February 2000 in accordance 
with generally accepted government auditing standards. Mr. Chairman, 
this concludes my testimony. We would be happy to respond to any 
questions that you or Members of the Subcommittees may have.

    Mr. Burr. Thank you, Ms. Jones.
    Mr. Miller, you are recognized for your opening statement.

                  TESTIMONY OF DANIEL S. MILLER

    Mr. Miller. Thank you, Mr. Chairman. I am here today on 
behalf of Ken Salazar, the Colorado Attorney General. Mr. 
Salazar serves as the cochair of the Environment Committee of 
the National Association of Attorneys General. Today I would 
like to address a couple of provisions in the legislation 
creating NNSA that may impair a state's ability to ensure 
facilities under the NNSA's jurisdiction comply with State 
environmental laws. The section that we are particularly 
concerned about is section 3261. This language in the section 
states in part, ``The Administrator shall ensure the 
administration complies with all applicable environmental, 
safety, and health statutes and substantive requirements.''
    Although this language sounds pretty broad at first blush, 
States are concerned that Federal courts applying the doctrine 
of sovereign immunity will construe it very narrowly. To see 
how that might happen we can look at the Supreme Court in 
Hancock v. Train in a 1976 decision that interpreted the 1970 
Clean Air Act's waiver of sovereign immunity. Before 1970 
Federal agencies were encouraged but not required to comply 
with the Clean Air Act. Congress determined that this voluntary 
system wasn't working and in 1970 amended the act and to 
require Federal agencies to comply with the law, and in 
particular they added the following language, ``that each 
department, agency, and instrumentality of the Federal 
Government shall comply with Federal, State, interstate and 
local requirements respecting control and abatement of air 
pollution to the same extent that any person is subject to such 
requirements.''
    The State of Kentucky sought to compel several Federal 
facilities, including the Department of Energy's Paducah 
nuclear weapons plant, to obtain the State air quality permit. 
Under Kentucky's law the permit was the exclusive means to 
ensure compliance with substantive air quality requirements.
    The Supreme Court held that the language that I just quoted 
did not obligate Federal agencies to obtain State permits. The 
Court said that section 118 of the Clean Air Act did not 
provide that Federal agencies must comply with all requirements 
but merely applicable requirements. The Court also stated that 
the word ``requirements'' as used in section 118 meant only 
substantive, not procedural requirements such as permits or 
enforcement mechanisms. Consequently, the Court held that 
Kentucky could not require the Federal agencies to obtain air 
quality permits.
    In reaching this result, the Court read section 118 to 
include the word ``applicable'' when it doesn't appear in this 
statute and it created a distinction not present in the Clean 
Air Act between procedural and substantive requirements. So now 
reconsider the language. Under it the Administrator must ensure 
compliance only with applicable statutes and substantive 
requirements. In response to a potential State enforcement 
action the NNSA would certainly argue that only Federal 
statutes are applicable, not State statutes, that it must 
comply only with the statutes and provisions themselves and not 
with any implementing regulations, and that under the decision 
in Hancock v. Train the NNSA does not have to comply with any 
nonsubstantive requirements, including any permits or 
administrative orders or other administrative enforcement 
mechanisms.
    Our concern that section 3261 would be interpreted to 
impair existing State authority over NNSA facilities is 
heightened by a savings clause in the NNSA legislation, section 
3296. That section states, ``Unless otherwise provided in this 
title, all provisions of law and regulations in effect 
immediately before the effect of this title that are applicable 
to functions of the Department of Energy shall continue to 
apply to the corresponding functions of the administration.''
    Because of the introductory phrase ``unless otherwise 
provided in this title'' this section could be interpreted to 
imply that other provisions of Title 32 such as 3261 do limit 
the application of preexisting law to the functions of the 
administration. Otherwise there would be no need for that 
phrase. States raised these concerns last fall but because of 
the status of the legislation and the process no amendments 
were made. There is quite a bit of legislative history 
indicating that it was not the intent of the sponsors or the 
drafters of this legislation to in any way impair State 
authority. That is reflected in the Florida Base and the 
Congressional Record.
    However, we are still concerned, States are concerned that 
because of the extreme clarity that Federal courts require in 
waivers of sovereign immunity, the Federal court in reviewing 
section 3261 would simply look to the statutory language and 
not consider the legislative history. Therefore, the only way 
to address this problem is to amend the legislation to clarify 
that it does not impair State authority. We have some language 
that we have drafted and presented to you that we believe would 
be effective in maintaining the intent of the Congress that 
facilities under the jurisdiction of the NNSA continue to be 
responsible to comply with State environmental laws.
    [The prepared statement of Daniel S. Miller follows:]
   Prepared Statement of Daniel S. Miller, First Assistant Attorney 
General, Colorado Department of Law, on Behalf of Ken Salazar, Attorney 
General of Colorado and Co-Chair, Environment Committee of the National 
                    Association of Attorneys General
    Good morning. My name is Dan Miller. I am a First Assistant 
Attorney General in the Colorado Department of Law. I am here today on 
behalf of my Attorney General, Ken Salazar, who serves as co-chair of 
the Environment Committee of the National Association of Attorneys 
General (NAAG). NAAG has for many years taken an active role in working 
with Congress to ensure the safe management and cleanup of the federal 
facilities, including those managed by the Department of Energy. Today, 
I want to address provisions in the National Nuclear Security Agency 
legislation that may impair states' ability to ensure the NNSA 
facilities comply with environmental laws. I would like to submit for 
the record several letters, including one signed last fall by 43 
Attorneys General, opposing these provisions. I would also like to 
submit a legal memo analyzing the same provisions.
    Five decades of nuclear weapons production have created the worst 
environmental contamination problem in the United States. DOE estimates 
that it has contaminated over 600 billion gallons of groundwater, and 
that over 33 million cubic meters of soil will require remediation. In 
1998, DOE estimated that it would cost around $147 billion to address 
this environmental legacy. I use the word ``address'' rather than 
``clean up'' because much of the contamination will not be cleaned up. 
Instead, the best we can hope for is to contain the contamination. This 
containment will require careful maintenance and monitoring for 
hundreds or, in some cases, thousands of years.
    The main reason the costs of cleaning up the weapons complex are so 
high is that there was virtually no external regulation of the weapons 
complex for over four decades. Even though Congress passed laws as 
early as 1970 to subject federal agencies, including DOE, to the same 
environmental requirements as private parties, the federal agencies 
have been able to avoid or delay having to meet such requirements by 
exploiting a legal loophole known as ``sovereign immunity.'' Reduced to 
its basics, this doctrine provides that states may not regulate the 
federal government unless Congress waives the government's sovereign 
immunity in legislation. And any legislation waiving the government's 
immunity is construed very narrowly. It was not until 1992, with the 
passage of the Federal Facility Compliance Act, in which your Commerce 
Committee played an important leadership role, that states obtained 
adequate authority to ensure oversight of DOE's hazardous waste 
management activities.
     And that brings us to the problem with the legislation creating 
the NNSA. Section 3261 of S. 1059 contains language that may be 
interpreted to narrow existing waivers of sovereign immunity in federal 
environmental laws. The section states, in part:
        The Administrator shall ensure that the Administration complies 
        with all applicable environmental, safety, and health statutes 
        and substantive requirements.
    Although this language sounds broad, states are concerned that 
federal courts, applying the doctrine of sovereign immunity, will 
construe it very narrowly. To give an example of how this might happen, 
let's look at the waiver of sovereign immunity in the 1970 Clean Air 
Act that was the subject of the Supreme Court's 1976 decision in 
Hancock v. Train. Before 1970, federal agencies were encouraged, but 
not required, to comply with the Clean Air Act. Congress determined 
that this voluntary system was not working, and in 1970 amended the act 
to require federal agencies to comply by adding the following language:
        Each department, agency, and instrumentality of . . . the 
        Federal Government . . . shall comply with Federal, State, 
        interstate, and local requirements respecting control and 
        abatement of air pollution to the same extent that any person 
        is subject to such requirements.
    The state of Kentucky sought to compel several federal facilities--
including DOE's Paducah nuclear weapons plant--to obtain a state air 
quality permit. Under Kentucky's law, the permit was the exclusive 
means to implement substantive air quality requirements. The federal 
agencies refused, arguing that section 118 of the Clean Air Act did not 
obligate them to obtain state permits.
    The Supreme Court agreed with the federal agencies. The Court noted 
that section 118 did not provide that federal agencies must comply with 
``all . . . requirements to the same extent as any other person.'' 
Instead, the court said, ``section 118 states only to what extent--the 
same as any person--federal installations must comply with applicable 
state requirements; it does not identify the applicable requirements.''
    The Court agreed with the federal agencies' argument that the word 
``requirements,'' as used in section 118, meant only substantive 
requirements, not ``procedural'' requirements, such as permits or 
enforcement mechanisms. Consequently, the Court held that Kentucky 
could not require the federal agencies to obtain air quality permits.
    In reaching this result, the Court:

<bullet> Read section 118 to include the word ``applicable'' modifying 
        ``requirements,'' when the word ``applicable'' did not exist in 
        section 118.
<bullet> Created a distinction not present in the Clean Air Act between 
        ``procedural'' and ``substantive'' requirements.
    Now re-consider the language of section 3261. Under it, the newly 
created Administrator of the NNSA must ensure compliance only with 
``applicable'' statutes and ``substantive'' requirements. The NNSA 
would certainly argue that only federal statutes are ``applicable''; 
that it must comply only with the provisions of statutes themselves, 
not with any implementing regulations; and that, under the decision in 
Hancock, the NNSA does not have to comply with any ``non-substantive'' 
requirements, including permits or administrative enforcement 
mechanisms, such as orders.
    Our concern that section 3261 will be interpreted to impair 
existing state authority over NNSA facilities is heightened by a 
savings clause in section 3296, which states:
        Unless otherwise provided in this title, all provisions of law 
        and regulations in effect immediately before the effective date 
        of this title that are applicable to functions of the 
        Department of Energy specified in section 3291 shall continue 
        to apply to the corresponding functions of the Administration.
Because of the introductory phrase ``[u]nless otherwise provided in 
this title,'' this section could be interpreted to imply that other 
provisions of Title 32 do limit the application of pre-existing law to 
the functions of the Administration. Otherwise, there would be no need 
for the phrase.
    States raised these concerns last fall, but because the NNSA 
provisions were inserted at the time of conference, there was really no 
chance to amend them. During the floor debates on the Defense 
authorization bill, the authors of the NNSA provisions made clear that 
they did not intend to impair state regulatory authority over NNSA 
facilities, or to exempt the NNSA from any environmental obligations. 
While the states appreciate this expression of legislative intent, we 
remain concerned that, because of the extreme clarity that federal 
courts require in waivers of immunity, a federal court reviewing 
section 3261 will simply look to the statutory language, and will not 
consider the legislative history. Thus, we ask your subcommittees to 
correct this situation by amending the NNSA legislation to clarify that 
it does not adversely impact state regulatory authority over federal 
facilities.
    The only way to ensure that existing state authority over NNSA 
facilities is not impaired is to amend the NNSA legislation. This could 
be done by striking sections 3261 and 3296, and inserting the following 
language:
        The Administrator shall ensure that the operations and 
        activities of the Administration are executed in full 
        compliance with all provisions of local, state and federal law, 
        including, but not limited to, regulations, rules, orders, 
        permits, licenses, and agreements relating to environmental, 
        safety and health matters. Nothing in this Title shall be 
        construed to limit, modify, affect, or otherwise change any 
        local, state or federal environmental, safety or health law, 
        including any waiver of federal sovereign immunity in any such 
        federal law, or any obligation of the Administration or the 
        Department to comply with any such local, state or federal law.
    These amendments would ensure that NNSA facilities remain subject 
to state environmental oversight. They would effectuate the 
Congressional intent to require the NNSA to comply with environmental 
laws. And, they would not expand state authority beyond its existing 
bounds.
    The facilities that will be transferred to the NNSA pose a 
significant potential for environmental harm. Several are on the 
National Priorities List under CERCLA, and DOE estimates that cleaning 
up and decommissioning these sites alone will cost tens of billions of 
dollars. Additionally, these facilities will continue to generate and 
manage significant quantities of hazardous and radioactive wastes in 
the future. Given the existing problems at NNSA facilities, and the 
potential for additional problems at those facilities in the future, we 
must ensure that these facilities continue to be subject to state 
environmental regulation. While we continue to move forward in cleaning 
up, we need to maintain the nation's momentum--and prevent unintended 
roadblocks in the path of cleanup. We strongly urge you to enact 
legislation that makes the amendments described above.

    Mr. Burr. Thank you, Mr. Miller. The Chair would recognize 
Mr. Stupak for questions.
    Mr. Stupak. Thank you, Mr. Chairman. Mr. Chairman, just a 
couple of questions for Mr. Miller, if I may, and then Ms. 
Jones if I have time. Mr. Miller, I am sure that the State 
attorneys general have raised these concerns with the Congress 
and the DOE. What has the response been to your draft 
legislation?
    Mr. Miller. At this point I don't believe that we have 
transmitted our draft legislation to the DOE. The response we 
got last fall, as I indicated when we initially raised the 
concerns, not having proposed a solution at that time, was that 
the language that I referred to here in the statute did not in 
fact impair State regulatory authority. What we are asking here 
is to basically eliminate section 3296 and to substitute a 
couple of different sentences for that current language of 3261 
that would clarify that Congressional intent.
    Mr. Stupak. So since last fall that hasn't been to the DOE?
    Mr. Miller. No, it has not.
    Mr. Stupak. Do you plan on doing that to get their comments 
on it before you submit it?
    Mr. Miller. We certainly could.
    Mr. Stupak. That would be helpful if you are serious about 
the legislation to help the process along to get their input. 
You have heard today a lot of promises from DOE about how 
Secretary Richardson is going to assure that the environment, 
health, and safety issues will be taken care of. Does that 
satisfy your concerns, what you heard today?
    Mr. Miller. I believe most of those remarks related to the 
internal oversight within the Department of Energy, and in a 
letter that 43 attorneys general sent last fall regarding this 
legislation they did express concerns about the continued 
viability of the Department's internal oversight of its nuclear 
safety issues. Secretary Richardson's reorganization plan 
addresses some of those concerns but I believe there is still 
concern that the statutory language limiting his ability to 
delegate authority and his lack of direct response--oversight 
of the employees of NNSA still cause some concerns. The 
testimony earlier today didn't really address our primary 
concern which was to make sure that the States maintain their 
existing authority to implement their air quality, water 
quality, and hazardous waste laws at facilities under the NNSA 
jurisdiction.
    Mr. Stupak. Have you through any correspondence or 
communication with DOE that these assurances of both States 
rights to take look at the health, safety, and welfare and 
their water and workers, have you had any assurances from DOE 
or any communication back and forth asking for assurances that 
these concerns that you have raised will be satisfied when they 
are reorganized and get this new quasi-agency up?
    Mr. Miller. We have not received any correspondence from 
DOE on the States as far as I am aware. I have not received any 
correspondence from DOE regarding--other than the transmittal 
of the implementation plans.
    Mr. Stupak. But nothing to really address your concerns?
    Mr. Miller. Nothing to address our concerns, no.
    Mr. Stupak. Ms. Jones, how do you guarantee secretarial 
control of the new agency in this situation?
    Ms. Jones. Secretarial control in what situation.
    Mr. Stupak. Well, the Secretary has proposed that the head 
of this new agency have a 3-year term, which actually gives him 
more job security than the Secretary. Can you explain why an 
official with a guaranteed term needs to take direction from a 
Secretary who can be fired at any time? So my question is how 
would you guarantee secretarial control that may sort of point 
out that Mr. Richardson has proposed, Secretary Richardson? How 
would the secretarial control proposed in the new agency work 
in this situation?
    Ms. Jones. I think the 3-year term for the position was put 
in so there would be some continuity. That way when you tried 
to make changes or management reforms--both security as well as 
other kinds of management issues--you have some kind of 
continuity. As you pointed out--quite rightly so--the 
Secretary's term over the past 25 years averages about 2\1/2\ 
years. But I think the legislation is written such that the 
Secretary does have purview over the Administrator. So even if 
that Administrator is there for a longer period of time I don't 
see a disconnect there.
    Mr. Stupak. Can the Administrator be removed for cause or 
is he free, he or she free from any kind of accountability?
    Ms. Jones. I am not sure, Mr. Stupak, of the answer to 
that. I will be happy to try to provide that for the record.
    [The following was received for the record:]

    The National Nuclear Security Administration Act provided 
for the appointment of an Under Secretary of Energy for Nuclear 
Security. The Under Secretary was designated to serve as the 
Administrator of the National Nuclear Safety Administration. 
The President will make the appointment with the advice and 
consent of the Senate. As an appointed officer in the executive 
branch, the Under Secretary will serve at the pleasure of the 
President, and can be removed by the President for 
unsatisfactory performance or other reasons.

    Mr. Stupak. We have talked a little bit about trying to 
change the culture of DOE and the labs and to take safety more 
seriously. How do you do that just by putting a new Secretary 
in there or I shouldn't say a Secretary--new Administrator to 
change that culture?
    Ms. Jones. To be quite honest I don't think that you can 
just by changing the organizational structure. You have to have 
strong leaders. First of all, you have to make a culture 
change. I am not sure that when we saw the implementation plan, 
we were impressed that DOE had accepted the fact that they 
needed to make a culture change. I think that even if you go 
back to the Rudman report, they were the ones that suggested 
that you might have this organizational structure change, but 
they also stated that you cannot legislate a culture change. So 
you have to follow that with strong management and strong 
leadership to identify the kind of cultural aspects that have 
been barriers to accomplishing the mission and then go after 
those cultural aspects.
    Mr. Stupak. One more if I may. Under the current law, what 
is there to prevent any employee of the new agency to refuse to 
take any direction from a DOE employee and demand that the 
Secretary personally give such direction to the Administrator, 
who has the option of carrying out or not carrying out a 
directive?
    Ms. Jones. I think we have raised some concerns about the 
dual hatting as well as the oversight organizations because of 
the specific wording of the law.
    Mr. Stupak. Dual hatting, we are not talking about that. 
What is there to make sure that the option of carrying out 
directives are going to be done?
    Ms. Jones. I think the law needs to be clarified in that 
regard.
    Mr. Stupak. In what way clarified?
    Ms. Jones. The part of the law that talks about no DOE 
person shall have authority, responsibility, direction or 
control over NNSA staff. I think that, as DOE witnesses said 
earlier, they were focusing specifically on direction and 
control. There are other words as part of that too: authority 
and responsibility. I think that language needs to be clarified 
to make sure if you have an oversight organization, you know 
what their roles and responsibilities are.
    Mr. Stupak. Thank you, Mr. Chairman.
    Mr. Burr. The gentleman's time has expired. The Chair would 
recognize the gentlelady, Mrs. Wilson.
    Mrs. Wilson. Thank you, Mr. Chairman. Mr. Miller, section 
3296 of the NNSA Act states that, ``unless otherwise provided 
in this title, all provisions of law and regulations in effect 
immediately before the effective date of this title shall 
continue to apply to the administration.''
    How much clearer can you get that those are the laws of 
that apply?
    Mr. Miller. The problem with that section is the 
introductory phrase, ``unless otherwise provided in the 
title.'' we are concerned that section 3261, which says that 
the Administrator shall ensure the administration complies with 
applicable environmental safety and health statutes and 
substantive requirements in light of a long line of prior 
Supreme Court decisions will be interpreted very narrowly, to 
mean that the administration does not have to comply with 
permits, regulations, administrative orders or statutes that 
are deemed not to be applicable. It certainly is 
counterintuitive reading of the language but that is pretty 
much the conclusion that I have come to having read the Supreme 
Court decision in Hancock v. Train and the Department of Energy 
v. Ohio. Mrs. Wilson. Let me make sure that I understand this, 
that it is your view that 3261 read in conjunction with the 
paragraph that I read to you in 3296 makes different rules for 
the NNSA than it does for the Department of Energy?
    Mr. Miller. We are concerned that it would be read by the 
NNSA's attorneys to do that and that there is a reasonable 
chance that a Federal court hearing a case involving a dispute 
between the State trying to apply its environmental laws to the 
NNSA would side with the NNSA's interpretation. I think that 
section 3296 would be a very different matter if it did not 
have the introductory language ``unless otherwise provided in 
this title.'' It seems to me that language only needs to be 
there if there is another provision in title 32 that somehow 
does limit the application of existing laws to the NNSA. That 
is exactly what we are concerned that section 3261 does.
    Mrs. Wilson. Let me ask this again so I can get some 
clarification on this. Is it your view that the Department of 
Energy--I am not a lawyer, thank goodness--is it your view that 
the Department of Energy, that it is likely that a Federal 
court would decide differently if it were under the Department 
of Energy than it would under the NNSA?
    Mr. Miller. Yes. I think that a State trying to apply State 
environmental laws at a DOE facility not under the jurisdiction 
of the NNSA would clearly be subject to those environmental 
laws to the extent of the existing waivers of immunity and the 
Clean Air Act, RCRA, and Clean Water Act. But with the NNSA we 
have this new section, section 3216, that could be read as a 
specific waiver of immunity applying to facilities under the 
NNSA's jurisdiction and because of its wording it could be 
interpreted very narrowly in light of existing Supreme Court 
case law.
    Mrs. Wilson. I am not sure I agree with your 
interpretation, but I would forgo continuing that line of 
questioning here. I would like to ask a question--maybe it is 
really with respect to this issue of the 3-year timeframe. It 
is something that is just for clarification at this point, less 
a question than a statement; that if there is a change given a 
term of service to the first director of the NNSA, that is 
still subject to the pleasure of the President just like the 
Chairman of the Joint Chiefs is so that the concept is not that 
we pass this law and whoever gets that job has it no matter 
what he does and no matter what happens for the next 3 years, 
but that there is the same kind of concept for the Chairman of 
the Joint Chiefs that would be for this first director of the 
NNSA. And in that sense it is not much different than any other 
appointees in that respect.
    I will yield back the balance of my time.
    Mr. Burr. The gentlelady's time has expired. The Chair 
would recognize Mr. Strickland for questions.
    Mr. Strickland. Thank you, Mr. Chairman. Mr. Miller, I was 
intrigued by your testimony and impressed by the fact that so 
many attorneys general had expressed their concern, having a 
large DOE facility in my district and having some awareness 
that in the past it has been the State that has been the 
impetus for identifying problems and pushing toward 
remediation. The language that you are suggesting seems so 
reasonable and such an accurate way to deal with your concern. 
But based on your knowledge of the history of environmental 
problems at DOE facilities, could you just elaborate, if you 
would, as to why you think it is imperative that the States 
retain their authority to regulate and enforce?
    Mr. Miller. Certainly. As the committee is no doubt aware, 
the production of nuclear weapons in this country over the last 
50 years has led to the largest environmental contamination 
problem in the United States. The Department of Energy 
estimates that it will cost over $147 billion to address the 
environmental contamination caused by the last 50 years. We 
believe that one of the main contributing factors to that 
stupendous price tag is the fact that there was no external 
oversight of the Department of Energy and its predecessors 
during that whole time essentially. Until 1992, with the 
passage of the Federal Facilities Compliance Act, States really 
did not have effective oversight of DOE's waste management 
activities. Unfortunately, it was by that time most of the 
nuclear weapons production had pretty much been shut down.
    We think that clearly external State oversight is going to 
be beneficial to the environment and to the Department and the 
government in the long run in terms of making sure that DOE 
complies with the environmental laws in the first place and, if 
nothing else, a lesson that we learned is that it is cheaper to 
do it right the first time.
    I might also add that the Department of Energy has long 
exhibited a reluctance to comply with external State oversight. 
Even after RCRA was passed in 1980 DOE argued that it didn't 
apply to its own facilities. It lost that argument in a 1984 
decision, Leaf v. Hodell. After that we tried to promulgate a 
rule defining that that would basically exempt all of their 
mixed radioactive and hazardous wastes from the reach of RCRA 
jurisdiction and after some pretty extensive comments by States 
and environmental groups withdrew that rule. Then subsequent to 
that time they pretty much ignored RCRA's requirements to treat 
their mixed waste land proposal restriction standards, 
necessitating some specific statutory amendments that were 
included in the 1992 Federal Facilities Compliance Act. They 
have a pretty long history of trying to avoid external 
regulation. If it came down to an argument between the State 
and NNSA as to whether the State could apply its environmental 
laws, we are concerned that that history would be repeated. 
Certainly from the attorneys' perspective if there is an 
argument available to you, you pretty much have to make it. I 
believe that the Federal attorneys would argue that the State 
environmental law does not apply to the NNSA in light of 
section 3261.
    Mr. Strickland. Thank you. And I agree that this language 
is essential. I see no reason why we should hesitate to take 
your concern seriously.
    Ms. Jones, I have a question regarding the Administrator. I 
don't know if you can help me more fully understand or at least 
understand your perspective, but if my understanding is correct 
DOE is now suggesting that the first Administrator be given a 
3-year term but that that 3-year term not necessarily apply to 
following Administrators, but only to the first Administrator 
and then thereafter the appointment would follow the usual 
normal cycles of Presidential appointments once an 
administration changes and so on. Is that your understanding 
and, if so, is that something that you think is a wise 
approach?
    Ms. Jones. Mr. Strickland, I am not sure what the proposal 
has been. If that is their proposal, I might want to suggest 
that we look at the future. In other words, if we are going to 
have the first term run for 3 years, I am not sure that that 
should switch back and then go by the administration from then 
on out. I think one of the things that we have described in the 
past is the need for change. The need for culture change is a 
very long process and that a continuity would help in that 
process. So I think some thought should be given to continuing 
to have a specific term that maybe would span administrations 
for the Administrator of the NNSA.
    Mr. Strickland. I was not here but I have been told that 
DOE testified earlier today that the establishment of the NNSA 
has made their job more difficult. I am interested in your 
opinion. Do you think you would agree with them on that 
conclusion or not?
    Ms. Jones. I think the two gentlemen that made those 
comments were the oversight--the leaders of the two oversight 
organizations, both ES&H as well as Security. I think our 
testimony raises some concerns about clarities in terms of 
defining roles and responsibilities.
    Mr. Strickland. I am not even sure I understand this 
question well enough to ask it. I have gotten a little help 
here, but the question that I have been given is why is it 
advantageous to have two separate channels of management and do 
you think this is a wise approach?
    Ms. Jones. I would take the question to mean two different 
channels of management, NNSA and Department of Energy. I think 
that is what the law has set up. I believe that NNSA was 
created to try to streamline an organization that was felt to 
be a little out of control in terms of the amount of 
bureaucracy. I am not sure that is what NNSA did. It seems that 
DOE was just cloned and the same organizational structure was 
moved over to NNSA. So I don't think it really accomplished the 
objectives it was laid out to do.
    Mr. Strickland. One of the concerns that I have and I don't 
know whether this would be impacted by what is being suggested 
here or not, but that at my facility in Ohio we currently have 
an ongoing investigation of health hazards and medical problems 
that existed and so on. That is under the authority of DOE. I 
am wondering if having two channels of management, for lack of 
a better phrase, would at some point in the future interfere 
with the appropriate cooperation and sharing of information, 
and so on, that could arise out of such a need for such a 
thorough and extensive and historical as well as 
contemporaneous set of medical circumstances that could be 
harmful to workers. Do you understand what I am saying?
    Ms. Jones. Yes, sir, I do. I think that is a very good 
question. I think as someone else said, the devil is in the 
details in terms of how the NNSA will be implemented and its 
relationship with the Department of Energy. I think those are 
very important issues that need to be decided as it is moved 
forward and as the structure is more defined.
    Mr. Strickland. Thank you. Thank you, Mr. Chairman. No 
further questions.
    Mr. Burr. The gentleman's time has expired. The Chair would 
recognize himself. Ms. Jones, your answer on DOE cloning 
themselves, I would remind you cloning is illegal. Therefore, 
that is not what they have done. But certainly it does resemble 
it.
    Ms. Jones. I apologize, Mr. Chairman. I am sorry.
    Mr. Burr. Let me ask you under the new structure of NNSA, 
what assures us now that problems are going to be solved?
    Ms. Jones. What assures us now that the problems are going 
to be solved? I am not sure there is an assurance. I think we 
have to look forward and see how this is going to be 
implemented. As I said earlier in response to another question, 
just setting up a new organization is not going to affect the 
culture change that I think we have all talked about today.
    Mr. Burr. Help me just a minute. How can one person--I will 
use your terminology--see a cloning of DOE and how can three 
lab directors look at something and see a streamlined process?
    Ms. Jones. I think that is a very good question. You would 
have to ask them.
    Mr. Burr. In GAO's assessment of not only the history that 
you had seen, the cultural problem, I think we would all agree 
that we have done a lot to identify some of the problems. There 
have been some steps that have been taken to change the 
culture. We are not there yet and I think the lab directors, if 
they were still here and some of them are--would probably agree 
with that statement. What in the creation of the NNSA assures 
us without--if we don't apply the continuing oversight that we 
have had up to this point assures us the completion of the 
cultural change, no reversion to the problems that GAO has 
found in the past? Anything?
    Ms. Jones. I think that at this point in terms of the way 
that the NNSA has been defined, I don't see that assurance 
being provided.
    Mr. Burr. Nothing in the implementation plan that has 
suggested?
    Ms. Jones. It is not all that different from the 
organization that we saw as DOE.
    Mr. Burr. We just call it something different. Let me ask 
you on the contract evaluation because the GAO made a very 
specific and I think important observation, and that was that 
on any given area you could find a rating on a certain site's 
performance that might be marginal 1 day and above expectations 
the next day depending upon who did it and that there was a 
varying degree of I guess parameters that whoever chose. And 
certainly through some of the security problems that we found, 
we found Glenn Podonsky doing a report that found marginal, if 
not unsatisfactory ratings at the same time DOE internally in 
their contract evaluations gave certain sites exceptional 
ratings. Is there an opportunity for us to consolidate these 
evaluations in any way that we are not currently exercising 
today?
    Ms. Jones. I think that is a good question. I think one 
thing that we have also supported is strong line management as 
well as a strong independent overseer. So from that standpoint 
I think that you would want the line management to continue 
what they are doing to assure security is being met and you 
would still want Mr. Podonsky in his role as an overseer. What 
our testimony is and our report talked about, however, is let's 
look at the criteria that is underlying all of these different 
evaluations and see if we can't bring that criteria closer 
together.
    For example, you mentioned the contract evaluation on 
safeguards and securities. Basically the kinds of criteria that 
we used were very quantifiable, such as the number of 
corrective action plans were done on time. That doesn't really 
get at are we really improving safeguard and security programs. 
I know that at least at Livermore and Los Alamos they have 
changed the criteria for 2000 and they are, at least for 75 
percent of the safeguards and security piece of that contract 
evaluation, relying on the Operations Office evaluations well 
as Mr. Podonsky's office. That is not the case in other 
locations.
    Mr. Burr. Okay. I look over here at Dr. Burick, who is 
still with us, and I think about the site that he talked about 
and where they had had a safety problem, a fire, and his 
admission that to solve that problem is a resource problem. We 
have to build a new facility. No matter what we implement we 
can't be assured of 100 percent safety. They are doing what 
they can in the interim stage. And I guess the question is if 
we all use the same criteria would the likelihood be that the 
resources would be there sooner to solve the problem? I think 
what you just said is the answer, is we stand a better chance 
if we get everybody using the same criteria.
    Ms. Jones. I think we stand a better chance but the point 
that was made earlier too is that resources are finite and the 
Department is faced with environmental issues, as Mr. Miller 
has pointed out, as well as security concerns and other 
problems. So I think there is a better chance, yes.
    Mr. Burr. Let me just make one general statement. I think 
the lab representatives that were here supported what Mr. 
Podonsky's oversight role has been and would be in the future 
and stated no difference. I think to some degree they differed 
a little bit from their testimony. I would take their answers 
to the question versus their testimony. I would think that GAO 
sees what Mr. Podonsky does is an important thing to continue 
based upon your evaluation.
    Ms. Jones. Yes, sir, Mr. Burr, we would.
    Mr. Burr. Mr. Miller, let me ask you. Forty-three State 
attorney generals signed a letter. That letter basically said 
they were concerned as NNSA went through about the environment, 
safety, and health operations of facilities. Have you read 
anything in DOE's implementation plan or heard anything in the 
hearings today that alleviates your concerns?
    Mr. Miller. No, sir, I have not.
    Mr. Burr. Okay. Let me take this opportunity to--the Chair 
would ask unanimous consent to enter a number of documents into 
the record: The statement of the ranking member, Mr. Dingell, 
and I think various documents that have been shared with both 
the majority and minority, National Governors' Association, 
National Conference of State Legislators, the State of 
Washington Office of the Governor, as well as Mr. Strickland's 
statement. Any objections? Hearing none, so ordered.
    [The information referred to follows:]
    INSERT OFFSET FOLIOS 23 TO 40 HERE

<SKIP PAGES = 018>

    Mr. Burr. Let me take this opportunity to thank our third 
panel, to thank GAO for a very thorough report for this 
committee, to also thank the committee members for their 
knowledge and willingness. Hopefully next week we will take 
your concerns under consideration as we move forward with the 
legislation as we will the concerns that were expressed by the 
laboratories, by the Department of Energy, and by those who 
have commented up to this point. I think it is safe to say that 
the efforts of the committee, the efforts of the Department of 
Energy and I think the efforts of the labs are all headed in 
the same direction, and that is to make sure that the cultural 
changes that have started are continued and that solutions to 
the problems are not only found and eliminated but that we 
don't create new ones in the future. It is my hope that we will 
accomplish this great task. I thank this third panel.
    This hearing is adjourned.
    [Whereupon, at 1:23 p.m., the joint subcommittee was 
adjourned.]
    [Additional material submitted for the record follows:]

Response of the Department of Energy to Question from the Committee on 
                                Commerce

    Question 1: Do you have any objection to clarifying the 
language of the NNSA in the manner set forth in H.R. 4288 so we 
can be certain that in the future there will be no question 
about the preservation of state enforcement and oversight 
authorities9
    Answer 1: On June 9, 2000 the Department of Justice 
provided views to the House Armed Services Committee, which 
proposed an amendment in the nature of a substitute to H.R. 
4288. The Department of Energy concurs with the Department of 
Justice's proposal and recommends that any legislative action 
conform to the Department of Justice's proposal. Attached is a 
copy of the Department of Justice's letter.
    INSERT OFFSET FOLIO 41 HERE

</pre></body></html>
